<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-201]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 110-201, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                         APRIL 11 AND 25, 2007


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
            2008--Part 5  EMERGING THREATS AND CAPABILITIES


                                                  S. Hrg. 110-201 Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1547

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2008 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                         APRIL 11 AND 25, 2007


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
39-439 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                   JACK REED, Rhode Island, Chairman

EDWARD M. KENNEDY, Massachusetts     ELIZABETH DOLE, North Carolina
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia
BILL NELSON, Florida                 SUSAN M. COLLINS, Maine
E. BENAJAMIN NELSON, Nebraska        LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN CORNYN, Texas
HILLARY RODHAM CLINTON, New York     MEL MARTINEZ, Florida

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
  Nuclear Nonproliferation Programs at the National Nuclear Security 
  Administration and the Cooperative Threat Reduction Program and the 
     Proliferation Security Initiative at the Department of Defense
                             april 11, 2007

                                                                   Page
Chambliss, Hon. Saxby, U.S. Senator from the State of Texas......     3
Lugar, Hon. Richard G., U.S. Senator from the State of Indiana...     4
Nunn, Hon. Sam, Co-Chairman, Nuclear Threat Initiative...........    10
Tobey, Hon. William H., Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  U.S. Department of Energy......................................    37
Benkert, Hon. Joseph A., Principal Deputy Assistant Secretary of 
  Defense for Global Security Affairs, Department of Defense.....    45

 Efforts to Improve the Department of Defense's Language and Cultural 
                         Awareness Capabilities
                             april 25, 2007

Scales, MG Robert H., Jr., USA (Ret.), President, Colgen, Inc....    69
McGinn, Hon. Gail H., Deputy Under Secretary for Plans, 
  Department of Defense..........................................    77
Van Tilborg, Hon. Andre, Ph.D., Deputy Under Secretary for 
  Science and Technology, Department of Defense..................    86

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

  NUCLEAR NONPROLIFERATION PROGRAMS AT THE NATIONAL NUCLEAR SECURITY 
  ADMINISTRATION AND THE COOPERATIVE THREAT REDUCTION PROGRAM AND THE 
     PROLIFERATION SECURITY INITIATIVE AT THE DEPARTMENT OF DEFENSE

    The subcommittee met, pursuant to notice, at 9:36 a.m. in 
Room SR-232A, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, E. Benjamin 
Nelson, Warner, Collins, and Dole.
    Other senators present: Senators Levin and Chambliss.
    Committee staff member present: Richard D. DeBobes, staff 
director.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Michael J. McCord, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; and Lynn F. Rusten, professional 
staff member.
    Staff assistants present: Kevin A. Cronin and Jessica L. 
Kingston.
    Committee Members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; David E. Bonine, assistant to 
Senator Byrd; Elizabeth King, assistant to Senator Reed; 
Benjamin Rinaker, assistant to Senator Ben Nelson; Mark J. 
Winter, assistant to Senator Collins; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Lindsey Neas, assistant to 
Senator Dole; and John L. Goetchius, assistant to Senator 
Martinez.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Good morning. First let me welcome our 
witnesses this morning, Senator Sam Nunn and Senator Richard 
Lugar. Thank you both. I don't know if we can fully appreciate 
the contributions you've made to securing the world and 
protecting people from the worst possible situation through 
your efforts as United States Senators, and your continuing 
effort, Senator Nunn, in leading the way for sensible 
nonproliferation policy.
    I have a statement that I'd like to put in the record, just 
simply mentioning that we'll have two panels. We'll have 
Senator Nunn and Senator Lugar on one panel. Then on the second 
panel, we'll deal with the implementation issues with Will 
Tobey, the Deputy Administrator for Nuclear Nonproliferation at 
the National Nuclear Security Administration, Department of 
Energy (DOE); and Joseph Benkert, the Principal Deputy 
Assistant Secretary of Defense for Global Security Affairs.
    At this point, I invite my colleagues, to make brief 
opening statements. I know we're all very much interested in 
listening to Senator Nunn and Senator Lugar.
    [The prepared statement of Senator Reed follows:]

                Prepared Statement by Senator Jack Reed

    Good morning, it is a pleasure to welcome all of our witnesses here 
this morning. Senator Nunn, it is an honor to welcome you back to the 
Armed Services Committee and Senator Lugar it is always good to have 
you with us. We can never know what disasters were averted by your 
shared wisdom and prescience in setting up the Nunn-Lugar program to 
secure materials and keep scientists in the former Soviet Union 
gainfully employed in the early days following the collapse. Your 
continued support and dedication to the programs to secure nuclear and 
other weapons of mass destruction materials and technologies and to 
destroy the corresponding delivery systems has been unfailing. I think 
all my colleagues join me in thanking you for raising, and never 
letting us forget, the threats posed by unsecured nuclear, biological, 
and chemical, materials and weapons.
    We look forward to your thoughts on future proliferation threats 
and your views on the next steps for the Nunn-Lugar and 
nonproliferation programs at the Departments of Defense and Energy.
    Our second panel this morning will focus on those programs and 
their implementation. We look forward to a good discussion with Will 
Tobey, the Deputy Administrator for Nuclear Nonproliferation at the 
National Nuclear Security Administration, Department of Energy, and 
Joseph Benkert, Principal Deputy Assistant Secretary of Defense, Global 
Security Affairs.
    All of our witness have submitted prepared opening statements and 
without objection those will be included in the hearing record.
    To allow more time for discussion with both panels, and because 
Senator Lugar has to meet an obligation in another committee, I will 
forgo any further opening remarks.

    Senator Reed. Senator Dole.

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. Thank you, Mr. Chairman. I certainly want to 
join you in welcoming all of our witnesses this morning, but 
especially, Senator Lugar, Senator Nunn--the founding fathers 
of the Cooperative Threat Reduction (CTR) Program. We 
appreciate so much all of the work through the years, and your 
continuing concern, and look forward to hearing this morning 
how you size up the 15 years, whether the program has met the 
expectations at the time that it was authorized in 1992. Also, 
your recommendations with regard to what more the United States 
government might do to address the threat of proliferation in 
the post-September 11 world.
    I have a statement which I'll submit for the record, but in 
the interest of time, let me just again welcome you, and say 
what a privilege it is to have the opportunity to work with you 
on these vitally important issues.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Dole follows:]

              Prepared Statement by Senator Elizabeth Dole

    I would like to join Senator Reed in welcoming our witnesses this 
morning. It is a special honor to have with us today Senator Lugar and 
Senator Nunn, the founding fathers of the Nunn-Lugar Cooperative Threat 
Reduction (CTR) program.
    I look forward to hearing your assessments of whether the CTR 
program has fulfilled the expectations you had when you first created 
it in 1992. We welcome your recommendations regarding what more the 
United States Government might do to address the threat of 
proliferation in the post-September 11 world.
    The threat of weapons of mass destruction (WMD) getting into the 
hands of terrorists remains the pre-eminent threat to our country and 
our allies, as the Director of National Intelligence confirmed in 
testimony before the Armed Services Committee just a few weeks ago,
    The programs and missions for which Mr. Benkert and Mr. Tobey are 
responsible--the Department of Defense (DOD) and Department of Energy 
(DOE)--are aimed at reducing that threat, and managing the consequences 
should such weapons ever gel into the wrong hands or be utilized. These 
programs are indeed vital to our national security.
    The CTR program is well known to many of us. Perhaps less well-
known is the fact that DOE also has an impressive and growing array of 
nonproliferation programs, including Megaports and the Global Threat 
Reduction Initiative. The plutonium disposition program, however, faces 
challenges in both Russia and the United States. We look forward to a 
dialogue with Mr. Tobey about the way forward on that program. More 
generally, we are interested in our witnesses' assessments of the 
progress made to date, and your vision and recommendations regarding 
how these programs in both departments should proceed in the future.
    The fiscal year 2008 DOD and DOE budget requests demonstrate the 
administration's continuing commitment to threat reduction and 
nonproliferation programs. However, I note that the budget profile for 
CTR has been declining over the past few years, while the DOE budget is 
robust.
    I would be interested in the testimony of our witnesses today as to 
whether the fiscal year 2008 and future years budget, reflects the 
proper prioritization and sufficient resources and authorities for 
addressing the continuing threat we face. I believe that we in Congress 
must maintain and strengthen our support for these vital 
nonproliferation programs in the future.
    Let me again join our chairman in thanking our witnesses for their 
service and for appearing here today.

    Senator Reed. Thank you very much, Senator Dole.
    Senator Nelson.
    Senator Ben Nelson. I have no opening statement.
    Senator Reed. Thank you very much.
    We're joined by Senator Chambliss, who is not a member of 
the panel, but specifically wanted to be here this morning and 
participate. Thank you for joining us, Senator.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                            OF TEXAS

    Senator Chambliss. Thank you very much, Mr. Chairman, for 
letting me participate on this panel.
    I'm particularly pleased to be here because of Senator 
Lugar, who has been a great friend during my years in the 
House, and now in the Senate, being such a leader on this 
issue.
    But, most significantly, to be here to welcome my longtime 
dear friend, my constituent, formerly my Senator, Senator Sam 
Nunn. He is such a great American, such a great guy, and a guy 
who I don't get to spend enough time with, but who from time to 
time, I still use as a great resource. He's very generous with 
his time with me.
    I'm particularly pleased that he's here today to talk about 
an issue that he and Senator Lugar had been at the forefront on 
for decades. This is a very complex world that we live in 
today, and we're looking at countries today who are developing 
nuclear weapons that we never imagined would develop those 
weapons in years' past. These two gentlemen have been at the 
forefront of trying to make sure that we remove the opportunity 
from any bad guy--terrorist or potential terrorist, or 
countries who potentially might use those weapons in the wrong 
way--they have really provided a pathway to trying to make sure 
that the bad guys never got those weapons in their hands, by 
not having the ability to develop those weapons.
    So, I do thank them for being here, I thank them for their 
leadership on these issues, and I look forward to their 
testimony today, and continuing to work very closely with both 
Senator Nunn and Senator Lugar to make sure that we continue 
down the path of removing the capability of the terrorist world 
from ever being able to develop nuclear weapons or nuclear 
material for the wrong reasons.
    Senator Reed. Thank you very much, Senator Chambliss.
    Senator Lugar, I understand that you have to be at another 
hearing at 10 o'clock. We'll begin with your testimony and then 
we'll go to Senator Nunn.

STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM THE STATE 
                           OF INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, Senator 
Dole, distinguished members of the subcommittee. It's a very 
real pleasure to be here with my friend, Sam Nunn.
    The proliferation of weapons of mass destruction (WMD) was, 
and remains, the number one national security priority facing 
the United States, and the international community. Fifteen 
years ago, Sam Nunn and I determined that our Government had to 
address the threats posed by the dissolution of the Soviet 
Union. As political and military leaders backed away from a 
Cold War posture, the arsenals they had developed to threaten 
and deter each other remained capable of killing the entire 
American population, and rendering our country a wasteland.
    After the fall of the Soviet Union, the new nations of 
Ukraine, Belarus, and Kazakhstan emerged as the third-, fourth-
, and eighth-largest nuclear powers in the world. Amidst 
disarray in the Soviet political system, and threats from 
Moscow, Kiev, Minsk and Almaty, debated whether they should 
remain nuclear powers, or abandon the costly and dangerous 
Soviet-made weapons system.
    Sam and I challenged the United States, and our former 
enemies, to work together on a programmatic response to the 
threat. The Nunn-Lugar Program was the answer. The program 
helped convince the three new nuclear powers to remove all of 
their nuclear weapons from their territories. In addition, it 
became the primary tool to which the United States would work 
with Russia, to destroy its mass of nuclear, chemical, and 
biological warfare capacity.
    I have with me today the Nunn-Lugar scorecard, which is off 
to my right. My office systematically tracks the elimination of 
each warhead, missile, bomber, and submarine. To date, the 
program has destroyed more weapons than the combined arsenals 
of the United Kingdom, France, and China. The successes notated 
on these charts were never a foregone conclusion. Even after 15 
years, creativity and constant vigilance are required to ensure 
that the Nunn-Lugar Program is not encumbered by bureaucratic 
obstacles, starved by inadequate funding, or undercut by 
political disagreements.
    Through the ups and downs of the U.S.-Russian relationship, 
the Nunn-Lugar Program has been a constant. Today, while 
bilateral relations are strained in other areas, the program 
continues its important mission. But we still have a lot of 
work to do in the former Soviet Union.
    Mr. Chairman, Sam and I could relate story after story 
accumulated over 15 years as we watched the progress of 
safeguarding and destroying these weapons proceed. But, these 
successful efforts still face two challenges. First, we 
continue to complicate our own efforts to destroy WMD through 
self-imposed bureaucratic red tape. Second, more resources are 
needed to capitalize on opportunities to advance the threat 
reduction process.
    In 1991, concerns surrounding Russian intent led some 
Members of Congress to include in the original Nunn-Lugar 
legislation a requirement that the President certify annually 
that each recipient is ``committed to'' meeting six conditions. 
While well-intentioned, these certification requirements have 
sometimes delayed or complicated efforts to destroy WMD. In 
some years, more than half the fiscal year passed before the 
certification process was completed for that year.
    This restricted Nunn-Lugar funds and delayed some weapons 
dismantlement projects for months. The certifications have also 
wasted hundreds of man-hours. Instead of interdicting WMD 
shipments, or identifying the next A.Q. Khan, our 
nonproliferation experts spend their time assembling 
certification, or waiver, determinations.
    The certification requirements are counter-intuitive 
because they imply that the value of Nunn-Lugar activities 
diminishes when our differences with Moscow are amplified. In 
my judgment, the opposite is true. The benefits of verifiable 
destruction of WMD in Russia and of steady Nunn-Lugar contacts 
become even more valuable when other aspects of the U.S.-
Russian relationship are experiencing friction. The bottom line 
is that safeguarding and eliminating WMD in cooperation with a 
willing government will almost always be in the national 
security interests of the United States and the burden of proof 
should be on those who believe otherwise.
    The Senate agrees with this proposition. In 2005, the 
Senate approved an amendment that I offered to eliminate these 
certification requirements by a 78-19 vote. Last year, the 
Senate adopted a similar amendment by unanimous consent. 
Unfortunately, these provisions were not included in the 
relevant conference agreements. I'm pleased that Secretary Rice 
and National Security Advisor Hadley have endorsed my efforts. 
I have, again, introduced this legislation, and urged the Armed 
Services Committee to adopt it and serve as a strong advocate 
during conference with the House.
    The second major impediment to Nunn-Lugar Program realizing 
its full potential is money. While not the subject of as many 
cinematic thrillers, the threat posed by proliferation of 
deadly pathogens rivals the more popularized ``loose nuke'' 
threat. A large number of pathogens and disease strains remain 
scattered in various locations, often with poor security.
    Without a substantial funding increase, important 
biological projects will go unfunded, and dangerous pathogens 
such as anthrax, plague, smallpox, hemorrhagic fever, and avian 
influenza will be left unprotected and vulnerable to theft or 
diversion.
    I've written to Chairman Levin and Senator McCain urging 
them to add $100 million to the program's budget to respond to 
these threats. With these funds, we could begin projects in 
seven additional countries. Under the current funding request, 
no work will get underway in those countries for years. A $100 
million investment is a small amount when compared to the 
deaths and economic costs that would result from a biological 
weapons attack, pathogen outbreak or disease pandemic.
    Mr. Chairman, while the program continues its important 
work addressing threats to the former Soviet Union, new 
challenges are emerging. The world has watched closely as the 
Six-Party Talks on North Korea's nuclear weapons program have 
proceeded. Ambassador Chris Hill still has difficult diplomatic 
spade work ahead, but we must begin to plan for the next step. 
If negotiations yield agreement with Pyongyang to eliminate its 
WMD and their means of delivery, the Nunn-Lugar Program has 
ready expertise to do this work. It will not be the only 
program employed, but it's a unique tool that may be available 
to the President.
    In 2003, Congress approved and the President signed the 
Nunn-Lugar Expansion Act. It authorized $50 million in Nunn-
Lugar funding to be used outside the former Soviet Union. This 
authority has already been put to the use in Albania, where a 
new government turned to the United States to help deal with 
the previous government's secret 16 tons of chemical weapons, 
stored under minimal security.
    The Albanian experience reinforced that the Nunn-Lugar 
Program should have the flexibility to adjust to unforeseen 
contingencies. We should remove the $50 million limit on work 
outside the former Soviet Union. We should also give the 
Secretary of Defense the authority to implement Nunn-Lugar 
projects in difficult political and strategic environments 
without the risk that operations could be suspended because of 
unintended consequences of executive or legislative action.
    Today the $30 million Non-proliferation and Disarmament 
fund at the Department of State is the only U.S. non-
proliferation program that operates with so-called 
``notwithstanding authority.'' The Nunn-Lugar Programs should 
have similar flexibility. This authority would not preclude a 
congressional decision to adjust or limit the Nunn-Lugar 
Program's work and given causes. But, we should ensure that the 
potential for the work is not circumscribed unintentionally.
    Mr. Chairman, the Nunn-Lugar Program track record is 
impressive. Sam and I have traveled with the Program's experts 
extensively. They are committed, as we are, to protecting this 
country. We must continue to find ways to help them do their 
job better, and reduce the burdens we impose upon them.
    Governments around the world are seeking our assistance 
with dangerous weapons issues. For example, the Program could 
provide assistance to nations in Southeast Asia to secure 
pathogens and viruses. The secret chemical stockpile in Albania 
will not be the last WMD that is discovered. We must be 
prepared to go anywhere in the world, at anytime, with the 
resources necessary to eliminate those threats.
    Over the years, I've described Nunn-Lugar work to address 
threats posed by WMD as a window of opportunity. We never know 
how long that window will remain open. We should not let any 
opportunity pass to reduce the number of nuclear warheads, or 
to enhance our verification regimes. Our Government has the 
expertise and the capabilities to dramatically benefit this 
country's security. We must ensure that we have the political 
will and the resources to implement those programs devoted to 
these ends. I thank you very much.
    [The prepared statement of Senator Lugar follows:]

             Prepared Statement by Senator Richard G. Lugar

    Mr. Chairman, Senator Dole, and members of the subcommittee, it is 
a pleasure to be here today with my good friend, Sam Nunn.
    The proliferation of weapons of mass destruction (WMD) was and 
remains the number one national security threat facing the United 
States and the international community. Fifteen years ago, Sam Nunn and 
I determined that our Government had to address the threats posed by 
the dissolution of the Soviet Union. As political and military leaders 
backed away from a Cold War posture, the arsenals they had developed to 
threaten and deter each other remained capable of killing the entire 
American population and rendering our country a wasteland.
    After the fall of the Soviet Union, the new nations of Ukraine, 
Belarus, and Kazakhstan emerged as the third, fourth and eighth largest 
nuclear powers in the world. Amidst disarray in the Soviet political 
system and threats from Moscow, Kiev, Minsk, and Almaty debated whether 
they should remain nuclear powers or abandon the costly and dangerous 
Soviet-made weapons systems.
    Sam and I challenged the United States and our former enemies to 
work together on a programmatic response to the threat. The Nunn-Lugar 
Program was the answer. The program helped convince the three new 
nuclear powers to remove all of the nuclear weapons from their 
territory. In addition, it became the primary tool through which the 
United States would work with Russia to destroy its massive nuclear, 
chemical, and biological warfare capacity.
    I have with me today the Nunn-Lugar scorecard. My office 
systematically tracks the elimination of each warhead, missile, bomber, 
and submarine. To date, the program has destroyed more weapons than the 
combined arsenals of the United Kingdom, France, and China. The 
successes notated on these charts were never a foregone conclusion. 
Even after 15 years, creativity and constant vigilance are required to 
ensure that the Nunn-Lugar Program is not encumbered by bureaucratic 
obstacles, starved by inadequate funding, or undercut by political 
disagreements.
    Through the ups and downs of the U.S.-Russian relationship, the 
Nunn-Lugar Program has been a constant. Today, while bilateral 
relations are strained in other areas, the program continues to do its 
important work. But we still have a lot of work to do in the former 
Soviet Union.
    Mr. Chairman, Sam and I could relate story after story accumulated 
over 15 years as we watched the process of safeguarding and destroying 
these weapons proceed. But these successful efforts still face two 
challenges. First, we continue to complicate our own efforts to destroy 
WMD through self-imposed bureaucratic red tape. Second, more resources 
are needed to capitalize on opportunities to advance the threat 
reduction process.

                             CERTIFICATIONS

    In 1991, concerns surrounding Russian intent led some members to 
include in the original Nunn-Lugar legislation a requirement that the 
President certify annually that each recipient is ``committed to'' 
meeting six conditions. While well intentioned, these certification 
requirements have sometimes delayed or complicated efforts to destroy 
WMD. In some years, more than half the fiscal year passed before the 
certification process was completed. This restricted Nunn-Lugar funds 
and delayed some weapons dismantlement projects for months. The 
certifications also have wasted hundreds of man-hours. Instead of 
interdicting WMD shipments or identifying the next A.Q. Khan, our 
nonproliferation experts spend time assembling certification or waiver 
determinations.
    The certification requirements are counterintuitive because they 
imply that the value of Nunn-Lugar activities diminishes when our 
differences with Moscow are amplified. In my judgment, the opposite is 
true. The benefits of verifiable destruction of WMD in Russia and of 
steady Nunn-Lugar contacts become even more valuable when other aspects 
of the U.S.-Russian relationship are experiencing friction. The bottom 
line is that safeguarding and eliminating WMD in cooperation with a 
willing government will almost always be in the national security 
interest of the United States, and the burden of proof should be on 
those who believe otherwise.
    The Senate agrees with this proposition. In 2005, the Senate 
approved an amendment I offered to eliminate these certification 
requirements by a 78 to 19 vote. Last year, the Senate adopted a 
similar amendment by unanimous consent. Unfortunately, these provisions 
were not included in the relevant conference agreements. I am pleased 
that Secretary Rice and National Security Advisor Hadley have endorsed 
my efforts. I have, again, introduced this legislation and urge the 
Armed Services Committee to adopt it and serve as a strong advocate 
during conference with the House.

                                 FUNDS

    The second major impediment to the Nunn-Lugar Program realizing its 
full potential is money. While not the subject of as many cinematic 
thrillers, the threat posed by the proliferation of deadly pathogens 
rivals the more popularized ``loose nuke'' threat. A large number of 
pathogens and disease strains remain scattered in various locations, 
often with poor security.
    Without a substantial funding increase, important biological 
projects will go unfunded and dangerous pathogens such as anthrax, 
plague, smallpox, hemorrhagic fever, and avian influenza will be left 
unprotected and vulnerable to theft or diversion.
    I have written to Chairman Levin and Senator McCain urging them to 
add $100 million to the program's budget to respond to these threats. 
With these funds, we could begin projects in seven additional 
countries. Under the current funding request, no work will get underway 
in those countries for years. A $100 million investment is a small 
amount when compared to the deaths and economic costs that could result 
from a biological weapons attack, pathogen outbreak, or disease 
pandemic.

                               THE FUTURE

    Mr. Chairman, while the program continues its important work 
addressing threats in the former Soviet Union, new challenges are 
emerging. The world has watched closely as the Six Power Talks on North 
Korea's nuclear weapons program have proceeded. Ambassador Chris Hill 
still has difficult diplomatic spade work ahead, but we must begin to 
plan for the next step. If negotiations yield an agreement with 
Pyongyang to eliminate its WMD and their means of delivery, the Nunn-
Lugar Program has ready expertise to do this work. It will not be the 
only program employed, but it is a unique tool that must be available 
to the President.
    In 2003, Congress approved and the President signed the Nunn-Lugar 
Expansion Act. It authorized $50 million in Nunn-Lugar funding to be 
used outside the former Soviet Union. This authority has already been 
put to use in Albania, where a new government turned to the U.S. to 
help deal with the previous government's secret: 16 tons of chemical 
weapons stored under minimal security.
    The Albanian experience reinforced that the Nunn-Lugar Program 
should have the flexibility to adjust to unforeseen contingencies. We 
should remove the $50 million limit on work outside the former Soviet 
Union. We should also give the Secretary of Defense the authority to 
implement Nunn-Lugar projects in difficult political and strategic 
environments without the risk that operations could be suspended 
because of unintended consequences of executive or legislative action.
    Today, the $30 million Nonproliferation and Disarmament Fund at the 
Department of State is the only U.S. nonproliferation program that 
operates with so-called ``Notwithstanding Authority.'' The Nunn-Lugar 
program should have similar flexibility. This authority would not 
preclude a congressional decision to adjust or limit the Nunn-Lugar 
program's work in given cases. But we should ensure that the potential 
for Nunn-Lugar work is not circumscribed unintentionally.
    Mr. Chairman, the Nunn-Lugar Program's track record is impressive. 
Sam and I have traveled with the program's experts extensively. They 
are committed, as we are, to protecting this country. We must continue 
to find ways to help them do their job better and reduce the burdens we 
impose upon them.
    Governments around the world are seeking our assistance with 
dangerous weapons issues. For example, the program could provide 
assistance to nations in Southeast Asia to secure pathogens and 
viruses. The secret chemical stockpile in Albania will not be the last 
WMD that is discovered. We must be prepared to go anywhere in the 
world, at any time, with the resources necessary to eliminate the 
threat.
    Over the years, I have described Nunn-Lugar work to address threats 
posed by WMD as a ``window of opportunity.'' We never know how long 
that window will remain open. We should not let any opportunity pass to 
reduce the number of nuclear warheads or to enhance our verification 
regimes. Our Government has the expertise and the capabilities to 
dramatically benefit the country's security. We must ensure that we 
have the political will and the resources to implement programs devoted 
to these ends.
    Thank you.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Reed. Thank you, Mr. Chairman and Senator Lugar.
    Senator Nunn, please?

    STATEMENT OF HON. SAM NUNN, CO-CHAIRMAN, NUCLEAR THREAT 
                           INITIATIVE

    Senator Nunn. Mr. Chairman, thank you. It's good to be back 
home, and to see old friends, and particularly to see the staff 
people who are still here, and the young lady sitting in back 
of you, Madelyn Creedon, is one of the best. It's very good to 
see Madelyn.
    It's also great to be able to see here and I didn't know he 
was coming, Jim Reed. We pass laws, but the people have to 
execute them. That's where the hard work comes in and Jim Reid 
has been one of those in charge of the Nunn-Lugar Program for a 
long time. Of course, we travel with him, we've gotten the 
benefit of his advice and counsel, and he has an excellent team 
of people.
    Jim, I know that Senator Lugar joins me in thanking you and 
your group for getting out there and getting the job done.
    It's great to be back again with colleagues, Senator Reed, 
Senator Dole, my old friend, Senator Warner, and my good friend 
from Georgia, Senator Chambliss.
    Senator Nelson, it's good to be with you, and I hope you 
express my greetings and appreciation to all of the other 
members of the committee, as well as the subcommittee.
    So, I'm honored to be here. I particularly want to endorse 
everything Senator Lugar said. I know he has to run in just a 
moment, but I want to emphasize the certification issue, and 
the fact that the very fundamental part of this program is, 
it's not foreign aid, it's in our security interest. The 
certification, as Senator Lugar said, is counter-intuitive, 
because it says, in effect, that if countries are on their good 
behavior, we'll help them, but when they're not on their good 
behavior is probably when we need to attend to the problems 
even more urgently. So, this is not foreign aid, it's 
fundamental in the security interests of the United States, and 
that's an important point.
    The other point I'd like to underscore that he made, was 
the importance of dangerous pathogens, the bio-threat. We 
haven't talked as much about that, that's been part of the 
Nunn-Lugar Program from the beginning. We haven't made nearly 
as much progress on that. The Russians' in my view and personal 
judgment, illegal behavior under the biological treaty during 
the Soviet Union days--they know more about the biological 
dangers than almost anyone, because they created a great deal 
of biological capability.
    I think we have to have a breakthrough in that regard. We 
haven't had it yet. We don't get as much cooperation on bio as 
we need to get from Russia, but we need to help them in their 
country, in the former Soviet Union on the bio-threat. They 
need to be partners with the United States all over the world.
    If you looked at the paper, Global Security Newswire, in 
the last 2 days, I don't know whether it was today or 
yesterday, Denmark just came up with an internal report, this 
is not part of the former Soviet Union, this is of course, a 
Western Democracy, and a great country. That said, a very large 
number of their labs handling very dangerous pathogens were 
basically insecure.
    I'm afraid we'd find that right here in this country, too. 
I think it's a major, major problem, and one of these days it's 
going to hit us, and we're going to have another report that 
says the failure of anticipation, and the failure of 
imagination. So, I hope that the words of Senator Lugar on the 
bio-threat will be given careful attention.
    In 1948, at the dawn of the nuclear age, General Omar 
Bradley said, and I'm quoting him, ``The world has achieved 
brilliance without wisdom, power without conscience. Ours is a 
world of nuclear giants and ethical infants. We know more about 
war than we know about peace, more about killing than we know 
about living.''
    If he were alive today, I believe it would surprise General 
Bradley to know that we've made it 62 years since Hiroshima and 
Nagasaki without the use of a nuclear weapon. But the fact that 
we have made it this far should not give us any false sense of 
comfort, or confidence, that we're going to make it the next 62 
years, or maybe even the next 20 years.
    We have important efforts underway, without any doubt, we 
have some successes--Senator Lugar has made that very clear 
here this morning--including the Nunn-Lugar Threat Reduction 
Programs, the Global Threat Reduction Initiative (GTRI), the G8 
Global Partnership--where the words are perfect, the 
implementation, in my view, is sadly lacking--the Global 
Initiative to Combat Nuclear Terrorism, or the Proliferation 
Security Initiative (PSI), the rollback of Libya's nuclear 
program, which was very important, and U.N. Resolution 1540, 
which has all the right words, but we have a long, long way on 
a global basis, to have much implementation of Resolution 1540.
    President Bush has said we must do everything in our power 
to keep nuclear, chemical, and biological weapons out of the 
hands of terrorists. The 9/11 Commission called for a maximum 
effort to prevent terrorists from acquiring WMD, but, at the 
end of 2005, gave the Government a D for its progress in this 
area. In my view, the risk of a nuclear weapon today is 
growing, not receding.
    Countries like North Korea, and Iran, as we well know, are 
pushing international will to the brink by developing nuclear 
weapons technology, and in the case of North Korea, are 
unfortunately developing nuclear weapons themselves. A number 
of additional countries are considering developing the capacity 
to enrich uranium, to use as fuel for nuclear energy.
    I consider this a real tipping point. This gives those 
countries--if they do it--greater capacity to move quickly to a 
nuclear weapon program if they choose to do so. Now, it's 
perfectly legitimate to enrich. But, the difficulty is, under 
today's regimes, we cannot tell when someone moves from low 
enrichment to high enrichment, and that's the difference 
between making electricity and making deadly weapons.
    Stockpiles of loosely-guarded nuclear weapons materials are 
scattered around the world, offering inviting targets for theft 
or sale. We are working very hard on this, but we have a long 
way to go. In my view, if you look at the threat and you look 
at the response, and you look at the danger and you look at the 
response, I think the threat is outrunning our response.
    Because of an explosion of knowledge and information 
throughout the world, the know-how and expertise to build 
nuclear weapons and biological weapons is far more available. 
Terrorists are seeking nuclear weapons for the same reason that 
terrorists seized airplanes on September 11--to use them to 
inflict on the world the greatest possible human suffering, 
economic loss and geo-political chaos.
    Some nations that have had nuclear weapons since the 
signing of the Nonproliferation Treaty (NPT) are now increasing 
their reliance on nuclear weapons. Not exactly an example we 
need in the nonproliferation quest.
    Some nations that have gained nuclear weapons outside the 
Nuclear NPT seek to legitimize their nuclear status.
    Now, there is good news. The good news is that the 
potential for conflict between the major powers, and in 
particular, between the United States and Russia, has 
dramatically declined. Though both countries, for strange 
reasons to me, at least, seem reluctant to act on it, we do 
share many security concerns.
    The bad news is that there still remains a potentially 
deadly nuclear threat between the United States and Russia. 
Both countries still deploy thousands of nuclear warheads on 
ballistic missiles that can hit their targets in less than 30 
minutes--a short warning time, hair trigger, prompt-launch 
capability that increases the risk of an accidental, mistaken 
or unauthorized nuclear missile launch.
    Mindful of these rising threats, and eroding confidence in 
deterrence as we've known it, recently George Shultz, Bill 
Perry, Henry Kissinger and I published an article in the Wall 
Street Journal, I believe it was early January. We believe that 
we've arrived at a dangerous tipping point in the nuclear era, 
and we advocate a strategy for improving America, security, 
American security, and global security. Both nuclear ``have'' 
nations, and ``have not'' nations must think anew, if we are to 
prevent a nuclear nightmare.
    Whether the world recognizes it or not--and I don't think 
the world recognizes it--we are in a race between cooperation 
and catastrophe. Those of us who wrote and endorsed the Wall 
Street Journal piece--and there were a number of others, former 
Government officials who endorsed it--believe that in order to 
deal effectively with this new and dangerous era, the United 
States and the international community must embrace the vision 
of a world free of nuclear weapons, and pursue critical 
measures toward that goal.
    We believe that without the bold vision, the actions will 
not be perceived as fair or urgent, and without the actions, 
the visions, of course, will not be perceived as realistic or 
possible.
    Mr. Chairman, Senator Dole, Senator Warner, members of the 
subcommittee, we recommend the following, specific steps. What 
Senator Lugar has already talked about is number one on our 
list--we must secure nuclear weapons and materials around the 
globe to the highest possible standards, and this requires 
tremendous leadership, tremendous cooperation, and this goes 
far beyond the former Soviet Union.
    Number two, we should eliminate short-range tactical 
nuclear weapons, the bombs most likely to be targeted for theft 
or purchase by terrorists. In my view, this is not going to be 
easy. I think we should start with quiet discussions with 
Russia about transparency and accountability of these weapons, 
between the United States and Russia. If we don't know how many 
there are--and I think we do in our inventory, but if they 
don't--and I'm not sure about that--then they don't know when 
one's missing. These are the weapons that would be a 
terrorist's dream.
    Number three, nuclear weapons should be reduced 
substantially in all states that possess them, and of course, 
we are embarked on that, to a degree, in the Moscow Treaty.
    Number four, we must get control of the uranium enrichment 
process for civil nuclear fuel production, halt the production 
of fissile material for weapons, and phase out the use of 
highly-enriched uranium (HEU) in civil commerce all over the 
globe. That latter item will take time, but we need to embark 
on the journey. Last September in Vienna, on behalf of our 
Foundation, the Nuclear Threat Initiative (NTI), and with the 
support of Warren Buffett, I advanced a proposal for 
establishing an international fuel bank.
    Legislation has been introduced in Congress in support of 
this concept on the House side, by Congressman Lantos, and I 
hope the committee, the members of this committee will take a 
look at it, and encourage it and support that. Because, it's 
certainly not the overall answer, but it is a major part of the 
answer of a backup fuel bank so that we can say to countries 
all over the globe, ``You're going to have assurance of fuel 
supply. If everything else fails, the International Atomic 
Energy Association (IAEA) will have an international fund of 
fuel, low-enriched uranium (LEU), and you will be eligible for 
that if you are not enriching, and if you are not 
reprocessing.'' So this one, I think, is very important. It has 
to be joined with other tiers of guarantees, but it is the 
last, best hope.
    Number five, we must redouble efforts to resolve regional 
confrontations and conflicts. Now, as this committee well 
knows, this will not be an easy task, but it is an essential 
one if we are to stem the incentive for acquiring nuclear 
weapons in places like the Middle East, Southwest Asia, as well 
as the Korean Peninsula. These are not simply regional 
conflicts, they create tensions and confrontations that shape 
global world security, and America has a huge stake in each of 
those regions.
    Number six, we should work to bring the Comprehensive Test 
Ban Treaty (CTBT) into force, in the United States and in other 
key states. I would urge the committee to go back and take a 
look at the reasons that people opposed that ratification back 
a number of years ago, and review those, and look at what's 
happened since then, look at the stewardship program, look at 
the simulation capabilities, look at the technology that we can 
now use to ease some of the concerns that were legitimate at 
the time that was debated. I believe that the report of the 
former Chairman of the Joint Chiefs of Staff, John 
Shalikashvili, a year or two after that was debated, I think 
that ought to be reviewed again by the committee, and by the 
Senate. That the safeguards he recommends as a roadmap to 
ratification should be updated and taken very seriously. I 
think that's very important in terms of the United States 
leadership in the world. When we don't ratify the CTBT, it's 
often hard to lead from a position of moral authority 
throughout the world. I know we have to deal with the problems, 
but I think they can be dealt with.
    I would note, Mr. Chairman, that former President 
Gorbachev, who recently published his own essay in support of 
the Shultz, Kissinger, Perry, Nunn essay in the Wall Street 
Journal, has advocated ratification of the CTBT, and removing 
nuclear weapons from hair trigger status as two crucial steps 
that should be taken without delay by the United States and 
Russia, and other members of the nuclear club. I think the 
world should take President Gorbachev up on his challenge.
    The United States and Russia should also, in my view, move 
to change the Cold War posture of their deployed nuclear 
weapons to greatly increase warning time in both countries, and 
ease our fingers away from the nuclear trigger.
    Mr. Chairman, we could talk a long time about this, but I 
just pose this simple--but, I think, pretty important 
question--is it in the United States national security interest 
for the President of Russia to have only a few minutes to 
decide whether to fire his nuclear weapons, or lose them in 
response to what could be a false warning? Is that in our 
interest? I think the answer is clearly, no. I would hope that 
this question would be asked, in reverse, in Russia, and that 
we would begin to ask it together.
    Last, but perhaps, most importantly, I believe that we must 
enhance our verification capabilities--policies as well as 
technical agreements, once again restoring and elevating 
President Reagan's maxim, ``Trust but verify'' as an essential 
component of our National security policy. In my view, we 
should put at least as much effort into verification as we do 
into missile defense. I'm not talking about necessarily money, 
I'm talking about effort, policies, procedures, thoughts and 
guidelines. It's going to take a lot of verification to deal, 
not only with the nuclear, not only with something like a 
Fissile Material Cutoff Treaty if we ever get one, but also 
going back and finding out how we can do a lot better job of 
verifying the biological treaty, which has no verification, and 
which may be--in the long run, one of our greatest dangers.
    It's going to require U.S. leadership. Accomplishing all of 
these steps is going to require a great deal of cooperation, 
and it's going to require, not only leadership from the nuclear 
nations, but also those nations that do not have nuclear 
weapons. The bottom line, I believe, is that we need a 
strategic reassessment of the roles and purposes of nuclear 
weapons in the 21st century, and an urgent change in direction 
with both the vision and the steps. This new direction will 
require Presidential leadership, and a consensus judgment in 
Congress to sustain it. As this subcommittee well understands, 
the discussion is just beginning.
    In closing, Mr. Chairman, I believe that the vision and the 
actions must go together. We cannot defend America without 
taking these actions, and I think if you look at the list, you 
will agree with, I believe, all of them, but at least most of 
them. We cannot take these actions without the cooperation of 
other nations. We cannot get the cooperation of other nations 
without embracing the vision of a world free of nuclear 
weapons, which every President from Richard Nixon to George W. 
Bush has reaffirmed through our Nation's agreement to Article 
VI of the NPT, which is the law of the land.
    This cannot happen overnight. It will take a long process, 
it has to be done in stages. The United States must have its 
nuclear weapons as long as other nations do, no doubt about 
that. But we will be safer and the world will be safer if we 
are working toward the goal of de-emphasizing nuclear weapons, 
and ultimately ridding our world of them.
    Nearly 20 years ago, Ronald Reagan was asked to identify 
the most pressing need in international relations. In response, 
President Reagan asked his audience to imagine that, quoting 
him, ``All of us discovered that we were threatened by power 
from outer space, from another planet.'' The President then 
asked, quoting again, ``Wouldn't we come together to fight that 
particular threat?'' After letting that image sink in for a 
moment, which he was so good at doing, President Reagan came to 
his point, ``We now have a weapon that can destroy the world. 
Why don't we recognize that threat more clearly, and then come 
together with one aim--how safely, sanely and quickly can we 
rid the world of this threat to our civilization and our 
existence?''
    Mr. Chairman, Senator Dole, Senator Warner, Senator Levin, 
and members of the committee, if we want a safer world for our 
children and grandchildren, I think our generation must begin 
to answer President Reagan's question.
    Thank you very much.
    [The prepared statement of Senator Nunn follows:]

             Prepared Statement by Former Senator Sam Nunn

    Mr. Chairman, I commend you, Senator Dole, and your subcommittee 
for your efforts to stimulate a thoughtful discussion over how we can 
improve our security and reduce nuclear threats to our Nation and the 
world. I also want to thank Senators Levin, Warner, McCain, Byrd, and 
Kennedy and my other former colleagues for their important work in this 
area over many years on the Armed Services Committee. I especially want 
to thank my friend, Senator Lugar, who is providing outstanding 
leadership in the Senate to reduce nuclear dangers, and I am honored to 
be with him today. I thank the subcommittee for the opportunity to 
discuss with you today the issue of U.S. nuclear weapons policy.
    In 1948, at the dawn of the nuclear age, General Omar Bradley said, 
``The world has achieved brilliance without wisdom, power without 
conscience. Ours is a world of nuclear giants and ethical infants. We 
know more about war than we know about peace, more about killing than 
we know about living.''
    If he were alive today, it might surprise General Bradley to know 
that we have made it 62 years since Hiroshima and Nagasaki without the 
use of a nuclear weapon. But that fact should not give us a false sense 
of confidence that we will make it the next 62, or even the next 20 
years.
    We have important efforts underway and some successes--including 
the Nunn-Lugar Threat Reduction Programs, the Global Threat Reduction 
Initiative, the G8 Global Partnership, the Global Initiative to Combat 
Nuclear Terrorism, the PSI, the rollback of Libya's nuclear program and 
U.N. Resolution 1540.
    President Bush has said we should do ``everything in our power'' to 
keep nuclear, chemical, and biological weapons out of terrorist hands. 
The 9/11 Commission called for a ``maximum effort'' to prevent 
terrorists from acquiring weapons of mass destruction, but at the end 
of 2005 gave the government a ``D'' for its progress in this area. In 
my view, the risk of a nuclear weapon being used today is growing, not 
receding.

        <bullet> Countries like North Korea and Iran are pushing 
        international will to the brink by developing nuclear weapons 
        technology and--in the case of North Korea--nuclear weapons.
        <bullet> A number of additional countries are considering 
        developing the capacity to enrich uranium to use as fuel for 
        nuclear energy--giving them greater capacity to move quickly to 
        a nuclear weapons program if they choose to do so.
        <bullet> Stockpiles of loosely guarded nuclear weapons 
        materials are scattered around the world, offering inviting 
        targets for theft or sale. We are working on this, but I 
        believe that the threat is outrunning our response.
        <bullet> Because of an explosion of knowledge and information 
        throughout the world, the know-how and expertise to build 
        nuclear weapons is far more available.
        <bullet> Terrorists are seeking nuclear weapons for the same 
        reasons terrorists seized airplanes on September 11--to use 
        them to inflict on the world the greatest possible human 
        suffering, economic loss, and geopolitical chaos.
        <bullet> Some nations that have had nuclear weapons since the 
        signing of the Nuclear Nonproliferation Treaty (NPT) are 
        increasing their reliance on nuclear weapons.
        <bullet> Some nations that have gained nuclear weapons outside 
        of the Nuclear NPT seek to legitimize their nuclear status.
        <bullet> The good news is that the potential for conflict 
        between the major powers, and in particular between the United 
        States and Russia, has dramatically declined. Though both 
        countries seem reluctant to act on it, we share many security 
        concerns. The bad news is that there still remains a 
        potentially deadly nuclear threat: both countries still deploy 
        thousands of nuclear warheads on ballistic missiles that can 
        hit their targets in less than 30 minutes--a short warning 
        time, ``hair trigger'' prompt launch capability that increases 
        the risk of an accidental, mistaken or unauthorized nuclear 
        missile launch.

    Mindful of these rising threats and the eroding confidence in 
deterrence as we have known it, George Shultz, Bill Perry, Henry 
Kissinger, and I published an article in January in the Wall Street 
Journal. We believe that we have arrived at a dangerous tipping point 
in the nuclear era, and we advocate a strategy for improving American 
security and global security.
    Both nuclear ``have'' and ``have not'' states must think anew if we 
are to prevent a nuclear nightmare. Whether the world recognizes it or 
not--we are in a race between cooperation and catastrophe.
    Those of us who wrote and endorsed the Wall Street Journal piece 
believe that in order to deal effectively with this new and dangerous 
era, the United States and the international community must embrace the 
vision of a world free of nuclear weapons and pursue crucial measures 
toward achieving that goal. We believe that without the bold vision, 
the actions will not be perceived as fair or urgent. Without the 
actions, the vision will not be perceived as realistic or possible.
    We recommend actions by the five nuclear weapon states that are 
parties to the Nuclear NPT; actions by those states with nuclear 
weapons outside the NPT; and actions by nations who may have the 
capability--although hopefully not the intent today--to produce nuclear 
materials or nuclear bombs.
    Mr. Chairman, Senator Dole, and members of the committee, we 
recommend the following specific steps:

          1. We must secure nuclear weapons and materials around the 
        world to the highest standards;
          2. We should eliminate short-range ``tactical'' nuclear 
        weapons, the bombs most likely to be targeted for theft or 
        purchase by terrorists. In my view, we should start with 
        transparency and accountability of these weapons between the 
        United States and Russia.
          3. Nuclear weapons should be reduced substantially in all 
        states that possess them.
          4. We must get control of the uranium enrichment process for 
        civil nuclear fuel production, halt the production of fissile 
        material for weapons and phase out the use of highly enriched 
        uranium in civil commerce.

                  a. Last September in Vienna, on behalf of the Nuclear 
                Threat Initiative and with the support of Warren 
                Buffett, I advanced a proposal for establishing an 
                international fuel bank. Legislation has been 
                introduced in Congress to support the establishment of 
                such a bank, which I hope members of this committee 
                will encourage and support.

          5. We must redouble efforts to resolve regional 
        confrontations and conflicts. As this committee well knows, 
        this will not be an easy task, but it is an essential one if we 
        are to stem the incentives for acquiring nuclear weapons in 
        places like the Middle East, southwest Asia and the Korean 
        peninsula. These are not simply regional conflicts. They create 
        tensions and confrontations that shape world security.
          6. We should work to bring the Comprehensive Test Ban Treaty 
        into force--in the United States and in other key states. I 
        believe that we should use the report by former Chairman of the 
        Joint Chiefs of Staff John Shalikashvili and the safeguards 
        that he recommends as a roadmap to ratification here at home.

                  a. I would note that former President Gorbachev, who 
                has recently published his own essay in support of our 
                Wall Street Journal piece, has advocated ratification 
                of the CTBT and removing nuclear weapons from hair 
                trigger alert as two crucial steps that should be taken 
                without delay by members of the nuclear club. I believe 
                that the world should take up President Gorbachev's 
                challenge.

          7. The United States and Russia should move to change the 
        Cold War posture of their deployed nuclear weapons to greatly 
        increase warning time in both countries and ease our fingers 
        away from the nuclear trigger.

                  a. To accomplish this step, I urge the two Presidents 
                to order the military and defense officials of each 
                country to present to them a set of options to increase 
                warning time on both sides. I believe that a front 
                burner option should be to remove all nuclear weapons 
                from hair trigger status, which would greatly increase 
                warning time and reduce the danger of an accidental or 
                unauthorized missile launch.
                  b. These officials should jointly determine which 
                threats justify keeping thousands of nuclear weapons on 
                hair trigger status, and then recommend steps to 
                eliminate those threats and thus end the justification 
                for deploying nuclear forces in this posture. Other 
                prudent ways to increase warning time for both 
                countries should be developed by our defense leaders 
                and presented for consideration.
                  c. The Presidents, in close consultation with 
                Congress and the Duma, should then jointly adopt an 
                approach and a timetable to get the job done, and 
                challenge other nuclear nations to follow this lead.
                  d. This increased warning time would improve the 
                security of the United States and the security of 
                Russia, and would set a powerful example for the world.
                  e. Chairman Reed, Senator Dole, and members of the 
                committee, each day we should ask ourselves: ``Is it in 
                the United States' national security interest for the 
                President of Russia to have only a few minutes to 
                decide whether to fire his nuclear weapons or lose them 
                in response to what could be a false warning?'' I would 
                hope that this question would be asked in reverse in 
                Russia and that we would begin to ask it together.

          8. I believe that we must enhance our verification 
        capabilities, policies and agreements, once again restoring and 
        elevating President Reagan's maxim of ``trust but verify'' as 
        an essential component of our national security policy. In my 
        view, we should put at least as much effort into verification 
        as we do into missile defense.

    Mr. Chairman, Senator Dole, and members of the committee, 
accomplishing these steps will require intensive work with leaders of 
the countries in possession of nuclear weapons to turn the goal of a 
world without nuclear weapons into a joint enterprise. This will 
require U.S. leadership.
    I believe that we need a strategic reassessment of the role and 
purposes of nuclear weapons in the 21st century and an urgent change in 
direction with both vision and steps. This new direction will require 
Presidential leadership and a consensus judgment in Congress to sustain 
it. As this subcommittee well understands, this discussion is just 
beginning.
    In closing, I believe that the vision and actions must go together. 
We cannot defend America without taking these actions; we cannot take 
these actions without the cooperation of other nations; we cannot get 
the cooperation of other nations without embracing the vision of a 
world free of nuclear weapons--which every president from Richard Nixon 
to George W. Bush has reaffirmed through our Nation's commitment to 
Article VI of the NPT.
    This cannot happen overnight. It will be a long process, done in 
stages. The United States must have its nuclear weapons as long as any 
other nations do. But we will be safer, and the world will be safer, if 
we are working toward the goal of deemphasizing nuclear weapons and 
ultimately ridding our world of them.
    Nearly 20 years ago, Ronald Reagan was asked to identify the most 
pressing need in international relations. In response, President Reagan 
asked his audience to imagine that ``all of us discovered that we were 
threatened by a power from outer space--from another planet.'' The 
President then asked: ``Wouldn't we come together to fight that 
particular threat?'' After letting that image sink in for a moment, 
President Reagan came to his point: ``We now have a weapon that can 
destroy the world--why don't we recognize that threat more clearly and 
then come together with one aim in mind: How safely, sanely, and 
quickly can we rid the world of this threat to our civilization and our 
existence.''
    Mr. Chairman, Senator Dole, and members of the committee: If we 
want a safer world for our children and grandchildren, our generation 
must answer President Reagan's question.

    Senator Reed. Thank you very much, Senator Nunn.
    We've been joined, as you pointed out, by Senator Levin, 
Senator Warner, and Senator Collins. We'd like to do about 6-
minute rounds of questioning.
    So, let me first thank you and Senator Lugar for your very 
compelling testimony, but not only that, for your work over 
several decades now, which ranks--I believe, along with the 
Marshall Plan--as laying out a vision for this country, based 
upon not just altruism, but reality and realism, to help make 
this a much more secure and safer world. So thank you for your 
continued interest.
    I will go ahead and begin the questioning, and then turn to 
my colleague, Senator Dole.
    Currently, you and Senator Lugar both have been able to 
inspect the chemical weapons destruction facility in Russia, 
that we're building, and it appears that the Department of 
Defense (DOD) is going to curtail their expenditures to about 
$1.04 billion, essentially, give the Russians $200 million more 
and say, ``finish it, and run it.'' My question, Senator Lugar 
and Senator Nunn is, are those, in your mind, will that be an 
adequate way to resolve the situation, to finish the facility 
and to continue to do what we want to do, which is to have them 
actively destroy their chemical weapons?
    [The information referred to follows:]

    I have visited the Chemical Weapons Destruction Facility at 
Shchuchye on three occasions. On one occasion, as Senator Nunn 
described in his testimony, he and I toured the chemical weapons 
stockpile stored at a nearby, military base. The facility is made up of 
14 old wooden warehouses. Some have broken windows covered over with 
chicken wire. The high fence and the military guards are the only hint 
of what is inside--one of the world's largest stockpiles of deadly 
nerve gas, nearly 2 million easily portable artillery shells and 
missile warheads filled with lethal sarin, soman, and VX. It's enough 
to kill the world's population 20 times over.
    These chemical weapons, part of a massive Soviet-era arsenal that 
totals more than 40,000 metric tons, must be eliminated before they 
fall into the hands of terrorists. The U.S. and Russia, along with 153 
other countries, approved the Chemical Weapons Convention (CWC), each 
country committed to ban the production of chemical weapons and destroy 
our huge stockpiles that were built during the Cold War. It is clearer 
than ever that our own national security is bolstered by a vigorous 
international campaign to contain and destroy all chemical weapons 
stockpiles.
    With the world threatened by global terrorists seeking weapons of 
mass destruction, it is hard to overstate how serious this problem is. 
A single 85mm artillery shell from Shchuchye can be concealed in a 
briefcase, but carries enough poison gas to kill up to 100,000 people. 
A disgruntled insider could smuggle one out, or a determined group of 
well-armed terrorists could penetrate the installation's defenses.
    There is plenty of blame to go around for the delays we have 
encountered in destroying the chemical weapons munitions at Shchuchye. 
In the past, Moscow was unable to pay its share of destruction costs 
and was suspicious of providing information on its weapons programs. 
For 3 years, funds from the Nunn-Lugar Cooperative Threat Reduction 
program designated for Shchuchye were blocked by some in Congress who 
asserted that Russia's failure to comply with its CWC obligations 
requires the suspension of joint chemical weapons destruction efforts.
    Although Congress granted the president temporary waiver authority 
to get the money flowing again, the United Slates lost valuable time on 
an urgent project. We are in a race to rid the world of these dreadful 
weapons before terrorists get their hands on them, and we shouldn't let 
self-imposed bureaucratic hassles slow us down. Some in Congress and in 
the administration ask why we should spend money to clean up the 
Russian mess: 'They made their bed, now they can lie in it.' The 
trouble is, in the meantime terrorists could steal weapons of mass 
destruction, and use them against our Armed Forces, the United States, 
or our allies.
    Despite the strong support from the President and the 
administration, Congress continues to place six conditions on U.S. 
assistance to the chemical weapons destruction program at Shchuchye. 
Current law requires that the President certify that Russia has met 
each of these six conditions. Absent such a certification, funds cannot 
be obligated and cannot be expended until or unless the Administration 
certifies that cooperation is ongoing or a waiver is put in place. In a 
number of circumstances, they cannot certify that these conditions are 
being met and consequently, they have to request waiver authority so 
that the conditions can be waived and funding can go forward. As I 
indicated in my testimony these certification requirements need to be 
eliminated. While well intentioned, these conditions delay and 
complicate efforts to destroy weapons of mass destruction. As recently 
as 2003, Shchuchye funding was not available for expenditure until more 
than half of the fiscal year had passed before the bureaucratic process 
was concluded. None of these certifications justifies stopping the 
destruction of the stockpile at Shchuchye. We must eliminate, not 
preserve, mechanisms that slow down our work.
    During the past 2 years, our efforts at Shchuchye have been 
frustrated by what I suspect is the intentional manipulation of the 
U.S. contracting process. In what is believed to be one of the final 
contracts, the U.S. Government, through our main contractor, the 
Parsons Company, has submitted two separate requests for proposals to 
install the destruction equipment in one of two destruction buildings. 
Unfortunately, despite our best intentions and meticulous cost analyses 
and evaluations none of the bids that have been received have been 
consistent with U.S. estimates. In each of the two subcontractor 
bidding processes, early estimates provided by some Russian companies 
were considered responsible and accurate. Unfortunately, each bidder on 
each occasion dramatically increased their proposed cost estimate days 
before the awarding of a contract. Nunn-Lugar staff from the Pentagon 
and the Defense Threat Reduction Agency suspect intentional and 
organized contract manipulation.
    After the Nunn-Lugar Program's third such experience, the program 
decided to take a new path. The program is currently in negotiations 
with the Russian Government on a way forward. As Principal Deputy 
Assistant Secretary of Defense for Global Security Affairs, Joseph 
Benkert, testified earlier today the Pentagon expects ``to amend the 
agreements and add the final contracts and funding to complete this 
project very soon.''
    Today the project at Shchuchye is approximately 50 percent 
complete, planning is more than 99 percent complete. I know that 
Senator Reed expressed concern about the direction this project will 
ultimately take. I am also concerned. My number one goal is to ensure 
that the weapons at Shchuchye are eliminated as quickly as possible. 
They pose a dangerous threat to U.S. and international security.
    I had hoped that the project at Shchuchye could have been completed 
in the same contracting and oversight fashion that it started. 
Unfortunately this does not appear to be possible. I believe the United 
States must maintain a strong role in the process independently or 
through the Parsons Company. Transparency remains a critical component 
of the Nunn-Lugar Program. We must be able to prove to the American 
people that these investments are in US national security interests.
    In sum, each of us shares the same goal and that is the elimination 
of a potential threat. I am hopeful that a solution will be worked out 
soon that will allow the facility at Shchuchye to get started 
destroying these dangerous weapons. I plan to visit Shchuchye this 
August, and will be happy to share with this committee my findings and 
thoughts about the future of the project.

    Senator Nunn. I'm going to defer to Senator Lugar, and I 
assure you he could answer that question for the record in 
terms of the update, but my impression of that destruction 
facility is that it has required a great deal of investment, 
the Russians have put a good bit in it, we've put an enormous 
amount of money in it and it's extremely important.
    The times I've visited the chemical weapons storage 
facility, basically you go in the buildings, you put on gas 
masks, you go in and you see these stacks, as high as this 
roof, almost as high as this ceiling, here, of one artillery 
tube after another, full of chemical weapons. We had a 
mathematician, Ash Carter, with us when we visited, and he 
computed--I'll assume he was correct--we had enough, they had 
enough chemical weapons in that facility to kill everybody on 
the face of the Earth three or four times over, if it was 
disseminated in an efficient way. Of course, it wouldn't be, 
chemicals aren't, but that shows you the magnitude--each one of 
those artillery tubes--and they would fit in a briefcase--could 
basically kill thousands and thousands and thousands of people.
    The other thing that impresses you is, there are holes in 
the roof. People could actually climb in those buildings. 
Unless you're suicidal, it wouldn't make much sense, unless 
you're trying to steal them, but that's the problem. I was not 
at all satisfied with the security there, though it's been 
dramatically improved, with our help, but there's also a time 
problem, because the land is very wet, and it is, in effect, 
gradually sinking. So, I think there's some urgency in getting 
rid of those. The thing is, Mr. Chairman, I'd have to be 
updated on the program to give you a precise answer of what 
Russia has done lately, but it's in--very much in Russia's 
interest to get these weapons destroyed.
    We're working in good faith to get our chemical weapons 
destroyed. My impression of that program is, we're not quite on 
schedule--the Russians are way behind schedule but it's 
fundamentally in both countries' interest to get on with the 
job.
    It's also in the interest of our European friends, and this 
is where some of these European nations in the G8 have signed 
up to help on chemical weapons destruction. So, I think it's an 
urgent priority, in terms of the exact procedure of how to deal 
with Russia and the obstacles right now, I'm going to have to 
defer to my colleague on that.
    Senator Reed. We'll follow up with Senator Lugar, thank 
you, Senator Nunn.
    In recent articles, you've expressed your concern that the 
United States has lost leadership to address these nuclear 
issues and other issues, and what must we do to regain this 
credibility and this leadership? Because, I think we all feel 
that without strong American leadership that this endeavor will 
not work.
    Senator Nunn. I think we have to basically announce to the 
world that we are serious about Article VI of the 
Nonproliferation Treaty, reiterate what we are already doing 
with the Moscow Treaty, and the time schedule.
    I believe one of the most profound statements we could make 
would be to join with Russia in saying that we have a goal in 
the next few years of getting all of our weapons off hair 
trigger alert. There is no need--15 years after the Cold War--
for both nations to be able to destroy each other within an 
hour or two. Is is right for the President of Russia to have 
only a few spare--a few very crucial minutes to decide whether 
a false warning is in play, or whether we really are attacking?
    The condition of their satellites and radars have gone down 
since the Cold War, they're not as good with warning as they 
were. That's fundamentally against our interests, because we 
don't want them to make a mistake. So, getting weapons off of 
hair trigger alert, basically working with Russia on that, 
getting tactical nuclear weapons with some degree of 
accountability and transparency, and I'm sure that's not going 
to be made public by Russia for a long time, but I think we 
could exchange data on that.
    Greatly accelerating the securing of nuclear materials all 
over the world, and getting Russia to be a partner, not just 
simply a supplicant for funds, but a partner, in not only the 
former Soviet Union, but elsewhere. Because there are over 40 
countries that have enough HEU to make a weapon. Once that gets 
away from the source, Mr. Chairman, it's like a needle in a 
haystack--protecting at the source, securing at the source, and 
eventually destroying at the source, or in some facility near 
the source is the best way, and the most efficient way to deal 
with that.
    So, all of those are, I think, important ways that we could 
lead. I also believe that if the Senate of the United States 
took a real lead in looking, again, at the CTBT it would be to 
our advantage. I think you'll find that some of those concerns 
we've already dealt with, that were legitimate back then. I 
think it's time for a fresh look, I think it would send a 
totally different signal to the world. The way I see it, the 
vision of getting rid of all nuclear weapons is a very high 
mountain, but I think we ought to have that vision.
    I believe if we look at the scorecard now, we're not--we, 
being Russia, the United States, all the nuclear powers and the 
world, the big ``we''--we're not heading up the mountain, we're 
heading down the mountain. I've listed a lot of those concerns. 
We have to turn around, we have to show the world that we're 
heading up the mountain, and that we need people to go with us. 
We have to look for trails that lead up, and some of the things 
I've mentioned, I think, do lead up that mountain, and we have 
to get other people to go with us.
    That's a big job, but the stakes are the future of the 
world.
    Senator Reed. Thanks, Mr. Chairman.
    One final question, Senator Nunn, that is, there's been 
some concern about the relevancy of the nuclear 
Nonproliferation Treaty (NPT) today, and I wonder if you have 
any quick thoughts about changes in the NPT that would be 
helpful to make this climb up the hill?
    Senator Nunn. Well, certainly the additional protocol that 
has been pushed by the IAEA and by the United States and 
others, would help on the inspections. But, when you look at 
countries like India and Pakistan and Israel that are not under 
the NPT; when you look at the NPT in terms of permitting 
fissile material to be made, but only to the low-enriched 
level, but you don't have the inspection regime to make sure it 
doesn't go from low-enriched to high-enriched; when you look at 
the number of countries that are now lining up, saying they are 
about to go into production of fissile material--last count I 
had, it was seven additional countries; when you look at Iran 
and North Korea--all of that means that we have to, I think, 
strengthen the NPT, but it can't be the only thing, it's not a 
strong enough foundation to, basically, carry this load. That's 
why this vision and these actions, we're painting a much 
broader picture that includes strengthening a NPT, but it is 
not in any way limited to that. It's much broader.
    We have to have countries like India and Pakistan and 
Israel participating in this much broader vision, and in these 
steps. We have to have countries that don't have nuclear 
weapons, but have nuclear materials, and HEU--they have to be 
stewards that are just as conscientious about this material as 
we are about our weapons.
    The way I view it, Mr. Chairman, we were diligent during 
the Cold War--we and the Russians--in making sure we did 
everything possible to be safe. We've made sure we didn't 
escalate conflicts when we could avoid them, and we never had a 
nuclear exchange, or even a war between the United States and 
the Soviet Union, and between the North Atlantic Treaty 
Organization (NATO) and the Warsaw Pact.
    But, we've also been--in addition to diligent--we've been 
lucky. You look back at the number of instances we've had where 
it could have been Armageddon. The first time I visited NATO, I 
came to the conclusion that we were going to be faced with our 
commanders in NATO asking for release authority of their 
battlefield nuclear weapons at the very beginning of any 
conflict. That wasn't our official position, but that was what 
you found out when you talked to people at night, over dinner, 
and that would have been the President of the United States, if 
we had had a conflict in Europe, we would have been faced with 
a very quick decision about whether to use our battlefield 
nuclear weapons or whether to lose them.
    So, we've been very lucky. You have to ask yourself, if you 
get 10, 15, 20 countries with nuclear capability, are they 
going to be as diligent, and lucky--all of us are going to be 
as diligent and lucky in the next years as we have been in the 
past years? I don't think so. I think the odds are very much 
against that. We don't have to just be diligent and good and 
lucky one time, we have to be diligent and good and lucky every 
time there's an incident. That's multiplied, I think, in many 
ways, much more than geometrically, when you get additional 
countries.
    We're on the tipping point of having, not only Iran and 
North Korea, but a number of other countries that are moving 
to--under their legal right--to enrich uranium. When they get 
that enrichment capability, and if we do not have a stronger 
inspection and verification regime, internationally, then you 
have a lot of potential nuclear powers that are lurking right 
around the corner. So, it's a concern that, I think, is shared 
by Shultz and Kissinger and Perry and a lot of other people 
that we really, I think, have to pay attention to.
    Senator Reed. Thank you very much, Senator Nunn.
    Senator Dole.
    Senator Dole. Senator Nunn, when you first authorized the 
CTR Program back in 1992, you had the wisdom and the foresight 
to not only focus on elimination of WMD, but also to provide 
for helping scientists who might be tempted to sell their 
knowledge, their expertise, because of the difficult economic 
conditions at the time of the dissolution of the Soviet Union.
    Now, I'm interested in how you see that aspect of the 
success of that aspect of the CTR Program? Also, I'm concerned 
today that the same situation may be occurring in Iraq. We have 
scientists there who have left the country, obviously, many 
scientists have worked on the chemical weapons program, prior 
to 1991, and I'm interested in your views as to what more we 
might possibly be doing there? The DOE had a small-scale 
program to help with employment for scientists in Iraq, but I 
understand that, because of security considerations, that has 
not progressed aggressively. Do you think that the United 
States, other members of the international community should be 
doing more in this respect? If you could just share your 
thoughts on this aspect of the CTR and how you see it applying 
to the Iraqi situation?
    Senator Nunn. Senator Dole, I think you put your finger on 
the part of the Nunn-Lugar Program that has concerned me the 
most. We have done some very good things. The science and 
technology centers in Ukraine and Russia, I think, have 
employed thousands of scientists back in the early nineties, 
mid-nineties, and even late nineties, that otherwise would not 
have had employment. They had nuclear knowledge, but not 
employment, no way to feed their families. So, I think it's 
done an enormous amount of good.
    But it has not been anywhere near complete, and it is a 
tremendous danger that a lot of those people could have gotten 
out of the net, and ended up in countries that would use that 
nuclear knowledge and paid them money for it.
    We don't know what we don't know. I don't know what has 
happened. I don't know how many scientists have ended up in the 
wrong place, but I know that a lot less than there would have 
been without the Nunn-Lugar Program.
    Now, what do we do now? What I've tried to do in my 
conversations on college campuses with research universities, 
is encourage those universities to reach out and employ these 
people around the globe who have this nuclear knowledge and may 
be going through tremendous stress, in terms of a country like 
Iraq, or back in the nineties, a country like Russia. I think 
our energy labs, such as Los Alamos, Lawrence Livermore, and 
others, could employ more of these, but we have to separate the 
security side of that, we have to be very conscious of the 
security side.
    What I'm hoping is, we don't let the security on labs 
obscure the need for the labs to reach out to other scientists 
around the globe. These labs are our home for the most 
knowledge and expertise, and these are the kind of people that 
can reach out to scientists around the globe. I think there 
ought to be a way we can handle security, by having our 
laboratories reach out, and cooperating with them on projects 
that are of peaceful intent, and making sure that those people 
have support from their colleagues, making sure they have 
meaningful occupations.
    I think that's something the laboratories could be given, 
but it has to be separated from the security. If we get so 
paranoid about the security of the labs, though, that we close 
out that cooperation with people like the Russians, like the 
Chinese, and like the Iraqi scientists coming, or perhaps in 
the future, Iranians or North Koreans, then I think we'll be 
missing a great opportunity. Because these are the people, that 
if terrorist groups got weapons material, and they got hold of 
a couple of scientists like this, we'd have a very bad 
situation.
    Senator Dole. In your opening statement, you referred to 
your proposal for establishing an international nuclear fuel 
bank that would prevent proliferation, while still ensuring 
that there would be success with regard to civil nuclear power 
for countries that want it. Would you elaborate on your concept 
with regard to a fuel bank, and how it would work? I'm 
interested in whether your proposal has received support from 
the United States Government, and other key countries?
    Senator Nunn. On the latter question, we discussed this 
very thoroughly with a number of people in the current 
administration, and we were encouraged by their response. It 
was not specifically endorsed as a governmental position, but 
the Department of State and the DOE were very complimentary of 
the proposal. There were speakers at the conference in Vienna, 
representing the U.S. Government right after I spoke and made 
the proposal to the international body, that basically had very 
warm words to say about it.
    Of course, the challenge we put up, we basically said, 
``We'll put up $50 million if the world will match us with 2-
to-1.'' So, we were saying that, we need $150 million to get it 
started, it will take more than that later on as the demand for 
nuclear power grows--and I'm for nuclear power, I think we have 
to have nuclear power in the world, but it has to be safe and 
secure--but as that demand grows, this fuel bank is going to 
have to grow.
    This fuel bank is sort of the last insurance policy. There 
has to be a tier of guarantees of adequacy of fuel supply. 
First, the market itself, which so far, works pretty well. 
Second, the nuclear suppliers are coming or working towards an 
agreement where if one supplier defaulted, the others would 
step in and ensure the country that was needing nuclear fuel 
that they would have it. Third, the Russians have proposed a 
proposal that would have a nuclear fuel bank in their country 
with Russian fuel backup, in joint venture with Kazakhstan, our 
Government is talking to them.
    So, the IAEA is trying to sort all of this out, and I 
visualize a tiered approach, where you have different steps and 
guarantees. Insurance companies could play a role in this, the 
commercial market could play a role in this. But, I think that 
our proposal, hopefully, will kick off that kind of discussion. 
Right now, I would say the status is that IAEA Director El 
Baradei and his staff are working very hard on this. They are 
having meetings with the Russians and the United States, our 
Government's involved, I would like to see our Government take 
a stronger leadership position than they have taken so far.
    I would like to see the Lantos bill, or something like 
that, pushed in the Senate and the House, because that would be 
the United States matching--or a portion of the match--I don't 
think it ought to all be U.S., but I think it ought to be 
partially U.S.--I'd love to see the United States and Russia 
jointly step up and say, ``We'll match the $50 million,'' and 
that would get it up to $150 million. We need more than $150 
million, but that's, we thought, a start.
    So, we gave a 2-year window, so we have another 16, 17 
months to go, and I'm encouraged by the response thus far, but 
there are a lot of obstacles, and it's going to take a lot of 
leadership.
    Senator Dole. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Dole.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, Senator Nunn for being here today, and thank 
Senator Lugar for his commitment to this very important project 
that's continued over the years.
    I wonder, in light of the number of countries that are 
showing an interest in nuclear capabilities in one degree or 
another, if there's a level that you truly are comfortable with 
in having a nuclear response capability that would be 
appropriate as these other countries re-gain nuclear 
capability? In other words, as others are gaining in their 
knowledge, we have the risk of trying to convert them to not 
become nuclear powers, with the nuclear powers that are there, 
but if we are slow to succeed, or don't succeed--what level of 
risk are we at that we ought to be protecting ourselves 
against?
    Senator Nunn. The United States and Russia have a force 
that is vastly superior to any other nuclear powers on earth, 
nobody else comes close to the United States and Russia, and 
Russia----
    Senator Ben Nelson. But it's aging.
    Senator Nunn. Yes, that's true, but we've had more tests 
than any other countries, too, by far, so our nuclear forces 
are more up-to-date in terms of calibrated with tests than 
almost any in the world. Maybe Russia has as much. So, I don't 
think we have a gap that's going to close any time soon.
    I would defer to those of you who get classified briefings, 
because I haven't had one in quite awhile, but the Chinese for 
many years did not have their missile and their warheads 
matched. They had them in separate places. That's what I call, 
not having a hair trigger. What I hope is the United States and 
Russia, in that regard, would get more like China, before China 
gets more like we are.
    Because, the more countries that have weapons that can be 
fired in 30 minutes, that means warning times are all-
important. It means that decisionmaking by human beings becomes 
less and less relevant. Not irrelevant, but less and less 
relevant. When you have to decide something in 2 or 3 minutes, 
you have to rely on machines, in effect, you have to rely on 
computers. Now, human judgment always has to be in here, but 
the more warning time we get, the better off we're going to be.
    Even if you have a world that has nuclear weapons forever, 
it would be, in my view, that our goal with Russia ought to be 
to increase the warning time. Let's just assume--and I'm sure 
it's classified, I don't even remember what it is, the exact 
minutes, it doesn't matter--but let's assume that the President 
of the United States has about 10 minutes to make a decision. 
Let's assume that the Russian President has less than that, 
because they're more vulnerable to a first strike, by far now, 
than we are. Let's say he has 5 minutes. Can you imagine all of 
the things that have to happen in that 5-minute period for the 
two leaders to make those decisions? I mean, the deeper you get 
into this, in the classified sense, I can assure you, the more 
concern you're going to get.
    Now, our people will say, ``Yes, we have these safeguards, 
we have these safeguards, we have these safeguards.'' I urge 
you to go back and look at the Jeanne Kirkpatrick Commission, 
and what they discovered a few years ago. Senator Warner, you 
and I helped stimulate that report, because we went over and 
talked to Secretary Cheney, and he got them to do it. They 
found some--and I think it's classified--they found some stuff 
that had to be changed, let's put it that way. Alarming.
    In an age of computers, in an age of hackers, in an age of 
systems being vulnerable, even some of the most--supposed--
secure systems are vulnerable to interception, and even 
takeover. I think we ought to get this stuff off of automatic.
    Now, our people will say, ``We have this procedure, and 
this procedure and this procedure,'' but ask them the 
question--how about the Russians? How confident are you that 
their warning systems are going to be accurate? What are the 
chances of mistake? The most recent mistake I know about was in 
1995, when we launched a satellite off of Norway, and we had 
given them notice. We had told them it was going to be 
launched--which we're supposed to do under the Risk Reduction 
Program, Senator Warner, that you and I helped create, back 
years ago in the Reagan administration. So, that notice was 
given, but they lost it. They didn't know it. So, when the 
satellite went up, they thought it was a U.S. missile coming. 
They went to a higher stage of alert, I'm told, than they did 
during the entire Cold War.
    Now, they pulled it down, it didn't happen, but you 
multiply that by 7, 8, or 10 other countries out there, all of 
them having to be right every time--we have a dangerous world. 
At the very least, we ought to set an example of not having 
these things on hair trigger.
    I'd also ask you to ask the question now, what is it now 
that requires us to be able to fire our weapons within 30 
minutes? Ask them the question. What is the contingency that we 
need, whatever it is--again, I'm not, I haven't been briefed--
but let's say 2,000 weapons? Why do we need 2,000 weapons fired 
in 30 minutes? Why wouldn't 2 hours do? What is it that's going 
to happen in that period of time?
    But, the United States and Russia both have concerns about 
survivability. Russia has a lot more concern about 
survivability now. If it were up to me, if I were President of 
the United States, I would sit down with Mr. Putin, and I would 
say, ``Let's get our two military commanders together. Let's 
get our top military people together. You tell--your people 
tell us what gives you so much concern that you have to be on 
hair trigger, and we'll tell you why we're on hair trigger, and 
let's start working these problems, so we don't have to be able 
to fire that rapidly.''
    I think it's absurd, 15 years after the Cold War that we 
still are in this posture. I think it is absolutely absurd that 
the United States existence as a Nation depends on the warning 
systems the Russians have concerns about being accurate. Their 
existence depends on us. I don't think this is the way we ought 
to go in the future.
    Again, Director El Baradei said that it's very hard to get 
somebody not to start smoking, if you're chain-smoking 
yourself. So, we have to look at the example we're setting. I 
think that this example of hair trigger is particularly 
applicable, if we could ever bring ourselves to do it with 
Russia, and get, let's say, 2 hours warning time. That'd be a 
big change. It would be applicable to Pakistan and India. If 
there's anyplace that needs more warning time, it's there. But 
again, it's hard to lead, if we're still in the same posture 
that we were in during the Cold War.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thanks, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Sam, you've done more work in this area both as a public 
servant, as well as now, you work with the NTI in the private 
sector. You probably know more about the capabilities of those 
that possess nuclear weapons than anybody I can think of off 
the top of my head.
    But, what concerns me is, that as much work as you've done, 
as much as you've highlighted the issue of the fact that there 
is absolutely no reason, either offensively or defensively for 
anybody to possess a nuclear weapon, the proliferation of 
nuclear weapons is growing rather than diminishing.
    You've been gone from the Senate about 10 years now and 
when you left here there were ``x'' number of countries that 
had that capability, nuclear capability, and just look what's 
happened in the 10 years that you've been gone. Where have we, 
where have we failed as a leader on this issue? What have we 
not done right that we can improve on, and what incentives--
you've delineated some there--but what other incentives are 
there out there that we can utilize to try to make sure that 
additional countries don't move down the direction that North 
Korea, India, Pakistan, Iran have moved and that folks act more 
like Libya?
    Senator Nunn. Of course, that is a really good question and 
it, I don't want to take too much time in answering it, but if 
I give us--and this is totally subjective judgment, I couldn't 
give you an analytical backup for these judgments--but let me 
just run down, because I jotted down this morning what I call 
the ``scorecard.'' If I looked at the scorecard of what we've 
done in the last 15 years, since Nunn-Lugar, and then look at 
what's missing, I think that may be one way to frame it.
    On the Nunn-Lugar program in the former Soviet Union on the 
nuclear side, if 10 is a perfect score, I'd say we're at about 
five. So, we have a ways to go, but we've made progress. Maybe 
we're at six now.
    On the GTRI, which is getting--this is a program started in 
2004 by Secretary Abraham, which is a very good program, to get 
nuclear materials, HEU weapon-grade material, weapon-useable 
materials around the globe under security--and, there are 40 
countries that have them, at least. But, on that one, I'd say 
we're somewhere between 3 and 4 out of 10 in terms of progress. 
We need to get other countries to join that.
    On the bio-challenge in the former Soviet Union, I think 
we're about 2 out of 10. We have a long way to go. The Russians 
are not very cooperative on that.
    In looking at the bio-problem worldwide and the lack of 
security, not only in other countries, but in our own country, 
on dangerous pathogens, I'd say we're about 1 out of 10. In 
looking at chemical destruction, somewhere around 4 out of 10.
    On a very important subject, that Senator Lugar mentioned 
this morning, there were four nuclear countries after the 
breakup of the Soviet Union. They went from four to one--
Kazakhstan, Ukraine, Belarus, all got rid of their weapons. I 
give us a 10 out of 10 on that one. That was a big, big 
accomplishment in the early 1990s.
    The Global Partnership, the effort led by President Bush to 
get the G8 signed up to a non-proliferation agenda and a 
cooperative-type program, getting them to help on what we call 
the Nunn-Lugar Program. In terms of words on that one, I would 
give them something like a 10. They said all the right words, 
but in terms of deeds I give them a two. Most of the countries 
that signed up, except for us, have not put up anything like 
the money they said they would.
    In terms of securing non-weapon grade material, but 
radiological material, I think we are about where we are on the 
biological materials. I think that is a huge job. A 
radiological weapon--unless we're better prepared for than we 
are right now, is going to have some of the psychological 
effect that a nuclear weapon would have even though it will not 
kill that many people. But, it could be a psychological blow, 
and a blow to the nuclear power industry too, which I happen to 
believe is very important now.
    Then I would say that blending down the U.S.-Russia HEU--
which has been one of the ways we helped the other countries 
get rid of their nuclear weapons in the 1990s--we're about 
halfway through that program and it's been very successful.
    One of the things a lot of people don't realize, with that 
program--20 percent of our electricity in this country is 
nuclear power, 50 percent of the fuel burned to create that 
nuclear power in our nuclear power plants around this country 
comes from former warheads that have been dismantled, HEU, 
blended down to LEU. So, 1 out of 10 of these light bulbs right 
here, in this room, theoretically come from material that was 
aimed at us during the Cold War, until about 1990, 1992. So, 
we've made some progress.
    In terms of what do we do now? I mean, obviously all those 
areas need work. I mean, the gaps need to be filled. We may 
never get to 10 in some of those, we're not going to have 
perfect risk reduction. But, we have to come as close to it as 
we possibly can. I think we need to increase the funding 
worldwide, which Senator Lugar mentioned. I think this needs to 
be not only nuclear, but bio needs to be a front-burner issue 
with the United States and Russia. At every Summit Conference 
this ought to be a very big percentage of the discussion 
between President Bush and President Putin. I don't think it 
has been, but it should be.
    I think the United States and Russia need to be worldwide 
partners in not only the nuclear arena, but the bio arena. I 
think we still need to help them with money, but I think they 
need to step up to the plate with more of their own funds, and 
with leadership, and with time, and with expertise, in both the 
nuclear and biological area, around the world.
    I think we need an international type Nunn-Lugar program 
with other countries stepping up. The G8 pledges were along 
that line, but the deeds are far from satisfactory. I think we 
need a full-time high-level individual that's in charge of this 
in the executive branch of Government. We had that in the 
original Nunn-Lugar proposal. It still hasn't been done through 
both Republican and Democratic administrations. There has to be 
a good reason for it, but they've never told me what it was in 
15 years. We need somebody in charge, and we do not have that.
    We need to, as Senator Lugar said this morning, eliminate 
the certification requirements. If this is in our security 
interest, we shouldn't have the certification. If it's not in 
our security interest, we shouldn't do it. I mean, that's what 
it amounts to. The DOD and DOE need more flexibility. Jim Reed 
and his team need to be able to shift funds in a way with full 
reporting to Congress, but they shouldn't be bound without 
being able to have flexibility. You have a lot of opportunities 
that come up, and they need to be able to do that. We need to 
get them out of the paperwork business--that's the 
certification--and get them full time out in the field.
    Congress, in my view, needs to pay more attention to the 
GTRI, the DOE program. That's a vital part of our security 
efforts, just as important as what's being done at DOD. We 
need, I think, a whole tier of defense. I mean, I'm all for the 
PSI program, but I think security has to be the most 
fundamental and never letting the material get out of where it 
is now. Because once it gets out, the people who run the PSI 
program will tell you it's really, really hard to find it once 
it gets out.
    I think the IAEA needs more funding not just from us, but I 
think the other countries need to do that. The security side of 
IAEA, when we first started our NTI Foundation, I don't know 
what their total budget was but, we gave them $1.5 million and 
we said match it. They got it matched 10 times over and the 
U.S. Government stepped up and helped. But, they're still 
woefully underfunded in terms of the job we expect them to do. 
Everybody points fingers and said, ``They aren't doing this and 
that.'' Nobody ever looks at the budget they have, and it's 
woefully inadequate.
    I think--and I'll stop in a minute--but I think we need 
global best practices on all power plants and all facilities 
that have weapon-grade material and handle them, commercial or 
otherwise. There are a lot of legitimate uses for this 
material, but we need to have, not only the weapon grade, but 
also the radiological material secured. There needs to be a 
best practices peer-review kind of organization globally. A lot 
of that's going to be private sector, but I think the 
Government could help there.
    Last but not least, as I discussed a moment ago, the 
international fuel bank that we have proposed, it needs a lot 
of help and a lot of work and I think the United States can 
take a real lead there. As I said, the State Department and the 
DOE have both been, I would say maybe not, enthused may be a 
little strong, but they've been, they've warmly received that 
proposal. Let's put it that way. I'd like for them to do more, 
but encouragement from Congress would help a great deal there.
    So, Senator Chambliss, that's more than you asked for, but 
that's a list.
    Senator Chambliss. It's a big job and it's not going to 
end. We're not going to be able to wrap it up and say, ``Boy, 
it's done, we're now safe.'' This is ongoing. This is going to 
be with us as long as we live. We're going to have to keep 
working this problem and the biological effort is where nuclear 
was 20 years ago.
    The real difficult part of it is getting all these 
countries that we don't know are out there today who are going 
to develop nuclear weapons that you didn't----
    Chairman Levin. Your last answer to Senator Chambliss's 
question was the kind of presentation which is so overwhelming 
in a way, your mastery of the subject. I only wish we could 
have you here full-time.
    I think we're going to need your help in legislating those 
parts of this proposal, which need to be drafted, and there are 
some at least, which we could both fund and urge the, encourage 
the administration to do like the CTBT, which we could 
encourage them, at least, to present to us for the reasons that 
you give. We can't vote on ratification without a treaty in 
front of us, but we could at least prod the administration.
    Have you, by the way, had any conversations with them about 
presenting the CTBT to us?
    Senator Nunn. I have made speeches on it and had op-eds on 
it. I haven't had a direct conversation with them.
    Chairman Levin. We will raise it with them again because--
--
    Senator Nunn. I suspect the administration, even if there 
were people and I hope there are, that would want to move in 
that direction--I think there probably are some--they would 
probably feel that there would be too much hostility in the 
Senate, so as a chicken and egg and what goes first, I think 
there has to be some dialogue. I think if they were encouraged 
some of them might take a look at it.
    The conditions have changed, I mean, we're in a different 
situation than we were when that was considered before. I think 
people who voted against it before and were very much against 
it could easily say to their constituents, ``Things have 
changed, we're going to take another look.''
    Chairman Levin. Yes, they have changed and if the President 
got behind it, I think it would easily, not easily, but could 
be confirmed, or ratified.
    Your idea on the international fuel bank, creative ideas 
always, what's the likelihood you think if we could put such a 
bank in place that Iran could be reigned in, and use it instead 
of what they're doing?
    Senator Nunn. There's an interesting possibility there. I 
haven't pretended that this is a solution to the uranium 
problem because there's so many complexities there and there's 
so much nationalism and it goes way back to the Shah, in terms 
of the program.
    But, it could, it could apply and what Russia and 
Kazakhstan are working on, with the cooperation of the United 
States, of having a fuel bank in Russia and then this backup 
fuel bank might be combined with that. Because the backup fuel 
bank would be totally under IAEA control, not by any nation.
    What these countries that don't have production of nuclear 
material capability, that want nuclear power, really fear is a 
political cut-off. So, the fact that Russia or the United 
States or any of the nuclear suppliers say, ``We're going to 
guarantee it''--that's not sufficient because they say, ``Look 
at the number of times you've cut off this country or that 
country, embargoed this, that, and the other,'' to the United 
States, in particular.
    So, it has some of it, some backup has to be in 
international control, but a lot of it can be national with 
cross-guarantees. Some of it can be commercial and insurance. 
I'm encouraged that there's the possibility of getting that 
done. I think the U.S. has to lead and Russia has to lead for 
it to happen, but I think it could happen.
    Chairman Levin. Would you recommend that we act 
legislatively either in terms of funding or otherwise to bring 
that into being? Should we take the initiative on that or 
should we----
    Senator Nunn. I think it would be very helpful if the 
United States were to say to the IAEA, ``We'll step up for 
``x'' amount of the funding.'' Because we required specifically 
a $100 million match for the Buffett money, NTI money to be put 
up. If the United States would say, ``We'll take $50 million of 
that, and we'll ask Russia to take $50 million.'' I think that 
would be enormously helpful.
    Chairman Levin. Is that what the Lantos bill does? You 
mentioned the Lantos bill. Was that in relation to this 
particular----
    Senator Nunn. That's right.
    Chairman Levin. Is that what they do? They would authorize 
funding conditioned upon others putting up money?
    Senator Nunn. That's my understanding. I'm going to study 
that bill. I haven't studied it yet, but Congressman Lantos has 
asked me to come over and visit with him and testify on that. 
I'll be doing that next month.
    Chairman Levin. We'll also look into it. Any further 
thoughts on that, or any of these other subjects, you have 
would be----
    Senator Nunn. Right.
    Chairman Levin. Most welcome.
    One of the NPT requirements is that the countries that have 
nuclear weapons, in good faith, get rid of their nuclear 
weapons. Should we be destroying weapons instead of warehousing 
them?
    Senator Nunn. I believe we ought to get rid of the maximum 
number of weapons we can, and then I think we ought to, as a I 
mentioned a few minutes ago, I think we ought to define a 
nuclear-free world as the top of the mountain and recognize 
we're heading down, as Senator Chambliss said, we're not 
heading up.
    We ought to try to turn around the direction, not only of 
our country, but the world and start finding trails that lead 
up the mountain. So, that perhaps one of these days, at some 
point in the future our children can at least see the top, or 
our grandchildren.
    Chairman Levin. Would one of the ways to do that be to 
dismantle and destroy weapons, instead of to just simply put 
them in the stockpile or in the warehouses? I guess the Moscow 
treaty did?
    Senator Nunn. That's right. Of course, I think it's 
important for that example, too. Because we may be able to 
safely store those weapons, but if other countries follow our 
example there, that just means there's a lot more inventory out 
there.
    Chairman Levin. On the hair trigger issue, how do you 
address the submarine problem, number one?
    Senator Nunn. The, what problem?
    Chairman Levin. Having subs, I mean, how do you separate 
warheads from missiles in our subs?
    Second, how do you deal with the issue, that if the time 
came you wanted to, you got nervous and wanted to marry them, 
mate them back together again, that that would be a 
destabilizing action? Third, if you'd comment on the proposal, 
if you're familiar with it, to have a conventional Trident, so 
that we'd be in a position where we'd have a Trident boat with 
either nuclear or conventional weapons--which would be 
confusing, in some of our minds at least--it would create 
uncertainty on the part of others as to whether a Trident was a 
conventional Trident weapon or a nuclear Trident weapon. Are 
you familiar with that proposal of the administration?
    Senator Nunn. Yes, yes.
    Chairman Levin. How does that, it's not quite a hair 
trigger issue, but it, nonetheless is a very destabilizing idea 
in the minds of many of us.
    Senator Nunn. Well, let me start with the conventional 
Trident.
    I've talked to General Cartwright about this a couple of 
times and I've gotten his case. He makes a very good case that 
he needs the capability of a prompt launch with conventional 
weapons for long distance. We have it with cruise missiles. We 
have one submarine, I believe Senator Warner, that has cruise 
missiles on it, one Trident, former Trident. But, when you do 
it, when you move to the prompt-launch missile, you're in 
another dimension, because you get into warning time and you 
get into what the Russians capability is. First of all, do they 
know the difference and will we be able to assure them, have we 
had enough discussions with them to assure them that when we 
launch a conventional Trident, and this doesn't have a nuclear 
weapon on it, and it may have the original azimuth heading that 
way, that it's not a nuclear weapon? I'm not aware that we've 
had that detailed discussion with them. Obviously, they're 
concerned about it.
    Then I'd ask the question about Chinese warning. What are 
their warning systems? Can they tell the difference? What about 
France and Great Britain? What about Pakistan, India, ahd all 
the other nuclear nations? I think there's some profound 
questions here.
    Then you have the question of, we're trying to discourage 
long-range missiles, anyway, under the Missile Technology 
Control Regime. What questions come up in regard to that? How 
much does this compete with that goal? So, I'd say there are a 
lot of big questions on this.
    If we were able, if we went a different atmosphere, if we 
were heading up the mountain, if we were moving in different 
direction and we had a lot more credibility and confidence 
around the globe in this overall, if we had a lot more 
cooperation, you might examine this in a different prism, but 
right now I would have to say that I think Congress put up a 
caution light last year. I would, right now, keep that caution 
light up.
    Even though it's a paradox because, I say that even though 
the move from nuclear to conventional is the way we want to go. 
But long-range ballistic missiles are in a category of their 
own. I really do worry about warning systems and accuracy and 
mistakes.
    Chairman Levin. Thank you.
    Senator Nunn. The other two questions, Senator Levin. Let's 
say you take certain parts of missiles off so that you have 
more warning time or you separate the warheads. There are a lot 
of different ways you can do this and it needs very careful 
thought if you remove from hair trigger. It has to be discussed 
with Russia and it has to be military to military, in my view, 
discussion.
    But, I don't think, I think the escalation problem is 
entirely manageable. I really believe that that is something 
that, it gives us concern, but we already have escalation 
problems. I mean, what do you do when you go to DEFCON-1? What 
do the people do, then? If it's going to take several hours to 
perform an escalation instead of several minutes, is that more 
danger than we have now? I don't think so. I know that the 
military has some concern about this and I think it has to be 
carefully considered, but I think that we can deal with that.
    In terms of subs, that's a special challenge, but I would 
leave that to the technical experts and I would not, if I gave 
you my recall on some briefings I've had about how that can be 
done, it would be inadequate today. I would just say that that 
is a question that's serious, that is more difficult. I think 
some on-site type of verification would be necessary on all 
sides. But, I'm very concerned that we have to deal with this 
submarine problem anyway. Because Senator Warner, you and I 
worried about this a long time ago. I still worry about it. We 
have a proliferation of submarines, too. A proliferation of 
diesel submarines that are a lot quieter than they used to be. 
You have a proliferation of countries that could fire missiles 
off those submarines.
    How good are the warning systems around the world in 
detecting if there was a submarine that pulled off Russia and 
launched--let's say hypothetically China did--launched a 
missile, nuclear weapon against a Russian city. Would they know 
it wasn't us? Would they know it wasn't the United States?
    I think there's a lot of work that still needs to be done 
in that area. I think that a lot of military to military 
discussions need to take place, not just between the U.S. and 
Russia, but U.S., Russia, and China. India has subs now. Israel 
has subs now. I'm not sure about the nuclear capability of 
those, but those are questions that really need to be asked. 
So, the submarine issue is a real issue in terms of hair 
trigger, but it's even more profound in the other arena of 
accurate detection and real time and not making a mistake.
    Senator Reed. Thank you very much, Senator Levin.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    This testimony this morning has been a very moving 
experience for me. I thank you for your personal references. We 
did work a lot together.
    Do you realize that you're sitting at a spot in this room, 
where that table was, for breakfast that morning, that you--and 
you'd consulted with me the night or two before--we brought in 
the Senators on the committee and some others and showed them 
this plan, which eventually became Nunn-Lugar. Do you remember 
that?
    Senator Nunn. I do.
    Senator Warner. Right where you're sitting now with one 
round table and we started at that breakfast.
    Senator Nunn. I certainly do. I certainly do.
    Senator Warner. I can see their faces now when you said, 
and, here in the Cold War atmosphere, ``We have to take money 
from our defense budget and give it to the Soviet Union to 
dismantle.'' That was a heavy task, but you skillfully managed 
that. This country, and indeed much of the world, has a great 
debt to you, personally, for you foresight and your tenacity to 
stick with this subject through these years. I thank you.
    Senator Nunn. Thank you, Senator Warner. You've been a 
partner for a long time in many of these endeavors so I'm 
grateful to you, also.
    Senator Warner. Well, and then our good chairman down 
there, Senator Levin, are you listening to what I'm saying now 
or are you down there looking----
    Chairman Levin. No, I'm listening to every word. 
[Laughter.]
    There's a few, I must say my eyes are a bit moist, but I'm 
listening to----
    Senator Reed. I've somehow----
    Senator Nunn. I hope you don't go along with Levin anymore 
than you used to go along with me, though.
    Senator Warner. I have a little trouble getting his 
attention now that he's the chairman.
    But before we go to my questions, you dramatically said--
and you amplified it in response to Senator Chambliss's very 
insightful question--if we had 8 or 10 nations with the nuclear 
capability, the fragility of the war, world today--because when 
we, set about, I say we and many others, many others set about 
working on these problems years ago--it was basically the 
United States and the Soviet Union. Throughout the Cold War 
there was a certain sense of confidence, both in the United 
States and the Soviet Union, that the most competent people 
were in the chain of decision should we ever reach a 
confrontation.
    We do not have that today, with some of these companies, 
countries--notably Iran--a sense of confidence in their 
hierarchy, that they could carefully make a decision should 
they ever possess--and I hope they don't--this weapon.
    It leads me, to the first question, you said in there we 
still need to help the Soviet Union financially. They're awash 
in oil money today. How are we going to, I'll fight hard as we 
have, always, to get the funds for the CTR program as it 
relates to Russia today. But their cash position is pretty 
strong. I'm just wondering, what are the arguments we use to 
take our cash to help them?
    Senator Nunn. I think it gets harder as they become more 
prosperous. That's the bad news. The good news is as they get 
more prosperous they have the capability of doing more for 
themselves. So, I think it's a carefully calibrated weaning. I 
think they need to step up more. I think we need to gradually 
have less money, but I think the two of us need to step up our 
efforts together, not just in the former Soviet Union, but 
around the globe.
    I hope Russia will step up on this fuel bank. We've talked 
to them a good bit about it. I went over there before we ever 
proposed it and met with some of the top Russian officials. 
They, like our Government, greeted it with interest and with a 
degree of receptivity, but less than a full, ``Yes, we'll sign 
up.''
    I think your point is well made. But even if they have the 
funds, the question is, given all the challenges in Russia, and 
they still have mammoth challenges, mammoth economic problems, 
tremendous areas of their country that are in abject poverty, 
and you have to ask, ``Would they give this as high a priority 
as we would want them to?''
    Senator Warner. Well, let me go to your fuel bank and I 
confess not to know a great deal about it, but suddenly, as I 
listen, the idea has a lot of appeal. But, I'm concerned about 
the--let's put it bluntly, the command and control of who gets 
the fuel, and how do they get it and when? Would we be faced 
with something like a regime that has a veto authority, like 
the Security Counsel now? One nation could veto the 
distribution of fuel to others?
    You look at the enormity of the capital investment to build 
a nuclear plant, and yet you're putting that capital at risk to 
someone who has to make the decision, do you or do you not get 
fuel? How are you going to do the command and control and keep 
it separate from the reality that nations that could be 
participants in the fuel bank could be in an adversarial 
relationship? They exercise through third parties or something, 
some control over that person that has the levers to who gets 
the fuel and when they get it.
    Senator Nunn. Senator Warner, I think all of those 
questions have to be worked and that's what the IAEA is looking 
at now. The governance is going to be a real challenge, how you 
govern and who makes the decision. But, I think when you look 
at, here's the road we're heading down right now: Seven or 
eight countries are about to go into enrichment, in the next 
year or two, I think, maybe as many as 10 and, if Iran, builds 
a weapon, more. If these countries go into enrichment we have a 
bad, bad, we have already a hard problem. It's going to get a 
lot worse. So, we have to find a way to give assurances that 
legitimate power-burning LEU is going to be available.
    The first resource is the market. The marketplace works 
pretty well out there and as long as it works, right now 
countries really, unless they're going to build a huge number 
of power plants, the economics don't favor them going into 
enrichment. So, they're doing something, if they go into 
enrichment, that's against their economic interest, 
fundamentally. So, that tells you something. Now, it tells you 
that they might be doing it for illegitimate purposes or it 
tells you they don't have the political confidence that the 
suppliers are going to be faithful to the contract or that the 
marketplace is going to work.
    So, we have to augment the marketplace. It's not, in any 
way, substituting for the marketplace. There are going to have 
be tiers of guarantees. This fuel bank, the $50 and we hope a 
$100, that's $150. That's nowhere near adequate to be a backup 
supply. It's the final backup. It's not anywhere near the 
adequate, it's going to have to be one tier, among others. 
That's what Russia is talking about now and that's what the 
United States has proposed, Germany and others have also made 
proposals.
    Senator Warner. One last question, if I may, my former 
chairman that you were in those years. You did a wonderful job 
for this committee, and you came in after your most 
distinguished colleague from Georgia, Dennis Jackson, and all 
those giants that taught us our lessons. You handled your 
chairmanship very well.
    Clearly there needs to be a greater international awareness 
of the problems that you have eloquently described today with 
our colleague, Senator Lugar. If you had the opportunity to sit 
down with our President, how would you speak to him in terms 
of, ``Let's jump start the international recognition of the 
seriousness of this problem,'' to see what we could do to bring 
about some advancements, climbing back up that mountain again? 
Would you suggest the United States, maybe in partnership with 
the Russians, convene an international conference on this 
subject alone?
    Senator Nunn. I believe what I would do is start with the 
President's own quotes. He said back during the campaign when 
he first ran that he thought we had thousands of weapons on 
hair trigger alert on both sides and that that was unacceptable 
and he was going to tackle that problem. That problem's still 
here. He also said that, on a number of occasions including 
when he was debating Senator Kerry on television, both of them 
said the number one security problem facing America was to keep 
weapons and material----
    Senator Warner. That's fine, that rhetoric's out there. 
What would you do if this afternoon you had the opportunity to 
sit down with him? What initiative would you recommend that he 
take?
    Senator Nunn. I would start by telling him those two 
identifications were absolutely right, but the meat isn't on 
the bones. We're not doing nearly enough. I would say, ``Mr. 
President, you have a great relationship with President Putin. 
The United States and Russia have a unique responsibility and 
obligation to lead because we are the leading nuclear powers by 
far. We have thousands of weapons on hair trigger alert. Why 
don't you talk to President Putin about both of you getting 
your military leaders to sit down for 6 months or whatever it 
would take and come back with a list of things we can do to 
greatly reduce the chances of any kind of accident, increase 
warning time? The second thing, why don't you talk to President 
Putin about a partnership between the United States and Russia 
to deal with nuclear materials all over the globe, so, that we 
take their expertise--and hopefully increasingly, as you 
observed--their money, and help get this material under 
control, not just in the former Soviet Union, but all over the 
world.''
    The third thing on my list would be bio. I would say, ``Mr. 
President, if the Soviet Union were going to use bio-weapons 
against us, they would have done it back in the old days. Why 
in the world can't we have transparency and accountability on 
the biological research efforts going on, on the defensive 
side? Because we think your defensive side is offense. You 
probably think our defensive work is offense. But, that's the 
perception we're battling. Let's have transparency, the two of 
us to begin with and then broaden it.''
    Those would be three things right on the top of the list, 
hair trigger, securing material, bio-transparency. If I made 
progress, I would go on from there. But, that might be all the 
President would want to hear in one meeting.
    Senator Warner. I thank you very much, Senator Nunn, for 
your work and my best to you and your family.
    Senator Nunn. Thank you.
    Senator Reed. Thank you very much, Senator Warner.
    Senator Nunn, thank you for your testimony and for your 
leadership and we look forward to working together with you for 
many, many years. Thank you, sir.
    Senator Nunn. Mr. Chairman, thank you. I look forward to 
helping any way I can.
    Chairman Levin, congratulations also in your new role and I 
look forward to seeing great things come from this committee 
under your leadership.
    Chairman Levin. I appreciate that. We'll be calling on you.
    Senator Nunn. Senator Warner will help you in every way.
    Chairman Levin. He always has.
    Senator Warner. Yes, right.
    Senator Reed. Thank you.
    Now let me call up our second panel, the Honorable William 
H. Tobey and Joseph A. Benkert.
    Thank you very much for joining us, gentlemen. Your 
statements will be made fully part of the record, so if you'd 
like to summarize your written statements, that would be 
perfectly fine. Tthen we'll engage in at least one round of 
questioning.
    We'll begin with Mr. Tobey.

 STATEMENT OF HON. WILLIAM H. TOBEY, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Mr. Tobey. Mr. Chairman, Senator Dole, thank you for the 
opportunity to discuss the President's 2008 budget request for 
the National Nuclear Security Administration's Office of 
Defense Nuclear Nonproliferation.
    Before I start, I certainly want to acknowledge the fact 
that I'm mindful that we were following--both in terms of order 
of appearance and more importantly in terms of doing the 
important work of nonproliferation--giants in the field. I 
certainly very much respect the work of both Senators Lugar and 
Nunn and all that they've made possible for us to do.
    I also very much appreciate the support of this committee 
for the work that we do, of which I'm proud and I believe is 
extremely important for U.S. national security.
    The fiscal year 2008 budget request for $1.67 billion 
reflects both our progress in securing nuclear sites worldwide, 
as well as continuing challenges we face in accomplishing our 
mission. The request is for funding necessary to meet the goals 
of the Bratislava Nuclear Security Initiative on time, to 
secure or dispose of as much nuclear material possible for the 
fiscal year 2008, and to adapt our nonproliferation strategy to 
meet new challenges.
    In February 2005, in Bratislava, Presidents Bush and Putin 
agreed to focus and accelerate cooperative nuclear security 
work in order to keep fissile materials out of the hands of 
terrorists. Under the resulting Bratislava joint statement, we 
have made remarkable progress with Russia to protect its 
nuclear weapons and materials. Meeting our commitment to 
include security upgrade activities at Russian nuclear sites by 
the end of 2008 will be our chief priority in fiscal year 2008. 
Although, your direct upgrade efforts are drawing to a close 
after over a decade of work, we will endeavor to continue to 
work with Russia to ensure the long-term sustainability of the 
systems and procedures that we have implemented.
    The fiscal year 2008 budget reflects both the near-
completion of security work in Russia and our transition to 
long-term sustainability. Additionally, our work in fiscal year 
2008 under the Bratislava Initiative will include the 
conversion of HEU reactors to reactors that use LEU. We will 
also return Russian-origin HEU from eight countries to secure 
facilities in Russia for disposition.
    Our efforts to secure or dispose of as much nuclear 
material as we can in fiscal year 2008 are not limited to the 
Bratislava effort. We're working with Russia, and we are 
scheduled to shut down at least two of the last three weapons-
grade plutonium-producing reactors by December 2008. The 
remaining reactor is scheduled to be shut down by December 
2010.
    Our efforts to return U.S.-origin HEU from research 
reactors worldwide will also continue. The fiscal year 2008 
budget request includes funding for U.S.-Russia Plutonium 
Disposition Program. Disposing of surplus plutonium in the 
United States and Russia will assure that this material can 
never again be used for nuclear weapons.
    We are taking aggressive steps to interdict weapons-useable 
nuclear materials, and to prevent dissemination of nuclear-
related technology via strengthened export controls and 
improved international cooperation. Our Second Line of Defense 
and Megaports programs work to enhance our foreign partners' 
ability to interdict illicit nuclear materials. Under these 
programs, we deploy radiation detection systems at high-risk 
land border crossings, airports, and seaports, increasing the 
likelihood of interdiction of diverted nuclear materials 
entering or leaving the country.
    Additionally, our research and development efforts provide 
the National Nuclear Security Administration and other agencies 
with cutting-edge technology to detect and monitor nuclear 
weapons, production, proliferation and nuclear explosions 
worldwide.
    To meet the threat from the international terror networks 
and rogue states, we must engage the international community. 
We are working to implement United Nations Security Council 
Resolution 1540, which establishes a requirement to criminalize 
proliferation involving non-State actors and encourages States 
to strengthen export control laws and improve enforcement. 
Because keeping terrorists or rogue States from acquiring 
materials will be easier if we limit enrichment of uranium or 
reprocessing of spent fuel, the President proposed in 2006 the 
Global Nuclear Energy Partnership (GNEP), under which nations 
would have assured access to the benefits of nuclear power 
without the need to develop sensitive capabilities to enrich or 
reprocess fuel indigenously.
    The risk of nuclear terrorism is certainly not limited to 
the United States and the success of our efforts to deny access 
to nuclear weapons and material is very much dependant on 
whether our foreign partners share a common recognition of the 
threat and a willingness to combat it. Last July, just before 
the G8 summit, Presidents Bush and Putin announced the Global 
Initiative to Combat Nuclear Terrorism. To strengthen 
cooperation worldwide on a broad range of related issues from 
nuclear material security, to detection, to enforcement and 
prosecution. Paired with U.N. Security Council Resolution 1540, 
we now have both the legal mandate and the practical means for 
concrete actions to secure nuclear material against the threat 
of diversion. These diplomatic efforts will extend and multiply 
the efforts of my organization to detect, secure, and dispose 
of dangerous nuclear material.
    Again, thank you for the opportunity to discuss our budget, 
and I'd be happy to take any questions.
    [The prepared statement of Mr. Tobey follows:]

                 Prepared Statement by William H. Tobey

    Thank you for the opportunity to discuss the President's fiscal 
year 2008 budget request for the National Nuclear Security 
Administration's (NNSA) Defense Nuclear Nonproliferation program. This 
is my first appearance before this committee as the Deputy 
Administrator for Defense Nuclear Nonproliferation, and I want to thank 
all of the Members for their strong support for our vital national 
security missions.
    The Defense Nuclear Nonproliferation Program mission is to detect, 
prevent, and reverse the proliferation of weapons of mass destruction 
(WMD). Our nonproliferation programs address the danger that hostile 
nations or terrorist groups may acquire weapons-usable material, dual-
use production or technology, or WMD capabilities. The fiscal year 2008 
request for these programs totals $1.673 billion, a slight decrease 
from the fiscal year 2007 operating level. This reduction is the result 
of NNSA achieving and approaching important milestones in our nuclear 
security work in Russia, including the completion of major security 
upgrades at several sites under the International Nuclear Materials 
Protection and Cooperation (MPC&A) program and the anticipated end of 
construction of a fossil fuel plant in Seversk by the end of calendar 
year 2008 under the Elimination of Weapons Grade Plutonium Production 
(EWGPP) Program.
    Acquisition of nuclear weapons, WMD capabilities, technologies, and 
expertise by rogue states or terrorists stands as one of the most 
potent threats to the United States and international security. The 
continued pursuit of nuclear weapons by terrorists and states of 
concern underscores the urgency of NNSA's efforts to secure vulnerable 
nuclear weapons and weapons-usable nuclear materials, to improve 
capabilities to detect and interdict nuclear weapons or materials, to 
halt the production of fissile material, and ultimately, to dispose of 
surplus weapons-usable materials. The fiscal year 2008 budget request 
will enable NNSA to continue the activities that support these crucial 
threat reduction initiatives.
    Preventing access to nuclear weapons and material has many 
dimensions. Our highest priority is to keep these dangerous materials 
out of the hands of the world's most dangerous actors. Absent access to 
sufficient quantities of key fissile materials, there can be no nuclear 
weapon. Much of our emphasis has focused on Russia because that is 
where most of the poorly secured material was located. We have made 
remarkable progress cooperating with Russia to strengthen protection, 
control, and accounting of its nuclear weapons and materials. Meeting 
our commitment under the Bratislava Joint Statement to conclude 
security upgrade activities at Russian nuclear sites by the end of 2008 
will be our chief priority in fiscal year 2008. As a result of our 
efforts to accelerate this work in the wake of September 11 and the 
momentum created by the Bratislava process, we are well-positioned to 
reach this significant milestone on schedule. Although our direct 
upgrade efforts are drawing to a close after over a decade of work, we 
will continue to work cooperatively with Russia to ensure the long-term 
sustainability of the systems and procedures we have implemented.
    Not all nuclear material of concern is located in Russia. We are 
working with other partners to secure weapons-usable nuclear materials 
worldwide and to strengthen security at civil nuclear facilities. One 
area of concern is research reactors, which often use a highly enriched 
uranium (HEU) fuel suitable for bombs. Our Global Threat Reduction 
Initiative (GTRI) seeks to convert research reactors worldwide from HEU 
to low enriched uranium (LEU) fuel and further to repatriate U.S. and 
Russian-supplied HEU from these facilities to its country of origin. A 
major accomplishment was the return of 268 kilograms of Soviet-origin 
HEU from Germany to Russia, where it will be down blended to LEU fuel. 
This repatriation operation represents the largest shipment of Soviet-
origin HEU conducted to date under the GTRI.
    We are taking aggressive steps to interdict weapons-usable nuclear 
materials and to prevent dissemination of nuclear related technology 
via strengthened export controls and improved international 
cooperation. As a complement to improving physical security, the Second 
Line of Defense (SLD) Program works to enhance our foreign partners' 
ability to interdict illicit trafficking in nuclear materials. Under 
this program, we deploy radiation detection systems at high-risk land-
border crossings, airports and seaports, increasing the likelihood of 
interdiction of diverted nuclear materials entering or leaving the 
country.
    The Megaports Initiative, established in 2003, responds to concerns 
that terrorists could use the global maritime shipping network to 
smuggle fissile materials or warheads. By installing radiation 
detection systems at major ports throughout the world, this initiative 
strengthens the detection and interdiction capabilities of our partner 
countries.
    To prevent the diffusion of critical technologies, we are training 
front line customs officers around the world. We are working to 
implement U.N. Security Council Resolution 1540, which establishes a 
requirement to criminalize proliferation involving non-state actors and 
encourages states to strengthen export control laws and improve 
enforcement. Because keeping terrorists from acquiring materials will 
be easier if we limit enrichment of uranium or reprocessing of spent 
fuel, the President proposed in 2006 a new initiative, the Global 
Nuclear Energy Partnership (GNEP), which would provide nations which 
refrain from developing or deploying enrichment and reprocessing 
technology assured access to the benefits of nuclear power.
    These are critical steps but they alone cannot address the problem. 
Indeed, there is enough fissile material in the world today for tens of 
thousands of weapons. An integral part of our strategy, therefore, has 
been to induce other states to stop producing materials for nuclear 
weapons, as the United States did many years ago. We recently submitted 
a draft treaty at the Conference on Disarmament in Geneva to do just 
that. We also supplement international diplomatic efforts with 
bilateral programs. For example, Russia still produces weapons-grade 
plutonium, not because it needs it for weapons, but because the 
reactors that produce it also supply heat and electricity to local 
communities. We are replacing these reactors with fossil fuel plants. 
By 2008, two of the existing three plutonium-producing reactors in 
Russia will shut down permanently, with the third shut down by 2010.
    As previously indicated, there are a number of effective synergies 
between NNSA's weapons activities and our nuclear nonproliferation 
objectives. For example, we are disposing of the substantial quantities 
of surplus weapons grade material that resulted from the thousands of 
warheads that we have dismantled by down-blending it to lower 
enrichment levels suitable for use in commercial reactors. We are also 
working with Russia to eliminate Russian HEU. Under the HEU Purchase 
Agreement, nearly 300 metric tons of uranium from Russia's dismantled 
nuclear weapons--enough material for more than 11,000 nuclear weapons--
has been down-blended for use in commercial reactors in the United 
States. Nuclear power generates 20 percent of American electricity and 
half of that is generated by fuel derived from Russian HEU. As a 
result, one-tenth of the U.S. electrical energy need is powered by 
material removed from former Soviet nuclear weapons. In addition to the 
efforts on HEU, the United States and Russia have each committed to 
dispose of 34 metric tons of surplus weapon-grade plutonium.
    If we are to encourage responsible international actions, the 
United States must set the example. We have dramatically improved 
physical security of U.S. nuclear weapons and weapons usable materials 
in the years since the attacks of September 11. We recently withdrew 
over 200 metric tons of HEU from any further use as fissile material in 
nuclear weapons: a portion of this will be devoted to powering our 
nuclear navy for the next 50 years, obviating the need over that period 
for high-enrichment of uranium for any military purpose. Seventeen tons 
will be blended down and set aside as an assured fuel supply as part of 
global efforts to limit the spread of enrichment and reprocessing 
technology.
    The risk of nuclear terrorism is not limited to the United States 
and the success of our efforts to deny access to nuclear weapons and 
material is very much dependent on whether our foreign partners share a 
common recognition of the threat and a willingness to combat it. Last 
July, just before the G-8 summit, Presidents Bush and Putin announced 
the Global Initiative to Combat Nuclear Terrorism to strengthen 
cooperation worldwide on nuclear materials security and to prevent 
terrorist acts involving nuclear or radioactive substances. Paired with 
U.N. Security Council Resolution 1540, we now have both the legal 
mandate and the practical means necessary for concrete actions to 
secure nuclear material against the threat of diversion.

             FISCAL YEAR 2008 NNSA BUDGET REQUEST OVERVIEW

    The President's fiscal year 2008 budget request for NNSA totals 
$9.4 billion, an increase of $306 million or 3.4 percent over the 
fiscal year 2007 operating plan. We are managing our program activities 
within a disciplined 5-year budget and planning envelope, and are 
successfully balancing the administration's high priority initiatives 
to reduce global nuclear danger as well as future planning for the 
Nation's nuclear weapons complex within an overall modest growth rate.
    The NNSA budget justification contains information for 5 years as 
required by section 3253 of P.L. 106-065. This section, entitled Future 
Years Nuclear Security Program (FYNSP), requires the Administrator to 
submit to Congress each year the estimated expenditures necessary to 
support the programs, projects and activities of the NNSA for a 5-year 
fiscal period, in a level of detail comparable to that contained in the 
budget.
    The fiscal years 2008-2012 FYNSP projects $50.0 billion for NNSA 
programs though 2012. This is an increase of about $1.5 billion over 
last year's projections in line with the administration's strong 
commitment to the Nation's defense and homeland security. The fiscal 
year 2008 request is slightly smaller than last year's projection; 
however, the outyears are increased starting in 2009. Within these 
amounts, there is significant growth projected for the Defense Nuclear 
Nonproliferation programs to support homeland security, including new 
initiatives and acceleration of threat reduction programs and increased 
inspection of seagoing cargoes destined for ports in the United States.

             DEFENSE NUCLEAR NONPROLIFERATION PROGRAM AREAS

Global Threat Reduction Initiative
    The administration's fiscal year 2008 request of $120 million for 
the GTRI is an increase of $4 million over the fiscal year 2007 
operating plan. The GTRI reduces the risk of terrorists acquiring 
nuclear and radiological materials for an improvised nuclear or 
radiological dispersal device by working at civilian sites worldwide 
to: 1) convert reactors from the use of WMD-usable HEU to LEU; 2) 
remove or dispose of excess WMD-usable nuclear and radiological 
materials; and 3) protect at-risk WMD-usable nuclear and radiological 
materials from theft and sabotage until a more permanent threat 
reduction solution can be implemented. Specific increases in the GTRI 
budget reflect, for example, the serial production and delivery of 27 
100-ton casks for transportation and long-term storage of 10,000 kg of 
HEU and 3,000 kg of plutonium removed from the BN-350 reactor site in 
Kazakhstan.
International Nuclear Material Protection and Cooperation
    NNSA's International MPC&A fiscal year 2008 budget request of $372 
million is a decrease of $101 million from the fiscal year 2007 
operating plan. This decrease reflects the successful completion of 
nuclear security upgrade work at Russian Strategic Rocket Forces and 
Russian Navy sites. International material protection work continues in 
other areas, including the continuation of security upgrades at a 
significant number of sites within the Russian nuclear complex, 
including those operated by the Federal Atomic Energy Agency (Rosatom), 
and the 12th Main Directorate of the Ministry of Defense. Security 
upgrades for Russian Rosatom facilities will be completed by the end of 
2008--2 years ahead of the original schedule, consistent with the 
Bratislava Initiative.
    The MPC&A Program is also focused on reducing proliferation risks 
by converting Russian HEU to LEU and by consolidating weapons-usable 
nuclear material into fewer, more secure locations. In fiscal year 
2008, we will eliminate an additional 1.2 metric tons of HEU for a 
cumulative total of 10.7 metric tons.
    Our SLD Program, a natural complement to our efforts to lock down 
vulnerable nuclear material and weapons, installs radiation detection 
equipment at key transit and border crossings, airports and major ports 
to deter, detect, and interdict illicit trafficking in nuclear and 
radioactive materials. During fiscal year 2008, the SLD Program plans 
to install detection equipment at an additional 51 strategic overseas 
transit and border sites. Under the Megaports Initiative, we have 
deployed radiation detection and cargo scanning equipment at six ports 
to date in Greece, the Netherlands, Bahamas, Sri Lanka, Singapore, and 
Spain. During fiscal year 2008, we plan to install detection equipment 
at three additional large ports: the port of Antwerp in Belgium, the 
port of Caucedo in the Dominican Republic, and the port of Salalah in 
Oman.
    Additionally, we are joining elements of the Megaports Initiative 
and the Container Security Initiative (CSI) under a new maritime 
security initiative, the Secure Freight Initiative Phase I. This new 
initiative is a partnership between host governments, commercial 
container shipping entities and the U.S. Government that serves to 
increase the number of containers physically scanned for nuclear and 
radiological materials and to create a detailed record of each U.S.-
bound container. Data from radiation detection equipment provided by 
NNSA and from non-intrusive imaging equipment provided by the 
Department of Homeland Security will enhance the identification of 
high-risk containers and facilitate the prompt resolution of potential 
nuclear or radiological threats.
Nonproliferation and International Security
    While the thrust of GTRI and MPC&A is to secure nuclear sites, 
convert reactors, and repatriate fuel from reactors worldwide, NNSA's 
Office of Nonproliferation and International Security (ONIS) provides 
technical and policy expertise in support of U.S. efforts to strengthen 
international nonproliferation arrangements (e.g., the Nuclear 
Suppliers Group, United Nations Security Council Resolution 1540 and 
the Global Initiative to Combat Nuclear Terrorism). The ONIS staff also 
fosters implementation of global nonproliferation requirements through 
engagement with foreign partners and the redirection of WMD expertise, 
and helps develop and implement mechanisms for transparent and 
verifiable nuclear reductions. The fiscal year 2008 budget request for 
the ONIS is $125 million. This request includes funds for providing 
technical support to strengthen the International Atomic Energy Agency 
safeguards system and supports programs to improve foreign governments' 
export control systems. This request will augment U.S. nonproliferation 
cooperation with China and India, and enhance transparency and 
scientist redirection activities with Russia, Ukraine, Kazakhstan, 
Libya, and Iraq.
    The budget request also supports activities to build up the 
nonproliferation component of the GNEP initiative. While GNEP is a 
long-term vision for the future of expanded use of nuclear power, NNSA 
plays an important role by providing leadership and technical expertise 
in the areas of safeguards technology, safeguards cooperation, and fuel 
supply arrangements to mitigate the proliferation risks that otherwise 
might accompany the expansion of nuclear power around the world 
envisioned by GNEP.
Elimination of Weapons Grade Plutonium Production
    Turning to programs that focus on halting the production of nuclear 
materials, the EWGPP Program staff are working toward completing the 
permanent shutdown of two of the three remaining weapons-grade 
plutonium production reactors in Seversk and Zheleznogorsk, Russia. The 
fiscal year 2008 budget request of $182 million is a decrease of $44 
million from the fiscal year 2007 operating plan, reflecting the 
planned completion of the fossil fuel heat and electricity facility at 
Seversk. The budget request provides the funding required to shut down 
these reactors permanently and to replace the heat and electricity 
these reactors supply to local communities with energy generated by 
fossil fuel plants by December 2008 in Seversk and by December 2010 in 
Zheleznogorsk. The reactors will be shut down immediately once the 
fossil-fuel plants are completed, eliminating the annual production of 
more than one metric ton of weapons-grade plutonium.
Fissile Materials Disposition
    In addition to curbing the production of dangerous nuclear 
materials, NNSA is working to reduce the existing stockpiles of nuclear 
materials in both Russia and the U.S. To that end, the fiscal year 2008 
Fissile Materials Disposition budget request of $610 million will 
contribute to the elimination of surplus U.S. and Russian weapon-grade 
plutonium and surplus U.S. highly-enriched uranium. Of this amount, 
$480.8 million will be allocated toward disposing of surplus U.S. 
plutonium, including $333.8 million for the Mixed Oxide Fuel 
Fabrication Facility and $60 million for the Pit Disassembly and 
Conversion Facility (PDCF) and the Waste Solidification Building. Of 
the remaining amount, $66.8 million will be devoted to the disposition 
of surplus U.S. HEU and $20.2 million will be focused on supporting 
activities common to both programs.
    This budget request also provides funding for ongoing efforts to 
dispose of surplus U.S. HEU, including down blending 17.4MT of HEU in 
support of establishing the Reliable Fuel Supply Program, available to 
countries with good nonproliferation credentials that face a disruption 
in supply that cannot be corrected through normal commercial means. 
This initiative marks the first step towards a key GNEP policy aim of 
creating a reliable nuclear fuel mechanism, providing countries a 
strong incentive to refrain from acquiring enrichment and reprocessing 
capabilities.
Nonproliferation and Verification Research and Development
    The fiscal year 2008 budget requests $265 million for 
Nonproliferation and Verification Research and Development. This effort 
includes a number of programs that make unique contributions to 
national security by researching the technological advancements 
necessary to detect and prevent the illicit diversion of nuclear 
materials. Within the Proliferation Detection Program, fundamental 
research is conducted in fields such as radiation detection, which 
supports national and homeland security agencies. It also advances 
basic and applied technologies for the nonproliferation community with 
dual-use benefit to national counterproliferation and counterterrorism 
missions. Specifically, this program develops the tools, technologies, 
techniques, and expertise for the identification, location, and 
analysis of the facilities, materials, and processes of undeclared and 
proliferant WMD programs. As the sole provider for the science base to 
the U.S. national nuclear test monitoring system, the Nuclear Explosion 
Monitoring Program produces the Nation's operational sensors that 
monitor from space the entire planet to detect and report surface, 
atmospheric, or space nuclear detonations. This program also produces 
and updates the regional geophysical datasets enabling operation of the 
Nation's ground-based seismic monitoring networks to detect and report 
underground detonations.
Historically Black Colleges and Universities (HBCU) Support
    A research and education partnership program with the HBCUs and the 
Massie Chairs of Excellence was initiated by Congress through earmarks 
in the Office of the Administrator Appropriation in fiscal year 2005, 
fiscal year 2006, and fiscal year 2007. The NNSA has implemented an 
effective program to target national security research opportunities 
for these institutions to increase their participation in national 
security-related research and to train and recruit HBCU graduates for 
employment within the NNSA. The NNSA goal is a stable $10 million 
annual effort. In fiscal year 2008, the Office of the Administrator 
appropriation will provide continued funding of $1 million to support 
certain HBCU activities. The programs funded in the Weapons Activities 
Appropriation will provide approximately $4 to $6 million of support to 
HBCU programs. In addition, the Defense Nuclear Nonproliferation 
Appropriation will provide approximately $2 to $3 million to this 
program. Lastly, the Naval Reactors Program will fund approximately $1 
million of HBCU programs in fiscal year 2008.

                               CONCLUSION

    I am confident that NNSA is headed in the right direction in the 
coming fiscal year. The budget request will support continuing our 
progress in protecting and certifying our Nation's strategic deterrent, 
transforming our nuclear weapons stockpile and infrastructure, reducing 
the global danger from proliferation and WMD, and enhancing the force 
projection capabilities of the U.S. nuclear Navy. It will enable us to 
continue to maintain the safety and security of our people, 
information, materials, and infrastructure. Taken together, each aspect 
of this budget request will allow us to meet our national security 
responsibilities during the upcoming fiscal year and well into the 
future.
    A statistical appendix follows that contains the budget figures 
supporting our Defense Nuclear Nonproliferation Request. I look forward 
to answering any questions on the justification for the requested 
budget.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Reed. Thank you very much, Mr. Tobey.
    Mr. Benkert?

STATEMENT OF HON. JOSEPH A. BENKERT, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR GLOBAL SECURITY AFFAIRS, DEPARTMENT OF 
                            DEFENSE

    Mr. Benkert. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Dole, it's an honor to appear before 
you to discuss the CTR Program and the PSI. It is a particular 
honor to have been preceded at this table by Senators Nunn and 
Lugar. Their legislative foresight, as has been well-described 
here this morning, forms the basis for the authority that we 
now use to help combat the threat of WMD and related 
infrastructure.
    Clearly, Senator Nunn has remained a leading voice to 
maintain public awareness of the WMD threat, and Senator Lugar 
has been a tireless advocate for nonproliferation activities, 
both within the Senate, with the Department of State and in 
partnership with the Armed Service Committee, and has been a 
key steward and mentor of the program that he helped found. I 
also want to thank the members of this subcommittee for their 
strong support of DOD programs that serve to combat the 
proliferation of WMD.
    Last year, we in DOD issued a national military strategy to 
combat WMD, which provides the overarching guidance to focus 
our military efforts, and our efforts in the Defense Department 
in support of the President's vision for National security. The 
strategy divided this complex mission area into eight types of 
activities: offensive operations, elimination, interdiction, 
active defense, passive defense, WMD consequence management, 
security cooperation, and threat-reduction cooperation.
    CTR and Proliferation Security Initiative (PSI), which we 
will discuss this morning, are two important components in our 
tool kit for carrying out several of these activities in 
support of the strategy.
    The traditional mission of CTR, seeks to halt the threat of 
WMD at its source, by destroying stockpiles and delivery 
systems. In cases where elimination was not possible, the next 
option was to safeguard the material from theft, or from 
diversion, through the installation of modernized security 
measures. Now, CTR--with its Proliferation Prevention 
Initiative--has gone beyond those two traditional areas, to 
help establish, in coordination with DOE, Department of State, 
and others, an outer ring of defense. A step away from the 
source, to stop WMD on the move, in transit.
    In a complementary fashion, PSI works with allies and like-
minded nations on means to stop WMD and missile-related 
shipments bound to and from non-state actors and in the states 
of concern. It does this by developing operational concepts for 
interdiction, by organizing a program of interdiction 
exercises, sharing information about national legal authorities 
to interdict WMD and related materials, and pursuing 
cooperation with industry sectors that can be helpful in the 
interdiction mission.
    CTR celebrates its 15th anniversary this year. During this 
time, the CTR policy and implementation teams have developed a 
unique set of skills to deal with very dangerous materials in 
remote parts of the world. They still have much work to do 
related to existing CTR projects and agreements, but there will 
also be opportunities for new uses of CTR authorities.
    We would welcome this committee's support, to make CTR a 
more nimble and agile tool for the long-term. In this regard, I 
would just note Senator Lugar's and Senator Nunn's testimony 
this morning. I would command to the committee's attention, 
Senator Lugar's proposal, introduced in S. 198 in January of 
this year, which seeks to streamline CTR's internal processes, 
by removing certification requirements.
    Similarly, any flexibility the committee might provide for 
using CTR in areas outside the states of the former Soviet 
Union would position the program to be more responsive to 
emergent requirements, and to the evolving threat.
    Let me mention, briefly, our fiscal year 2008 funding 
requests. From the standpoint of funding, the traditional CTR 
programs, largely located in Russia, are winding down. The 
capital-intensive construction projects, such as the chemical 
weapons destruction facility at Shchuch'yv and security 
installations at Russian nuclear weapons sites will be 
completed within the next 2 years. Construction of the chemical 
weapons destruction facility is now about 50 percent complete. 
We expect to amend the agreements and add the final contracts 
and funding to complete this project very soon.
    In nuclear weapons storage security, what remains to be 
done is to provide--in conjunction with the DOE, an indigenous 
Russian capability to sustain the modernized systems our two 
Departments will have installed by the end of 2008. This will 
be a multi-year effort, but the levels of funding required will 
be considerably lower than what was needed at the height of the 
effort to install the upgrades themselves.
    Our Department remains involved in transporting warheads to 
dismantlement and to centralized storage, while concurrently 
procuring over the next several years, new, safer and more 
secure rail cars in which the Ministry of Defense can transport 
these weapons. We continue to eliminate strategic offensive 
arms, but long familiarity with the processes and excellent 
cooperation from the Russian executive agent have led to 
greater efficiency in this area, so that we are, in fact, doing 
more with less.
    As these projects are completed, the focus of the CTR 
effort is slowly moving away from its initial concentration on 
legacy Soviet stockpiles, and turning South and West towards 
Central Asia, the caucuses in the Ukraine. For fiscal year 2008 
we have doubled our request for funding for the Biological 
Threat Reduction Program, and I point that out, particularly in 
view of the case that both Senator Lugar and Senator Nunn made, 
about the need to provide additional funding for dealing with 
the bio-threat.
    The initiatives in the CTR program in this area include 
working to consolidate and secure dangerous pathogens, 
strengthening the ability to detect, diagnose, and respond to 
bio-terror attacks, and potential pandemics. We concluded 
agreements with the Governments of Azerbaijan, Georgia, 
Kazakhstan, Ukraine, and Uzbekistan, and we are implementing 
bio-programs in those countries.
    Threat agent detection and response involves selectively 
locating in each of these countries, a network of 
epidemiological monitoring stations, capable of performing 
rapid diagnosis of disease outbreaks, with a secure, central 
reference laboratory where the initial diagnoses can be 
confirmed. Currently, one central lab, reference lab, is under 
construction in Georgia and network designs in the other 
countries are nearing completion.
    The WMD Proliferation Prevention Initiative funding remains 
steady at about $40 million. Currently, this is working in four 
countries of the former Soviet Union--Ukraine, Azerbaijan, 
Uzbekistan, and Kazakhstan. It seeks to develop in-depth WMD 
interdiction and detection capabilities over the long-term.
    The development of these projects is labor-intensive, 
implementation can be costly, particularly in the maritime 
domain, and the geographic areas in which we work--particularly 
the Caspian and Black Seas--are challenging and complex.
    Now, in the 5th year of this Proliferation Prevention 
Initiative Program, we're examining what we've accomplished, 
how we've complemented other border security efforts by other 
agencies, and where we'll go in the future.
    Mr. Chairman, the eight missions that we identified in the 
National Military Strategy to combat WMD, represent a 
continuing challenge. CTR and PSI are important tools in our 
tool kit for addressing this challenge. These programs can 
evolve to meet the evolving threat. We look forward to working 
with you toward that end. Mr. Chairman, this concludes my 
statement and I'm prepared to take any questions you may have.
    [The prepared statement of Mr. Benkert follows:]

                Prepared Statement by Joseph A. Benkert

    Mr. Chairman, members of the subcommittee, it is an honor to appear 
before you to discuss the Cooperative Threat Reduction (CTR) Program 
and the Proliferation Security Initiative (PSI). It is a particular 
honor to have been preceded at the witness table by Senators Nunn and 
Lugar, whose legislative foresight forms the basis of U.S. Government 
authorities to combat the threat of weapons of mass destruction (WMD) 
and related infrastructure. In private life, Senator Nunn has remained 
a leading voice to maintain public awareness of the WMD threat. Senator 
Lugar has been a tireless advocate for nonproliferation activities 
within the Senate and the Department of State, and in partnership with 
this committee has been a key steward and mentor of the CTR Program. I 
want also to thank the members of the committee for their strong 
support of Department of Defense (DOD) programs that serve to combat 
the proliferation of WMD.
    Since DOD last testified on these subjects in March 2006, we 
believe much has been accomplished and we look forward to a productive 
year ahead for both CTR and PSI. The President has requested $348 
million for fiscal year 2008 CTR activities; there is also a small 
request to support COCOM PSI-related exercises included in the Defense-
Wide O&M section of the President's request. The Department urges your 
support for these requests. Appended to my prepared statement is a 
detailed description of the fiscal year 2008 CTR Program request.

                             COMBATING WMD

    The first line of defense in combating WMD is international 
cooperation. We do this through bilateral working relationships, 
activities and agreements, and also through multilateral treaties and 
regimes. It is important that such agreements not be viewed as a 
panacea for the threat of WMD. The simple truth is that the worst 
proliferators tend not to sign up to treaties, and some nations that do 
sign up cheat. However, we also should not discount the value, in a 
layered defense strategy, of promoting norms of behavior and raising 
the bar for responsible behavior among nations that perceive an 
interest in strong relations with the United States and like-minded 
nations regarding proliferation of WMD. In this regard, DOD continues 
to play its role in interagency support for the Nuclear Suppliers 
Group, the Missile Technology Control Regime, the Australia Group, and 
the Wassanaar Arrangement, as well as the Nonproliferation Treaty, CWC, 
and Biological Weapons Convention. DOD also helped draft and table at 
the Conference on Disarmament the U.S. proposal for a Fissile Material 
Cutoff Treaty (FMCT). This effort has allowed the U.S. to move the 
discussions forward on an FMCT at the Conference on Disarmament and 
with allies.
    As two examples of international cooperation, CTR and PSI are 
important components of DOD's ``toolkit'' for the combating WMD mission 
area. However, this toolkit is much broader, and is detailed in the 
Secretary's National Military Strategy for Combating Weapons of Mass 
Destruction, issued in February 2006. This was the first DOD-wide 
strategy document addressed specifically at the combating WMD mission 
area. It followed the identification of combating WMD as one of four 
priority issues through which the 2006 Quadrennial Defense Review was 
conducted. The National Military Strategy for Combating WMD divided 
this complex mission area into eight discrete types of activities: 
offensive operations, elimination, interdiction, active defense, 
passive defense, WMD consequence management, security cooperation/
partner activities, and threat reduction cooperation. CTR and PSI are 
elements of two of those mission areas. I think it is important that 
the committee keep the broader range of combating WMD activities in 
context, however. Our success in addressing this threat is a function 
of how well we do across the full spectrum of mission areas, not merely 
in two of them.
    CTR and PSI are certainly among the most complex elements of the 
eight mission areas, and I am pleased to have the opportunity to focus 
on them in detail.

                      COOPERATIVE THREAT REDUCTION

    The CTR Program is well-known to this committee, and we appreciate 
the active participation of you and your staff in guiding the program. 
The following comments review developments since this subcommittee last 
received testimony on CTR. In addition, I will outline our view for 
CTR's future.

                                PROGRESS

    The past year has been very productive for CTR. Let me note a 
number of important accomplishments:

        <bullet> We broke ground for a key bio-security facility in 
        Tbilisi, Georgia, and are working closely with the government 
        of Azerbaijan to do the same in Baku within the next year. Both 
        of these governments have been very supportive as we jointly 
        pursue improved WMD security, and we welcome their continuing 
        cooperation. The bio-security facilities we have begun in these 
        capitals are planned beginnings of a regional ``constellation'' 
        of facilities that will give the U.S. and cooperating 
        governments new insight into potential bio-weapons threats in 
        the region.
        <bullet> We finalized procedures for accelerated warhead 
        security assistance in the Russian Federation. This project has 
        been moving forward on schedule for completion in 2008 at the 
        initiative of Presidents Bush and Putin at the 2005 Bratislava 
        Summit. We appreciate Congress's $44.5 million supplemental 
        appropriation for fiscal year 2006, which was essential to 
        accelerate the project.
        <bullet> In ongoing activities, CTR supported elimination of 70 
        silo-based and mobile missiles; secure transportation of 52 
        railcars of nuclear warheads to non-alert locations; completion 
        of security upgrades at 11 nuclear weapons storage sites, and a 
        variety of other activities.
        <bullet> We extended for 7 years the CTR Umbrella Agreements 
        with the Russian Federation and Ukraine. These agreements are 
        the backbone supporting all CTR activities in those countries 
        and represent an important political commitment to continued 
        cooperation in the area of nonproliferation.
        <bullet> CTR continued to meet expectations regarding its 
        financial management. In the past, the program was criticized 
        for running high unobligated balances and we have worked 
        diligently to address these criticisms. CTR funds are 
        appropriated with a 3-year life, and the program is run on a 
        capital-budgeting basis. Thus, it is not only impossible, but 
        counterproductive for CTR to spend its annual appropriation 
        fully in the year of appropriation. CTR projected that its 
        unobligated balance at the end of fiscal year 2006 would be 
        well under $100 million. At the end of fiscal year 2006, our 
        unobligated balance was in fact $72 million--continued evidence 
        of improved fiscal stewardship of the program. In fact, 
        congressional restrictions on CTR spending require a 
        substantial carryover in order that first fiscal-quarter bills 
        can be paid.
        <bullet> CTR has also continued to refine its business 
        practices at both the policy and implementation levels. In 
        August 2006, the Office of Management and Budget gave CTR top 
        honors for DOD with respect to its Program Assessment Rating 
        Tool process. Of the 16 DOD ``Service Asset and Service 
        Acquisition Programs'' assessed by OMB during the summer 2006, 
        the CTR Program received the highest score (92 out of 100) and 
        was 1 of only 2 programs to receive an overall rating of 
        ``Effective,'' which was the highest rating available.

    CTR also faced some challenges in the past year.

        <bullet> Construction of the ``Shchuch'ye'' chemical weapons 
        destruction facility in Russia continued to present very 
        difficult challenges to U.S. requirements for transparent 
        program management. The facility is now fully funded at $1.039 
        billion--the final appropriation was for fiscal year 2007. 
        However, over the past year there were significant problems 
        ensuring that final contract awards could be accomplished 
        transparently for prices that had a reasonable relation to the 
        work proposed to be accomplished. After detailed negotiations, 
        we are now poised to sign an agreement with Russia which will 
        allow us to pull the Shcuch'ye project across the goal line 
        within the U.S. budget. If that budget turns out to be 
        insufficient, we expect to have Russia's commitment to fund 
        whatever is necessary to complete the project.
          I want to emphasize DOD's commitment to completing the 
        Shchuch'ye project. Over the past year, concerns have been 
        expressed that we are somehow trying to walk away from 
        Shchuch'ye. This is not correct. The United States has invested 
        nearly $1 billion so far in this project, which is intended to 
        eliminate the most dangerous type of chemical weapons--nerve 
        agent--in their most proliferable form--small artillery shells 
        and rockets. For CTR's threat reduction mission, and for the 
        integrity of the program, it is important that Shchuch'ye be 
        completed. However, DOD can not do so where we cannot validate 
        that the U.S. is receiving appropriate value for its investment 
        to ensure that the mission is achieved. We believe our Russian 
        partners understand our position clearly, share our concerns 
        about managing costs, and are ready to sign an agreement that 
        will lead to successful commissioning of Shchuch'ye.
        <bullet> Cooperation among some Central Asian partners has been 
        uneven. In some cases we have experienced inappropriate 
        government scrutiny of our foreign-national subcontractors or 
        interlocutors. In other cases, we have faced bureaucratic 
        challenges getting CTR assistance exempted from local taxes. 
        Despite the strenuous efforts of the Department of State and 
        U.S. embassies to address these challenges, they continue to 
        constrain the many good things CTR can do for U.S. and partner-
        country interests.

                            LOOKING FORWARD

    The next few years will see several milestones for CTR, offering an 
opportunity to look farther ahead for the program. We expect to 
complete the Bratislava warhead security initiative in 2008, and the 
Shchuch'ye nerve agent elimination project in early 2009. In addition 
to continued progress in our missile elimination work in Russia, 
completion of these two very important and complex projects will mark 
several key changes for CTR.
    First, we expect that this will be the first time in CTR's history 
that the level of effort outside the Russian Federation, as measured by 
program funding, will exceed the level inside Russia. This represents a 
significant array of accomplishments for the program managers, action 
officers and contractors in the U.S. and Russia who have spent over a 
decade seeking to secure the legacy of Soviet WMD production, and its 
related infrastructure.
    The trend toward more CTR activity outside Russia reflects the 
realities of today. The Russian Federation finds itself in a much 
different position today than it was 15 years ago when CTR began. At 
that time, Senators Nunn and Lugar and their Russian counterparts had 
the foresight to understand the threat from unsecured, Soviet-era WMD 
across the states of the former Soviet Union. An enduring achievement 
of CTR is that it supported the secure repatriation to Russia of the 
Soviet Union's nuclear warheads located in Kazakhstan, Ukraine and 
Belarus. These countries also became CTR partners. Today, the Russian 
Federation has both the revived organizational capability as well as 
the resources to secure weapons of mass destruction inside its borders, 
and President Putin has committed to doing so. Thus, it is not 
surprising that CTR's level of effort in Russia is projected to 
decline. Indeed, with narrow exceptions, we anticipate that CTR will 
fulfill contracts and commitments already made in Russia, but not 
undertake any new work in the foreseeable future.
    CTR conducts its work where partner nations request its 
assistance--it functions only in permissive environments. Russia has 
not asked CTR for new assistance, with narrow exceptions, for some 
time. If Russia believes that CTR can bring a special capability to 
bear on a WMD problem, we would always be willing to discuss it.
    Moreover, the nature of the WMD threat has changed. When CTR began, 
the focus of the program was to eliminate or secure WMD at its source. 
This continues to be our preferred approach: the only way to have 100 
percent confidence that WMD or related infrastructure does not 
constitute a threat, is to get rid of it. However, we only have access 
to such stockpiles when the possessor state identifies them and 
requests assistance for elimination. Many of those known stockpiles or 
infrastructure were in the states of the former Soviet Union, including 
Russia, and CTR assistance has been requested to address them in many 
cases. Much of that assistance has already been provided. If WMD are 
found elsewhere, CTR is ready to provide security or conduct 
elimination operations, provided that doing so is consistent with U.S. 
policy and resource availability.
    The threat from large stockpiles of WMD ``at its source'' and from 
related infrastructure continues. However, terrorists do not need large 
amounts of WMD to carry out their missions. After September 11 this 
administration sought to address WMD on the move, as well as at the 
source. The purpose of this revised approach was to help meet the 
challenge posed by non-state actors, who are not tied to large 
stockpiles or infrastructure. For CTR, this resulted in the Weapons of 
Mass Destruction Proliferation Prevention Initiative, which is intended 
to improve partner nations' WMD border security capacity. It also 
resulted in the Threat Agent Detection and Response (TADR) initiative, 
under CTR's Biological Threat Reduction Program. TADR is intended to 
improve partner nations' capacity to detect, characterize , and share 
information about biological threats and trends related to dangerous 
pathogens. This attention to capacity building, in addition to 
addressing ``WMD in place,'' will help keep CTR current with the 
threats it is intended to address.
    CTR is one of several tools in our nonproliferation toolkit. Some 
have said that because the CTR budget request is declining, the 
administration intends to declare victory and close the program. This 
is incorrect. The budget has declined in part because expensive, 
infrastructure-heavy projects such as Shchuch'ye, warhead security and 
missile elimination are all nearing completion or well beyond the half-
way mark; and because new opportunities to use CTR's capabilities, in 
the type of circumstance the CTR model requires, are still being 
developed. Thus, the measure of CTR's health or its future is not how 
much money is being requested. Indeed, one of the key lessons we have 
learned is to measure our success by the nonproliferation return we 
receive on an expenditure and by accomplishment of the mission, not 
merely by how much equipment we supply to a partner. It may well be 
that CTR's budget request will need to rise in the future. Some 
capacity building is costly: the TADR program, which we have already 
begun to execute in several nations, involves providing some very 
complex facilities to accomplish its mission.
    The CTR policy and implementation teams have developed a unique set 
of skills to deal with very dangerous materials in very remote parts of 
the world. They still have much work to do related to existing CTR 
projects and agreements, but there will be opportunities for new uses 
of CTR. No one should think that the program is being shut down. 
Indeed, we would welcome the committee's support to make CTR a more 
nimble tool for the long term. In this regard, I would commend to the 
committee's attention the provisions of S.198, introduced on January 8, 
2007 by Senator Lugar which seek to streamline CTR's internal 
processes. Similarly, any additional flexibility the committee might 
provide for using CTR outside the states of the former Soviet Union 
would position the program to be more responsive to emergent 
requirements and the evolving threat I described, should the need 
arise. However, any expansion of CTR to new regimes or for new purposes 
will need to be considered carefully in light of the full array of WMD 
tools available and in view of CTR's core business activities--
elimination, security, and capacity building to address the threat of 
WMD and related infrastructure and delivery systems. We believe we have 
the right models in place for these activities, and that staying 
focused on them is the key to keeping the program running correctly.

                   PROLIFERATION SECURITY INITIATIVE

    The United States continues to work with other governments on the 
PSI, which President Bush launched in May 2003. Through the PSI, the 
United States collaborates with like-minded countries on how to stop 
WMD/missile-related shipments bound to and from non-state actors and 
states of concern while also working to enhance our individual and 
collective WMD interdiction tools.
    Since Assistant Secretary Flory last testified before this 
Subcommittee in March 2006, the number of countries that have endorsed 
the PSI Statement of Interdiction Principles has increased to over 80. 
The United States plays a leading role in the the PSI Operational 
Experts Group (OEG), which meets on behalf of all PSI participants to 
discuss and advance PSI objectives. The OEG brings together 20 
countries and their experts from the military, law enforcement, 
intelligence, legal, and diplomatic arenas. These experts develop new 
operational concepts for interdiction; organize a program of 
interdiction exercises; share information about national legal 
authorities; and pursue cooperation with industry sectors that can be 
helpful to the interdiction mission. Through these efforts, OEG 
participants raise the level of collective and national interdiction 
capabilities. New Zealand recently hosted the 14th OEG meeting in 
Auckland in March 2007. Greece will host the next OEG meeting in 
October 2007.
    DOD is responsible for leading the OEG process, the locus of 
operational aspects of PSI. To date, PSI partners have had 25 PSI OEG 
exercises that have explored all modes of transportation: ground, air, 
and sea. These exercises have brought to bear the expertise and 
operational assets of both the military as well as law enforcement 
agencies, reflecting the cooperative and multi-dimensional forms that 
real-world interdictions can take. These exercises have also been 
hosted by a range of countries around the world, and they provide an 
opportunity for nations that yet to endorse PSI to observe the 
operational aspects of PSI. Over 50 PSI participants have participated 
in or sent observers to these 25 exercises, while about another 20 non-
PSI participants have sent observers.
    PSI exercise Leading Edge, hosted by the United States and Bahrain 
in October 2006, was the first to be conducted in the Persian Gulf. In 
addition to six nations that sent operational assets (Australia, 
France, the United Kingdom, Italy, Bahrain and the United States), the 
United Arab Emirates, Japan, Spain, South Korea, Pakistan and Qatar 
sent observers . The United States continues to help plan or 
participate in a range of upcoming PSI exercises planned for 2007.
    In addition to exercises, table-top games and simulations have also 
helped participants work through interdiction scenarios, and they have, 
in many cases, improved the way participating governments organize to 
conduct interdictions. To this end, the United States will host another 
PSI game for OEG states at the Naval War College in Newport, Rhode 
Island in June 2007.
    We have seen other concrete benefits from the PSI. Participation in 
PSI has helped countries improve their internal interagency processes, 
communication with counterparts in foreign countries, understanding of 
international and domestic legal authorities, and understanding of 
applicable resoures and assets. All of these improvements have in turn 
helped countries in other areas, such as in fulfilling their 
obligations to implement United Nations Security Council Resolutions 
(UNSCR) 1718 (DPRK sanctions) and 1737/1747 (Iran). In discussions of 
UNSCRs 1718, 1737, and 1747 in the last two OEG meetings, a number of 
countries have cited that their work on PSI has helped lay the 
groundwork and develop the processes or mechanisms that they need to 
implement these chapter VII resolutions.
    The PSI has been and remains an invaluable nonproliferation 
activity, and we will continue to work close with our PSI partners to 
maximize its potential.

                               CONCLUSION

    Mr. Chairman, the eight missions identified in the National 
Military Strategy to Combat WMD represent a continuing challenge for 
us. They are complex because the threat is complex; the next edition of 
this strategy document could change in important ways, because the WMD 
threat will change. As it does, we are prepared to make changes in 
programs like CTR. The same is true for PSI, though this activity is 
still new enough that we ought not begin speaking of significant 
changes just yet. The WMD threat is significant, and PSI and CTR are 
important tools that should be considered to fight that threat. We look 
forward to working closely with Congress toward that end.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Reed. Thank you very much, gentlemen.
    I presume we can do at least two rounds of 6 minutes, so 
let me begin, and let me begin with Mr. Tobey.
    My first focus is on the Mixed-Oxide (MOX) Fuel Program. We 
know that's been an episodic process on both sides of the 
ocean, both the Russians and the United States.
    Specifically, will DOE go forward with the MOX Program, 
with or without a Russian commitment to finish their project?
    Mr. Tobey. We believe that the MOX Program is in the U.S. 
interest, regardless of what the Russians do. However, we 
intend fully to hold the Russians to the 2000 Plutonium 
Disposition Agreement, and we actually think that the chances 
are better that we will be able to hold the Russians to that 
agreement, if we proceed with our program.
    Senator Reed. Thank you, Mr. Tobey.
    Are there any alternatives to MOX that you're considering?
    Mr. Tobey. Mr. Chairman, over the last, I think, well, 
maybe more than a decade, a decade or so, many alternatives 
have been discussed. I think that some three dozen were 
initially discussed, in the original origins of the program. 
This has been narrowed down over time, and I think DOE last 
reported on three possible alternatives at the request of 
Congress: the MOX Program, vitrification, or storage. Storage--
or simply doing nothing, but continuing to secure the material, 
using 50-year life cycle costs, turns out to be the most 
expensive alternative. Of course, at the end of the 50 years, 
something must be done with the material at that point. During 
all of that time, it still remains material that could--at 
least theoretically--be used for nuclear weapons and, so we 
don't accomplish our nonproliferation goals.
    Vitrification is also a possibility. The estimated costs 
were not found to be substantially different than the MOX 
program, however, there's a great deal more technological, and 
therefore, financial risk. We're probably at least several 
years--perhaps as many as 8, years of research and development 
away from even beginning a vitrification effort. I would point 
out, the MOX program, the facility is actually 85 percent 
complete with its design.
    Senator Reed. Well, I understand and appreciate your 
commitment to completing it is in our interest, even without a 
Russian factor. But, there are some issues in timing, and one 
issue is that the plant will not be completed in 2011, but you 
want to start initial construction immediately, is that the 
case?
    Mr. Tobey. My understanding of the continuing resolution 
that was passed, prohibits us from starting construction 
activities until August 1, but we would like to start 
construction as soon as possible thereafter.
    Senator Reed. But the design phase will go much beyond 
that, design phase stretches to 2011, is that our impediment to 
a good, solid project?
    Mr. Tobey. The design is basically, well, it's somewhat 
greater than 85 percent complete. I think it's actually now, 
the last time--since that figure was formulated, and I think 
we've gone a little bit further.
    Some of design makes sense to do as you're doing the--as 
you're constructing the plant. As you probably know, Senator, 
the plant wouldn't be finished until 2015. So, some of that 
design work can go on as construction occurs.
    Senator Reed. We're going to spend at least $5 billion to 
build and start up the plant. For 14 years, dispose of only the 
agreed-upon 34 tons of plutonium, which begs the question--what 
happens to the additional excess U.S. plutonium? Shouldn't we 
design and build a plant that could fully-convert all of this 
plutonium?
    Mr. Tobey. Our view is that we should try and use the plant 
for as much of the material as possible. Some of the material 
may not be suitable for use in light-water reactors, because of 
contaminants within the material. But, it would be our 
objective to use it as much as possible. We're committed to 
using the plant for the 34 metric tons, as you noted.
    There's up to 13 additional metric tons that would be 
disposed of through other disposition paths. But, the phrase, 
``up to'' is key there. It would be our intent to put as much 
as possible through the MOX program.
    I'd also note that if there are further declarations of 
plutonium as excess to defense needs, that would likely be run 
through the MOX process. As well, we're looking into the 
possibility that the MOX plant could be used to produce driver 
fuel for fast reactors that might be pursued under the GNEP. 
So, we're trying to use the plant for as many purposes as 
possible.
    Senator Reed. This is my final question. The last National 
Defense Authorization Act required an independent cost estimate 
be conducted by DOE, and in lieu of an independent cost 
estimate, I'm told you have conducted an independent cost 
review. Is this accurate, and why is the independent cost 
estimate not being done?
    Mr. Tobey. I must admit, Senator, I'm not familiar with the 
exact distinction of, what the technical distinction between 
the two terms. I know that Burns & Rowe did look at the cost of 
the MOX plan. As a result of that, the total project cost was 
increased, the Reserves were increased as a result--it was a 
comprehensive study that cost roughly $1 million. But, I'd be 
happy to get back to you on that----
    Senator Reed. I think it would be helpful. Again, this is 
this sort of a distinction that is important, but, I think, 
should be clarified. So, if you could clarify the distinction 
and let us know, because the legislation called for this cost 
estimate, not just a review.
    Mr. Tobey. Certainly, sir.
    Senator Reed. I'd appreciate that.
    [The information referred to follows:]

    An independent cost estimate (ICE) of the Mixed Oxide (MOX) Fuel 
Fabrication Facility (Project 99-D-143) was prepared by the Jupiter 
Corporation on March 6, 2001, for the Department of Energy's Office of 
Engineering and Construction Management (OECM). Subsequently, delays 
caused by a liability impasse with Russia, constrained funding in the 
outyears and a partial redesign of the MOX facility to accommodate 
quantities of impure plutonium resulting from the cancellation of the 
immobilization project all have contributed to further delays in the 
MOX project schedule and increases to its total project cost. In 2006, 
in preparation for Critical Decision 2 (approval of performance 
baseline) approval, the MOX project cost estimate was updated to 
reflect current year dollars, escalation and risk contingency, 
including cost and schedule impacts associated with the liability 
impact, constrained funding and the MOX redesign. This cost estimate 
was again independently reviewed and validated by the engineering firm 
of Burns and Roe Enterprises, Inc. as part of OECM's external 
independent review (EIR) process. A report containing the review 
criteria, details of areas reviewed, findings, and DOE corrective 
actions was provided to Congress on April 4, 2007.
    In contrast to an ICE, in which only cost is evaluated, an EIR is 
much broader, taking into consideration 13 other essential project 
management elements such as, program and design requirements, results 
of design reviews, integrated resource loaded project schedule, project 
execution plan, risk management plan and the procurement and 
acquisition plans, all which are essential to the execution phase of 
the project. As part of the EIR, Burns and Roe evaluated the 
contractor's basis of estimates, including cost of materials and labor, 
structural and equipment installation unit rates, escalation, technical 
and programmatic risks, schedule and cost uncertainty, as well as 
project risk contingency associated with completing the design, 
construction and cold startup scope of work. Related construction work 
packages, projected resources and integrated project schedule 
activities were also reviewed as part of this effort. As a result, an 
additional $359 million was added to estimates proposed by DOE's 
contractor to reflect increases in the cost of some the construction 
activities, escalation rates, and contingency.

    Senator Reed. Mr. Benkert, again, thank you for your 
testimony. As you've pointed out, the committee's been very 
supportive of the CTR Program's effort to expand into 
biological security. Even though funding from this expansion 
plan was not included in the fiscal year 2008 budget request, I 
understand that you would like to get additional resources in 
the 2009 request. Could you briefly set out what work you'd 
like to do and where, with respect to biological initiatives?
    Mr. Benkert. Mr. Chairman, I think as I said, we have 
substantially expanded the funding in the 2008 request, 
specifically for bio, to do work in the five countries that I 
mentioned. I think we are looking at the possibility in future 
years for expanding this work to other countries, but also what 
additional work we need to do to follow up on the work we've 
started in the countries of concern.
    So, for example, we have a set of things that we are doing, 
which involve a series, a network of epidemiological stations 
to--which will be able to detect biological agents or extremely 
dangerous pathogens. Then a central reference laboratory to do 
diagnosis and other kinds of work.
    So, I think our view is, at this point, that we have 
adequate funding for what we have set out to do, and we are 
looking at what we might do to expand the program. I think our 
caution would be that, I mean, we are doubling the size of the 
program, in terms of funding, in this coming year, and we 
would, I think, be reluctant to put much more money into the 
program until we make sure that we can manage what we have, 
given the fact that it's about to double in funding.
    Senator Reed. Thank you.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Mr. Benkert, let me begin with you and ask, I understand 
that our troops have found some stocks of old, this would be 
pre-1991 Gulf War chemical weapons in Iraq. They're stored in 
bunkers that are under our guard, and they pose a safety and an 
environmental hazard. If they were to get into the wrong hands, 
of course, they could pose a threat to coalition troops, and to 
the Iraqi civilian population. Is there consideration being 
given to using CTR assistance to help Iraq destroy these old 
chemical weapons? If so, what factors is the administration 
looking at? What are they considering as this decision is being 
weighed?
    Mr. Benkert. Thank you, Senator Dole.
    As you said, there are old chemical weapons in Iraq, in a 
variety--we discover them, occasionally the insurgents discover 
them as well, and then there are certain areas where there are 
stockpiles of these.
    We have, in fact--we are in fact looking at the possibility 
of the use of CTR funds to help to assist the Iraqis in 
destroying these weapons. I think the issue that we have, of 
course, is--referring to Senator Lugar's point, that we are 
limited in our ability to use CTR outside of the former Soviet 
Union by the current restrictions of $50 million annually, and 
a requirement for a Presidential determination. So, I think it 
would be useful to us, if there were greater flexibility, it 
would provide us some greater flexibility to look at what we 
might do in Iraq. I think, part of this also is, will be tied 
to Iraq's accession to the Chemical Weapons Convention, and 
their declarations to the OPCW, which will then put them in a 
position where they're obliged to start destroying these 
weapons. But, yes, we are looking at how we could help them do 
that.
    Senator Dole. Let me visit with you about Shchuchye for a 
few moments. Of course, this is the last large CTR construction 
project in Russia, and we understand that DOD has recently 
negotiated with Russia to have Russia assume responsibility for 
completing the construction, using U.S. funds that have already 
been provided and allocated to the project.
    DOD does not plan to provide any additional funding, as 
you've indicated, for this facility. But, given the large U.S. 
investment in this facility, and the sensitivity of its 
function--destroying chemical weapons, it's important that the 
United States have high confidence that the facility will 
operate properly and safely once it's turned over to the 
Russians.
    Has DOD pared back the scope of its work on systemization 
of this facility, and the training of the Russian operators as 
a result of this development? If so, can you assure us that the 
facility will operate as designed, and that the Russian workers 
will be adequately trained, so that we can be confident in the 
safe operations of this, largely U.S.-funded facility?
    Mr. Benkert. Senator Dole, I can assure you that we are 
committed to seeing this project through to its completion to 
ensure that this important facility does, in fact, function as 
designed, and is able to destroy the weapons.
    I mean, we completely share the views--I think, again, 
expressed here this morning by Senator Nunn, of the importance 
of this work. This is the largest stockpile in the world of 
probably the most dangerous chemical weapons in the world. So, 
I can assure you that we are committed to seeing it through. I 
think we have had some issues in contracting in order to get 
this program completed, I think we have arrived at an 
effective, and also I think, creative way of structuring the 
contracts for the remaining work, so that we can do this within 
the budget that we have been given, and do it at a reasonable 
price.
    We will be watching this very carefully as it progresses, 
to make sure that, in fact, that the work does what it's 
supposed to do.
    Senator Dole. Thank you.
    Mr. Tobey, we're all watching cautiously to see whether the 
agreements reached at the Six-Party Talks will be honored in 
North Korea, whether North Korea will ultimately make good on 
its commitment to shut down, and eventually to dismantle--with 
verification--its nuclear weapons program.
    What role is DOE playing in helping to assess the accuracy 
of the North Korean declaration regarding its nuclear programs, 
and what role is DOE possibly playing here, with regard to 
helping to develop a reliable verification system.
    Mr. Tobey. Senator Dole, DOE's been an active participant 
in the negotiations, I actually participated myself in three 
rounds of the talks while I was at the National Security 
Council. But while I was there, there was a colleague from the 
DOE, now one of our people continues to go to those talks. So, 
we're participating in the negotiations, advising Ambassador 
Hill on the technical aspects of what would be required for 
verifiable dismantlement of the North Korean nuclear program.
    We've also been an active participant in interagency 
discussions on, what would be required for verifiable 
dismantlement of the North Korean program. As you probably 
know, we haven't yet received a declaration from North Korea, 
but we would expect to be active participants in analysis of 
that declaration. When the time came, and while no roles have 
yet been determined among the parties, I would expect that if 
the United States takes a leading role in verifying the 
dismantlement of the program, that the DOE would be actively 
involved in that.
    Senator Dole. Thank you.
    Earlier, I raised a question about the Iraqi scientists. 
I'd like to have you elaborate on where we stand there.
    In 2004, DOE launched an initiative, as I understand it, to 
provide employment opportunities for these Iraqi scientists, 
but because of security considerations, that program did not 
advance rapidly.
    But, I'm interested in how many scientists may have 
participated, and in your view, if this program were to be 
expanded and extended, the number of scientists who might want 
to take advantage of such an opportunity. Could you just update 
us regarding the status and the progress of this program?
    Mr. Tobey. Sure, it's a difficult issue. Because, as you 
noted, the security situation is difficult. We did work in--
directly in Iraq, early on, and there were programs aimed at 
both bettering the Iraqi people, and also making use of the 
scientific expertise that was resident within Iraq.
    We've concentrated more recently on programs that are 
located outside of Iraq, where we can bring Iraqis to be 
trained, and those programs do continue, they're not large, but 
we're continuing to train Iraqis. I will have to get back to 
you on the exact number of participants that have been through 
this.
    [The information referred to follows:]

    Scientist engagement is carried out by NNSA's Global Initiatives 
for Proliferation Prevention (GIPP) program. This program, established 
in 2005, combined existing scientist redirection programs that targeted 
the Former Soviet Union and expanded the mission of these programs to 
meet emerging challenges, such as Libya and Iraq.
    In Iraq, GIPP currently sponsors 13 projects involving 41 Iraqi 
scientists. Many of these projects directly contribute to the 
reconstruction of Iraqi infrastructure, such as water purification 
techniques. Other projects have potential medical or pharmaceutical 
applications. GIPP projects are approved to maximize participation by 
scientists with weapons of mass destruction skills and expertise in 
nuclear weapons and nuclear energy, weapons safety, weapons design, and 
explosives. None of these scientists is employed or trained in the 
United States under these projects.

    Senator Dole. Thank you.
    Senator Reed. Thank you very much, Senator Dole. Let me 
leave with a couple of additional questions, and recognize 
Senator Dole again.
    DOE is responsible for a lot of research and development, 
which is critical to nonproliferation--forensic 
identifications, and all of that which is going to be 
increasingly important as we see more and more nations begin to 
develop nuclear energy programs, and perhaps worse.
    I'm just wondering, with respect to both DOE and DOD, do 
you think you have adequate resources for the kind of research 
programs that are necessary, Mr. Tobey?
    Mr. Tobey. Yes, Senator. Although, as you note, it is a 
very high priority. In our case, because we are among the few 
that provide funds for basic research, as opposed to applied 
research, I think those dollars are very critical, not only to 
the work of DOE, but as support for other agencies.
    Senator Reed. Are there any areas that you feel are under 
funded, in terms of this research? That are absolutely 
important going forward, but are not receiving adequate 
resources?
    Mr. Tobey. No, sir.
    Senator Reed. If you think of some, don't be shy about 
letting us know.
    Mr. Tobey. Thank you.
    Senator Reed. Mr. Benkert, in terms of DOD research, to the 
extent that you have sort of a window on that, are there any 
areas of concern that you have the research dollars aren't 
there for these, to support the counterproliferation programs?
    Mr. Benkert. Mr. Chairman, I think again, in terms of the 
nuclear issues, primarily to DOE on this, but I think you hit 
upon an important topic, which is this ability--the forensic 
ability to determine where materials come from.
    I think the observation I would make is that in terms of 
nuclear materials, there has been much progress, and I think 
probably we are in reasonably good shape. In terms of being, if 
the forensic capabilities, if chemical weapons were used, or 
biological weapons, probably not so. I would have to get back 
to you on the specifics of whether we have adequate funds 
invested in those areas or not, but I think clearly it's the 
case that more needs to be done there.
    Senator Reed. I think so. Because, again, without the 
telltale irrefutable link back to a source, deterrence doesn't 
work.
    Mr. Benkert. Right.
    Senator Reed. You're left with pre-emption, or you're left 
with, just fingers crossed and hoping for the best, and I don't 
think we want to be in that position. So, this effort going 
forward of adequate research, and particularly when it comes to 
forensics of chemical, biological, and nuclear weapons is 
absolutely critical, and I'd appreciate your thoughtful 
response in this regard.
    The final question I have is that, we seem to have reached 
some significant milestones with respect to the initial vision 
of the Conference for Threat Reduction. We have facilities in 
place to destroy chemical weapons that we're seeing come online 
and we are looking, dealing with transferring plutonium into 
MOX. The question, I think, now, is what's the next thought 
about programmatically, geographically--where do we go now? 
Sort of, the CTR II? Mr. Tobey?
    Mr. Tobey. Mr. Chairman, when I took this job last August, 
I talked about three priorities. The first was to get 
Bratislava done on time, or if possible, early. I think we're 
winding down that effort, we're on a track to getting our work 
complete by the end of 2008. The second was good program 
management, because I know that's been an issue at DOE, and we 
deal with complicated, expensive programs, and that's 
important. The third, though, was to make sure that our 
strategy met the evolving threat that we face. That, I think, 
is a particularly important problem. I think as we begin to 
complete our work in the former Soviet Union, and move from 
control of material to sustaining those efforts, we also need 
to turn our attention elsewhere.
    A couple of areas have been mentioned already by the first 
panel and others in the room, and I agree with those 
sentiments. I think that while we all hope that the agreement 
with North Korea holds, until we're certain that that program 
is fully dismantled, I think we have to attend to the 
possibility that there could be proliferation from North Korea, 
given its record as a proliferator of missile equipment and 
other dangerous military technology.
    I think also in South Asia, there are some proliferation 
concerns. I would hope that the full suite of the activities 
that we undertake--both in terms of second line of defense and 
best practices--could be applied to those areas.
    In that regard, I'm very much encouraged by the Global 
Initiative to Combat Nuclear Terrorism. That was an initiative 
that was started by Presidents Bush and Putin at St. Petersburg 
last year. The model for the membership is like the PSI, it 
started with a small group, the G8, plus four other nations--
Australia, China, Kazakhstan, and Turkey. Since then, Morocco 
has joined, and the group has set out, first, a set of 
principles to guide their action, and then that was done in 
Rabat last fall, and in January in Ankara, Turkey, they adopted 
a work program, and then in June, we're hopeful that the 
membership of the organization will greatly expand.
    I regard this as particularly promising, because what we 
can do is take the lessons that we've learned in the former 
Soviet Union and elsewhere, and take the legal mandate of U.N. 
Security Council Resolution 1540, and in doing so, gather the 
resources in terms of personnel and national power and 
financial resources of other countries, and apply them to the 
nonproliferation problem. So, it's no longer the United States, 
and perhaps portions of the G8 that are bearing this burden 
alone, it becomes the responsibility of every nation to fight 
the proliferation problem. I think that's the way we will best 
meet the emerging threats that we're facing.
    Senator Reed. Thank you.
    Mr. Benkert, your thoughts?
    Mr. Benkert. First of all, Mr. Chairman, I would 
wholeheartedly endorse what Mr. Tobey just said about the 
Global Initiative to counter nuclear terrorism. We have, in 
CTR, over the last 15 years, developed a great base of 
knowledge on practices, procedures, how to go about eliminating 
and destroying nuclear weapons, how to go about securing sites, 
developing the hardware and the procedures to do that.
    I think, one of the things we want to do is to be able to 
apply this knowledge outside Russia and the former Soviet 
Union. The Global Initiative that Presidents Bush and Putin 
launched, I think, is a good vehicle for doing that. There may 
be others, as well, that we want to do, but I think one thing 
that it is, one area that we want to pursue is how we use this 
base of knowledge and experience that we have developed over 
the last 15 years, in Russia and the former Soviet Union, in a 
broader context.
    The second is, the two relatively new components of CTR are 
the Proliferation Prevention Initiative which is the attempt to 
develop the capability to stop WMD and related materials on the 
move, for example, though border security initiatives. I think 
this is--we think this is particularly promising since, I 
think, in the future, one cannot assume that we will be able to 
get at weapons at their source, and we need to be able to stop 
them en route.
    Then, of course, as we've discussed before, the biological 
piece of this, which I think is an area that deserves a great 
deal of attention, and we are providing attention to that.
    Senator Reed. Thank you very much.
    Senator Dole.
    Senator Dole. Just one further question for Mr. Tobey. In 
March 2003--or 2005, I believe it was--DOE launched the GTRI, 
and it aims to identify secure radiological materials around 
the world against diversion for use in radiological dispersion 
devices. What is the status of this very important anti-
terrorism initiative? Has the Department developed a strategy 
for prioritizing activities under this initiative, so that the 
material that poses the highest risk is dealt with and 
addressed first?
    Mr. Tobey. Senator Dole, this is a very important program, 
and our work there has been accelerating. We've taken to heart 
some of the advice we've received from outside of the 
Department. In terms of sites that have been secured over the 
last several years, in fiscal year 2003, we secured 8, in 
fiscal year 2004, it was 61, in 2005, 174, and 2006 it was 257. 
Cumulatively, we've secured over 520 sites. So, the work there 
is not only continuing, but accelerating, and I do believe it 
is fundamentally important.
    We have developed a prioritization, and that's based on the 
type of material, how easily attainable it might be to a 
terrorist group, and also its proximity to assets that we care 
about the United States, or our allies or our friends. We use 
that prioritization to guide our efforts worldwide.
    We are also working with the IAEA because they engage in 
similar work, to try and come up with prioritization that would 
be harmonized with ours. It may not be perfectly the same, but, 
in other words, to guide their practices as well. Because, 
you're certainly right that prioritization of the work is 
important.
    Then, finally, this is an area where I think the Global 
Initiative to Combat Nuclear Terrorism can also play a role, 
because we can take this prioritization, present it to other 
nations, and hope to engage their efforts on this work, as 
well.
    Senator Dole. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Dole. Let me thank you for 
your participation. As always, your thoughtful questions and 
your insightful remarks.
    I want to thank both Mr. Benkert and Mr. Tobey for your 
testimony. The record will remain open for 3 days for 
additional questions, which any of the panel might have for you 
gentlemen.
    Thank you very much, and the hearing is adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2008

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 EFFORTS TO IMPROVE THE DEPARTMENT OF DEFENSE'S LANGUAGE AND CULTURAL 
                         AWARENESS CAPABILITIES

    The subcommittee met, pursuant to notice, at 2:02 p.m. in 
room SR-325, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Akaka, Warner, 
and Dole.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; and Arun A. Seraphin, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Lynn F. Rusten, professional staff 
member; and Kristine L. Svinicki, professional staff member.
    Staff assistants present: David G. Collins, Jessica L. 
Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Sandra Luff, assistant to Senator 
Warner; and Lindsey Neas, assistant to Senator Dole.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. If I could have your attention. First, let me 
thank all the exhibitors for a very interesting and informative 
exhibition and demonstration. It is quite impressive. I thank 
you all.
    We will now call the hearing to order and I would begin my 
statement, but also indicate that Senator Akaka will be joining 
us. He has several other responsibilities, so I will suspend 
and recognize him immediately, with the kind concurrence of 
Senator Dole.
    Today we meet to consider efforts to improve the Department 
of Defense (DOD) language and cultural awareness capabilities. 
I would like to welcome our witnesses. Our first witness is 
General Robert Scales, who is currently the President of 
Colgen, Inc. General Scales served for 30 years in the Army and 
is an outspoken advocate of language and cultural awareness in 
the military.
    Representing the DOD is Deputy Under Secretary of Defense 
for Plans, Gail McGinn. Secretary McGinn is responsible for the 
development and implementation of the DOD's language policies.
    Joining Secretary McGinn is Dr. Andre Van Tilborg, Deputy 
Under Secretary of Defense for Science and Technology. In this 
position, Dr. Van Tilborg has oversight over many of the DOD's 
important research efforts, including those in language, 
translation, and cultural awareness.
    I also want to thank everyone from the various service 
agencies and commands who worked on the technology 
demonstration that we have here in the hearing room today. Some 
of these systems are related significantly to improving our 
capability in addressing operational shortfalls in the short-
term, while we strive to more comprehensively improve the DOD's 
capabilities in this arena.
    I want to especially thank the subcommittee staff 
assistant, Jessica Kingston, for her efforts in coordinating 
the demonstration and exhibits today. Jessica, you did a great 
job. I encourage all of our members, witnesses, and attendees 
to take the opportunity to examine some of these devices and 
learn about the ongoing research efforts.
    At this point, it is appropriate in my text to stop and, 
Senator Akaka, if you would like to make your opening statement 
we would be more than willing to recognize you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for this opportunity to present my statement. I want to thank 
Senator Dole for giving me this opportunity, too. Thank you, 
Mr. Chairman, for allowing me to speak briefly on this matter. 
I need to leave to chair a Veterans Affairs Committee hearing 
at 2 o'clock.
    I applaud your leadership in holding today's hearing, Mr. 
Chairman, on the DOD's language and cultural awareness 
capabilities. This is a critical issue for national security 
and I appreciate your allowing me to participate here. As 
chairman of the Senate Oversight of Government Management 
Subcommittee and the Armed Services Readiness and Management 
Support Subcommittee, I have been very interested in how the 
Federal Government as a whole and DOD in particular are meeting 
their needs in both the short- and long-term. While DOD has 
made great strides to address this issue, more work needs to be 
done.
    One issue I want to discuss is how DOD coordinates with 
other Federal agencies, industries, and stakeholders to address 
its language needs. In 2004, DOD held a national language 
conference and issued a White Paper summarizing the 
recommendations of the conference. The number one 
recommendation called for naming a senior Government official 
to lead the Government's foreign language education effort and 
establishing a council representing the broad spectrum of 
stakeholders to report on the Nation's language needs and 
propose actions to address them.
    The White Paper also noted that all interested parties must 
be involved, as all sectors--government, industry, and 
academia--have a need for language-proficient individuals and 
no one sector has all of the solutions.
    Last year the administration announced the National 
Security Language Initiative (NSLI) to coordinate efforts among 
the intelligence directorate and the Departments of Defense, 
Education, and State to address our national security language 
needs. However, NSLI and the National Security Education 
Program failed to address key recommendations made in the White 
Paper, namely ensuring that this effort can be sustained, 
taking in the advice of all Federal agencies, stakeholders, and 
addressing our common security needs, which also impacts our 
national security.
    In January I chaired a hearing of the Senate Oversight of 
Government Management Subcommittee on the Federal Government's 
language strategy. Testimony from academia and foreign language 
groups said that there is a lack of coordination between NSLI 
partners and stakeholders. One witness commented that if there 
is a Federal language strategy, it is not well known.
    Last year Senator Cochran and I were able to secure $1 
million for DOD to implement the recommendations of the White 
Paper. As reflected in my language, the National Foreign 
Language Coordination Act, S. 4051, I am pleased that DOD is 
set to hold several regional summits to address language needs 
at the State and local level, as outlined in my bill. It is key 
that DOD is taking action, but more, again, more needs to be 
done.
    I firmly believe that it is only through a cooperative plan 
of action and long-term leadership that we will address the 
Nation's language needs.
    Thank you again, Mr. Chairman, for allowing me to 
participate today and to speak briefly on this issue. I do have 
a few questions that I will submit for the record.
    Senator Reed. Thank you very much, Senator Akaka. We all 
recognize your leadership role in several committees on these 
issues of language preparation, not just for the DOD, but for 
the Government as a whole. Thank you.
    Let me conclude my statement and then recognize the ranking 
member, Senator Dole.
    The December 2005 Defense Language Transformation Roadmap 
asserts in the introduction that: ``Post-September 11 military 
operations reinforce the reality that the DOD needs a 
significantly improved organic capability in emerging languages 
and dialects, a greater competence in regional area skills in 
those languages and dialects, and a surge capacity to rapidly 
expand its language capabilities on short notice.''
    I am glad that the DOD recognizes this need, but wonder why 
it came about 4 years after September 11. Moreover, 6 years 
after September 11 and midway into the implementation of that 
roadmap, I am concerned that we still hear comments such as, 
``I am appalled at the Army's inability, and the Marine Corps 
also, to get language training.'' General Barry McCaffrey made 
that comment last week before this committee.
    I understand that the DOD's investment in language 
capabilities has increased exponentially from what was being 
budgeted before September 2001 to what is being budgeted for 
the current fiscal year. If that is true, what have we gained 
from this investment and what level of investment is the 
Department planning to make to develop future capability?
    I hope that at this hearing we can examine the shortfalls 
of the DOD's current approach to language and cultural 
awareness and that we can come away with some proposals about 
what additional steps the DOD should take and what programs or 
initiatives Congress should support.
    I would like to hear from witnesses on their views 
regarding the role that research and development can play in 
enhancing our capabilities. I know that technology can play a 
big role in this, but I also know that it is not a silver 
bullet. I would like to explore how much of an emphasis we 
should be placing on these efforts, relative to other avenues 
as we seek to improve our operational capabilities.
    The goal of all of us here is to ensure that our troops 
have the appropriate cultural and language skills to prevail, 
not just in the current fight against Islamic terrorism, but 
also in executing other military activities, including 
peacekeeping, military cooperation, training, and exchanges 
with foreign militaries, and deterrence of unneeded warfighting 
with a potential conventional enemy.
    I want to thank the witnesses for being here. I look 
forward to a very engaging hearing. Now I would like to 
recognize Senator Dole.
    Senator Dole.

              STATEMENT OF SENATOR ELIZABETH DOLE

    Senator Dole. I certainly would like to join Senator Reed 
and Senator Akaka in welcoming our witnesses this afternoon. I 
would also like to thank everyone who has been involved in 
bringing us the great technology exhibits that we had a chance 
to view earlier. It truly helps us better understand the fruits 
of our science and technology (S&T) investments when we can 
view and touch the equipment and talk to the operators to hear 
how these devices help fulfill their missions.
    The security environment since September 11 has reinforced 
the long-held principle that the United States must effectively 
use all instruments of national power to achieve our national 
security objectives. That means not only military capability, 
but it also means that diplomacy, foreign assistance, and 
economic tools are critical to our future security. Similarly, 
since September 11 we have relearned the lesson that to be 
effective the U.S. military must be skilled not only at 
conducting combat operations, but also at helping to prevent 
conflict and helping to transition from conflict situations to 
sustained peace and stability.
    These activities require skills that are different from 
traditional warfighting skills. In the past few years, numerous 
Defense Science Board studies, outside experts, and DOD 
planning documents, including the 2006 Quadrennial Defense 
Review (QDR), have called for greater focus on creating and 
sustaining DOD's capabilities in stability, security, 
transition, and reconstruction operations. The critical element 
in those capabilities is the human factor, the ability of our 
military personnel to understand the environment in which they 
operate or are seeking to shape, to speak the language spoken 
in areas around the globe where they are deployed, and to 
understand the cultural norms of the people with whom they will 
be interacting in both friendly and hostile situations.
    Today's hearing will focus on the efforts that DOD is 
making to improve the capabilities of its personnel in language 
and cultural awareness skills. The testimonies of General 
Scales, Mrs. McGinn, and Dr. Van Tilborg, regarding the DOD's 
requirements in these areas and how well the DOD is doing in 
identifying, prioritizing, and meeting those requirements are 
very important contributions to this discussion. Also, the 
degree to which S&T can help to meet the needs and compensate 
for shortfalls that exist today in the linguistic and cultural 
awareness fields that our military men and women need as they 
are deployed around the globe, particularly in Iraq and 
Afghanistan.
    Your testimony will also help this subcommittee to 
determine if the proposed fiscal year 2008 and the future years 
defense budget reflect sufficient priority, resources, and 
authorities for this important capabilities.
    Thank you all for your appearance today and for your 
service.
    Senator Reed. Thank you very much, Senator Dole.
    Let me state that all of your statements have been included 
in the record. You may feel free to summarize. In fact, I would 
encourage you to summarize. At this point I would like to 
recognize General Scales.
    General Scales.

 STATEMENT OF MG ROBERT H. SCALES, JR., USA (RET.), PRESIDENT, 
                          COLGEN, INC.

    General Scales. Thank you, Senator Reed, and thank you, 
Senator Dole. I will take the hint and be uncharacteristically 
brief.
    I think we can all agree that most of our shortcomings in 
recent wars have been human and not technological, and the list 
is long: cultural awareness, the ability to influence and shape 
opinions, indeed soldier conduct, information operations--the 
list goes on. What we have learned I guess, Senator, is that 
wars today are won as much by creating alliances and leveraging 
nonmilitary advantages, reading intentions, building trust, 
affecting opinions, and managing perceptions.
    All of these demand an exceptional ability to understand 
people, their culture, and their motivations. My concern is 
that today's military has become so overstretched that it might 
become too busy to learn, in a time when the value of learning 
has never been greater for our military.
    You asked me last week, Senator, to expand on this subject 
a little bit, approaching it from a strategic direction, and I 
would like to do that because I believe the problem is larger 
than merely learning language. I believe it is going to require 
a real transformation in how the DOD views war, that we move 
from a technocentric view of warfare to a culture-centric view 
of warfare, and that the human behavior, cognitive, and 
cultural aspects of warfare become as much a part of our 
lexicon, our research and development, training and education, 
as learning how to operate the machines is today.
    So let me go down these very quickly. Cultural awareness. 
Language is important, but it is not the only important 
component to cultural awareness. Soldiers have to be able to 
move comfortably among alien cultures to establish trust and 
cement relationships with others. The point, Senator, I'd like 
to make is not all will be fit for this kind of work. Some 
soldiers and marines remain committed to fight in any battle, 
and yet there are others, Senator, that I have seen in my many 
years that seek to have this cultural sense, this innate 
ability to sublimate ego, to communicate with alien cultures, 
even those who do not even speak the language, who have these 
special skills. We are seeing that play out every day in Iraq 
and in Afghanistan.
    So language is important, but a culturally-aware military 
cannot achieve its goals merely by offering courses.
    The other point I would make to you, Senator, is that 
militaries are by their nature oriented on merit. Those things 
which reward a soldier, a soldier will pay attention to. So I 
recommend that we reward those, find means to reward those who 
exhibit these special cultural skills. I do not believe an 
officer should be commissioned who has not had at least 2 years 
of language and cultural training. I do not believe any officer 
should be promoted to the grade of colonel unless he or she can 
demonstrate a working knowledge of a language.
    One of the most important tasks that we face in the future 
is the ability to build alien armies and alliances. It is 
interesting because in the military we have always been very 
good at this. We have a remarkable, since the end of World War 
II, track record for building armies in places like Korea, 
Greece, Vietnam, El Salvador, and now Iraq.
    But back on my point about merit, Senator, we do not reward 
those who have performed brilliantly as advisers and trainers 
and I think this must change. I think officers who have proven 
to be particularly effective as advisers should be promoted 
very early and selected for advance civil schooling to build on 
those skills that they have demonstrated while training foreign 
armies. I think a certain number of general officer billets 
must be reserved for them as they begin to progress through the 
ranks.
    I believe that we must cultivate, amplify, research, and 
inculcate these skills in military and civilian educational 
institutions, perhaps institutions that are reserved 
specifically for that purpose.
    The other issue deals with perception-shaping. Perception-
shaping is an art, not a science, and in many ways the enemy 
does this better than we do. I believe that these are special 
skills--the ability to affect will and shape perceptions. I 
believe this is a task that is too big for the DOD. I believe 
it must be a national effort, superintended by distinguished 
academics and practitioners of the human, not the technological 
sciences.
    One of the things we are learning is that, whereas when I 
was a lieutenant we expected colonels and generals to perform 
these tasks, what we are learning in Iraq and Afghanistan is we 
expect privates and corporals to be culturally aware. So I 
believe that we have to do a better job of inculcating 
knowledge and wisdom and teaching young men and women how to 
exhibit the indirect forms of leadership that are so important 
in performing these tasks.
    The young man or woman walking point in a place like 
Baghdad needs to have this special training, not just in the 
language, but in the ability to communicate and understand 
alien cultures. I believe psychological and physiological 
tuning is important for these functions. Again, some people can 
do them, some cannot. With only 16 weeks of basic training, we 
have to put the instruments in place, the scientific 
instruments in place, to find those and carefully select them 
who have these innate human, rather than technological skills.
    I think we have to develop not just soldiers, but small 
units, that are good at this. The Marines have a great 
reputation for establishing these small civic action teams in 
places like Iraq, and also in Vietnam. So we have to be able to 
train small units to work in villages for prolonged periods of 
time, to commune with the people and be effective at that.
    I think leadership and decisionmaking have to be addressed. 
It is not just being able to operate your weapon. It is also 
the ability to make key decisions, life-changing decisions, 
when you see a person standing on the end of a street corner to 
differentiate between an insurgent and a young Iraqi just out 
walking on the street.
    I believe there is a higher element involved as well, 
Senator, and that is this idea of intuitive battle command. One 
of the mistakes, one of the shortcomings in this war, has been 
a rush to a kinetic solution. This is a problem in the chain of 
command, in the planning sequences, and in battle command. So I 
think issues like gut feel and intuition should replace the 
hierarchical and the old linear processes that you and I--that 
we have been operating under.
    I think the ability to share information and to command by 
discourse rather than by formal orders are skills that we have 
to learn. I believe that we ought to build into our military 
not just the ability to go to the National Training Center and 
learn how to use our weapons at the brigade and battalion 
level; I believe that we ought to deal with the individual and 
the unit level as well, that we ought to have simulators that 
teach small unit leaders and soldiers how to make quick, split 
moment, split second decisions, that test the sort of intuitive 
right stuff, this gut feel ability to intuit the person's 
intentions. All these are very human, not technological skills.
    Let me end by a brief recommendation. In fact, as you and 
others have said, so much of the human, cultural, and cognitive 
skills are scattered, not only throughout the DOD but 
throughout the government.
    I really believe that we need an agency, a sort of social 
science corollary to something like the Defense Advanced 
Research Project Agency (DARPA), that can bring together not 
just the language part of cultural awareness, but the social, 
scientific, and the cognitive and behavioral aspects of it as 
well. I believe we need to bring together the best and the 
brightest from academia, the military and science institutions, 
corporations, Army Special Forces and Marine operating forces 
together. I think they ought to have the authority to conduct 
field experiments and studies in human performance using 
operational forces. I believe that they need to provide 
recommendations regarding selection, promotion, and schooling 
policies to the Secretary of Defense.
    Just as the Defense Science Board holds annual summer 
studies to look at the physical sciences, I think this 
organization ought to hold similar studies to look across the 
board at the human, cultural, and cognitive sciences to be 
applied to the art of war.
    I think they ought to have the same budgeting authority, 
directly from Congress, and would submit an annual assessment 
to Congress on the human, cultural, and cognitive aspects of 
the Services. I believe they ought to have a broad charter, and 
I believe that they ought to be able to establish criteria for 
language training, and I believe they ought to have an 
influence on how young officers are educated in alien cultures, 
language, and the art and science of war. I think this ought to 
be directed in nature, in the sense that they should be 
responsible for building this sort of new generation of 
officers that have these special human, cultural, and cognitive 
skills.
    Finally, I believe they ought to affiliate with a major 
university with a solid reputation in the human and the social 
sciences.
    Senator, thank you so much for the opportunity to talk to 
you.
    [The prepared statement of General Scales follows:]
       Prepared Statement by MG Robert H Scales, Jr., USA (Ret.)
    Experience in Iraq and Afghanistan have proven that successful 
prosecution of the ``Long War'' is far more dependent on an intimate 
knowledge of the enemy's motivation, intent, will, tactical method and 
cultural environment than the deployment of smart bombs, unmanned 
aircraft and expansive bandwidth. Success rests with the ability of 
leaders to think and adapt faster than the enemy and for soldiers to 
thrive in an environment of uncertainty, ambiguity and unfamiliar 
cultural circumstances. Yet the military still remains wedded to the 
premise that success in war is best achieved by creating an 
overwhelming technological advantage. Our fixation on technology--our 
very technological success--has led us to believe that the soldier is a 
system and the enemy is a target. Soldiers are now viewed, especially 
by this U.S. Department of Defense (DOD), as an ``overhead expense,'' 
not a source of investment.
    Viewing war too much as a contest of technologies, we have become 
impatient and detached from those forms of war that do not fit our 
paradigms. Techno-centric solutions are in our own cultural DNA. Thus 
it is no wonder that transformation has been interpreted exclusively as 
a technological challenge. So far we have spent billions to gain a few 
additional meters of precision, knots of speed or bits of bandwidth. 
Now we must commit resources to improve how the military thinks and 
acts in an effort to create a parallel transformational universe based 
on cognition and cultural awareness.
    Reflective senior officers returning from Iraq and Afghanistan have 
concluded that great advantage can be achieved by out thinking rather 
than out equipping the enemy. They are telling us that wars are won as 
much by creating alliances, leveraging non military advantages, reading 
intentions, building trust, converting opinions and managing 
perceptions, all tasks that demand an exceptional ability to understand 
people, their culture and their motivation. Yet these same commanders 
lament that they are obliged to subordinate learning about war to the 
practical and more pressing demands of routine day-to-day operations. 
In a word, today's military has become so overstretched that it may 
become too busy to learn at a time when the value of learning has never 
been greater.
    What follows is a partial list of initiatives that collectively 
will cost little but if taken together will increase American combat 
proficiency far out of proportion to its cost. Implementing only a few 
of these initiatives will go a long way to creating an environment 
conducive to fighting an enemy in this emerging era of culture-centric 
warfare.

                           CULTURAL AWARENESS

    In Iraq, a curtain of cultural ignorance continues to separate the 
good intentions of the American soldier from Iraqis of good will. 
Inability to speak the language and insensitive conduct become real 
combat vulnerabilities that the enemy has exploited to his advantage. 
The military of the future must be able to go to war with enough 
cultural knowledge to thrive in an alien environment. Empathy will 
become a weapon. Soldiers must gain the ability to move comfortably 
among alien cultures, to establish trust and cement relationships that 
can be exploited in battle. Not all are fit for this kind of work. Some 
will remain committed to fighting the kinetic battle. But others will 
come to the task with intuitive cultural court sense, an innate ability 
to connect with other cultures. These soldiers must be identified and 
nurtured just as surely as the Army selects out those with innate 
operational court sense.
    Social science can help select soldiers very early who possess 
social and cultural intelligence. Likewise, scientific psychology can 
assist in designing and running cultural immersion institutions that 
will hasten the development of culturally adept soldiers and 
intelligence agents. Cultural psychology can teach us to better 
understand both common elements of human culture and how they differ. 
An understanding of these commonalities and differences can help gain 
local allies, fracture enemy subgroups, avoid conflicts among allies, 
promote beneficial alliances, and undermine enemy alliances.
    A culturally aware military cannot be achieved just by offering 
language courses. Language ability is a means to an end to be sure. But 
the goal of a program designed to enhance cultural awareness must focus 
on identifying and rewarding those who exhibit these special cultural 
skills. No officer should be commissioned who has not had at least 2 
years of language training. No officer should be promoted to colonel 
unless he or she can demonstrate a working knowledge of language spoken 
by peoples who inhabit threatened regions of the world. The fitness or 
efficiency reports of the services must be amended to include an 
assessment of these special talents.

                  BUILDING ALIEN ARMIES AND ALLIANCES

    The Long War will be manpower-intensive. The U.S. cannot hope to 
field enough soldiers to be effective wherever the enemy appears. 
Effective surrogates are needed to help us fight our wars. The Army has 
a long tradition of creating effective indigenous armies in such remote 
places as Greece, Korea, Vietnam, El Salvador, and now Iraq. But almost 
without exception, the unique skills required to perform this complex 
task have never been valued, and those who practice them are rarely 
rewarded. Today's soldiers would prefer to be recognized as operators 
rather than advisers. This must change. If our strategic success on a 
future battlefield will depend on our ability to create armies from 
whole cloth--or, as in Iraq, to remove an army that has been part of 
the problem and make it a part of the solution--then we must select, 
promote and put into positions of authority those who know how to build 
armies. Officers who have proven to be particularly effective as 
advisors in Iraq should be promoted very early and selected for 
advanced civil schooling. When these officers advance to senior rank a 
specific number of general officer billets must be reserved for them. 
We must cultivate, amplify, research and inculcate these skills in 
military and civilian educational institutions reserved specifically 
for that purpose.

                 PERCEPTION SHAPING AS ART, NOT SCIENCE

    People in many regions of the world hate us. They have been led to 
these beliefs by an enemy whose perception-shaping effort is as 
brilliant as it is diabolical. If the center of gravity in the Long War 
is the perception of the people, then perhaps we should learn how the 
enemy manipulates the people. Information technology will be of little 
use in this effort. Damage is only amplified when inappropriate, 
culturally insensitive or false messages are sent over the most 
sophisticated information networks. Recent advances in the social 
psychology of leadership and persuasion can help train soldiers to win 
acceptance of local populations and obtain better intelligence from 
locals. Recent cognitive behavioral therapy has documented remarkably 
effective techniques for countering fear and abiding hatred such as we 
see in the Middle East. Our challenge is to create a human science 
intended specifically for shaping opinions, particularly among alien 
peoples. This task is too big for a single service or event for the 
DOD. It must be a national effort superintended by distinguished 
academics and practitioners in the human sciences who understand such 
things, rather than by policymakers who have proven in Iraq that they 
do not.

                  INCULCATE KNOWLEDGE AND TEACH WISDOM

    In Iraq and Afghanistan, junior soldiers and marines today are 
asked to make decisions that in previous wars were reserved for far 
more senior officers. A corporal standing guard in Baghdad or Fallujah 
can commit an act that might well affect the strategic outcome of an 
entire campaign. Yet the intellectual preparation of these very junior 
leaders is no more advanced today than it was during World War II. 
However, the native creativity, innovativeness and initiative exhibited 
by these young men and women belie their woeful lack of intellectual 
preparation.
    Learning to deal with the human and cultural complexities of this 
era of war will take time. Leaders, intelligence officers, and soldiers 
must be given the time to immerse themselves in alien cultures and 
reflect on their profession. Yet in our haste to put more soldiers and 
Marines in the field, we risk breaking the intellectual institutions 
that create opportunities to learn. Today, we are contracting out our 
need for wisdom by hiring civilians to teach in military schools and 
colleges. Educational science has long understood that reading and 
listening are the least effective means for retaining or increasing 
knowledge. Teaching is at least an order of magnitude more effective, 
while researching and writing are far better still. Thus the Services 
must change assignment and promotion policies to make learning and 
teaching professionally rewarding.

                         TACTICAL INTELLIGENCE

    The value of tactical intelligence--knowledge of the enemy's 
actions or intentions sufficiently precise and timely to kill him--has 
been demonstrated in Iraq and Afghanistan. Killing power is of no use 
unless a soldier on patrol knows who to kill. We should take away from 
our combat experience a commitment to leverage human sciences to make 
the tactical view of the enemy clearer and more certain, to be able to 
differentiate between the innocents and the enemy by reading actions to 
discern intentions.
    The essential tools necessary to make a soldier a superb 
intelligence gatherer must be imbedded in his brain rather than placed 
in his rucksack. He must be taught to perceive his surroundings in such 
a way that he can make immediate intuitive decisions about the 
intentions of those about him. His commanders must be taught to see the 
battlefield through the eyes of his soldiers. He must make decisions 
based on the gut feel and developed intuition that come from an 
intelligence gatherer's ability to see what others cannot. There is a 
growing science of intuition and gut feeling, and these capabilities 
might be enhanced by this new capability and its allied technology. 
Machines and processes might make intelligence easier to parse and 
read. But knowing the enemy better than he knows us is inherently a 
psycho-cultural rather than a technological, organizational, or 
procedural challenge.

                 PSYCHOLOGICAL AND PHYSIOLOGICAL TUNING

    Life sciences offer promise that older, more mature soldiers will 
be able to endure the physical stresses of close combat for longer 
periods. This is important because experience strongly supports the 
conclusion that older men make better close-combat soldiers. Scientific 
research also suggests that social intelligence and diplomatic skills 
increase with age. Older soldiers are more stable in crisis situations, 
are less likely to be killed or wounded and are far more effective in 
performing the essential tasks that attend to close-in killing. 
Experience within special operations units also suggests that more 
mature soldiers are better suited for fighting in complex human 
environments. Science can help determine when soldiers are at their 
cognitive peak. Psychological instruments are available today to 
increase endurance and sustained attention on the battlefield. Today, 
conditioning science has succeeded in keeping professional athletes 
competitive much longer than even a decade ago. These methods should be 
adapted to prepare ground soldiers as well for the physical and 
psychological stresses of close combat.

            DEVELOP HIGH PERFORMING SOLDIERS AND SMALL UNITS

    Close combat has always been a personal and intimate experience. 
Close combat is the only skill that cannot be bought off the street or 
contracted out. In all of our world wars, success of campaigns has been 
threatened by a shortage of first rate, professional infantrymen. 
Inevitably, a protracted campaign drains the supply of intimate 
killers. Many infantrymen are sent into close combat with about 4 
months' preparation. What little social science the research and 
development community has devote to understanding the human component 
in war has not been spent on close-combat soldiers. We know far more 
about pilot and astronaut behavior than we do about those who in the 
next world war will do most of the killing and dying, the close-combat 
soldiers. If dead soldiers constitute our greatest weakness in war, 
then we should, as a matter of national importance, devote resources to 
making them better.
    The enemy has drawn us unwillingly into fighting him at the 
tactical level of war where the importance of technology diminishes in 
proportion to the value of intangibles. Thus, winning the Long War will 
require greater attention to the tactical fight. Technology will play a 
part, to be sure. Our small units, squads, and platoons should be 
equipped with only the best vehicles, small arms, sensors, radios, and 
self-protection. But more important to victory will be human 
influencers such as the selection, bonding, and psychological and 
physical preparation of tactical units.
    As the battlefield expands and becomes more uncertain and lethal, 
it also becomes lonelier and enormously frightening for those obliged 
to fight close. Most recent American campaigns have been fought in 
unfamiliar and horrifically desolate terrain and weather. Modern social 
science offers some promising solutions to this problem. Recently, we 
have learned that soldiers can now be better tuned psychologically to 
endure the stresses of close combat. Tests, assessments, role-playing 
exercises, and careful vetting will reduce the percentage of soldiers 
who suffer from stress disorders after coming off the line.
    Cognitive sciences can be leveraged to enhance small-unit training 
in many ways, from speeding the acquisition and enhancing the retention 
of foreign languages to training soldiers in command decisionmaking 
simulators to sharpen the ability to make decisions in complex tactical 
situations. Cognitive sciences can be employed in the creation of 
highly efficient and flexible training programs that can respond to the 
ever-changing problems. Models of human cognition can also be used to 
diagnose performance failures during simulated exercises. These 
measures can assist in training soldiers to attend to hidden variables 
and to properly weigh and filter the many factors that determine 
optimal performance in complex decisionmaking tasks.
    But the social sciences can accelerate the process for building 
great small units only so much. The one ingredient necessary for 
creating a closely bonded unit is time. The aging of a good unit, like 
that of a good wine, cannot be hurried. Platoons need at least a year 
to develop full body and character. Because the pipeline will be so 
long and the probability of death so great, the ground services must 
create many more close-combat units than conventional logic would 
demand. The lesson from Iraq and Afghanistan is clear: In future wars 
we can never have too many close-combat units. The performance of small 
ground units will be so critical to success on the World War IV 
battlefield that we should replace Cold War methods of mass producing 
small units and treat them more like professional sports teams with 
highly paid coaching and dedicated practice with the highest quality 
equipment and assessment methods.

                     LEADERSHIP AND DECISIONMAKING

    The Long War will demand intellectually ambidextrous leaders who 
are capable of facing a conventional enemy one moment, then shifting to 
an irregular threat the next moment before transitioning to the task of 
providing humanitarian solace to the innocent. All of these missions 
may have to be performed by the same commander simultaneously. 
Developing leaders with such a varied menu of skills takes time.
    There are precedents for developing these skills. In Vietnam, the 
air services developed ``Top Gun'' and ``Red Flag'' exercises as a 
means of improving the flying skills of new pilots bloodlessly before 
they faced a real and skilled opponent. Recent advances in the science 
of intuitive decisionmaking will give the ground services a similar 
ability to improve the close-combat decisionmaking skills of young 
leaders. Senior commanders will be able to use these tools to select 
those leaders with the intuitive right stuff. Over time, leaders must 
be given the tools to measure and assess improvements in their ability 
to make the right decisions in ever more complex and demanding combat 
situations. They should also have access to coaches and mentors who 
will pass on newly learned experiences with an exceptional degree of 
accountability and scientific precision.

                        INTUITIVE BATTLE COMMAND

    The Army and Marine Corps learned in Afghanistan and Iraq that 
operational planning systems inherited from the Cold War would no 
longer work against an elusive and adaptive enemy. They were forced to 
improvise a new method of campaign planning that emphasized the human 
component in war. Gut feel and intuition replaced hierarchical, linear 
processes. They learned to command by discourse rather than formal 
orders. Information-sharing became ubiquitous, with even the most 
junior leaders able to communicate in real time with each other and 
with their seniors.
    Dedicated soldier networks have fundamentally altered the 
relationship between leaders and led and have changed forever how the 
Army and Marine Corps command soldiers in battle.
    Developing new and effective command-and-control technologies, 
doctrine and procedures will do no good unless we educate leaders to 
exploit these opportunities fully. We have only begun to leverage the 
power of the learning sciences to battle command. Teaching commanders 
how to think and intuit rather than what to think will allow them to 
anticipate how the enemy will act. Convincing commanders to leave Cold 
War-era decisionmaking processes in favor of nonlinear intuitive 
processes will accelerate the pace and tempo of battle. The promise is 
enormous. But we will only achieve the full potential of this promise 
if we devote the resources to the research and education necessary to 
make it happen.

                 CULTURAL AND COGNITIVE TRANSFORMATION

    The relationship between the military and human and behavioral 
scientists has, to date, been one of antipathy and neglect. Academics 
and behavioral practitioners have rarely violated the turf of the 
soldier. Many are turned off by the prospects of relating their 
professions to war. But most take the war against terrorism seriously. 
If the Army and Marine Corps give them the opportunity, they will 
gladly turn the best of their sciences to the future defense of our 
Nation.
    We are in a race, and the times demand change. The Long War can 
only be won by harnessing the social and human sciences as the 
essential amplifiers of military performance, just as the physical 
sciences were the amplifiers of past world wars. Such a shift in how 
the defense community approaches war will require a fundamental shift 
in military culture.
    There is an old saying that the Navy and the Air Force man the 
equipment and the Army and Marine Corps equip the man. Surely those 
services that focus on the man rather than the machine should receive a 
disproportionate share of future defense budgets. Unfortunately, the 
ground services are far too committed and engaged in fighting this war 
to prepare adequately for the next. They need help. We can open a new 
cognitive and cultural transformational front by establishing a Human, 
Cultural and Cognitive Agency that will:

        <bullet> Become a social science corollary and be similar in 
        structure and purpose to The Defense Advanced Research Projects 
        Agency (DARPA).
        <bullet> Be headed by a person credentialed and esteemed in the 
        human, cultural, and cognitive scientific communities.
        <bullet> Bring together the best and brightest from academia, 
        the military human science institutions, corporations and the 
        Army, Special Forces and Marine Corps operational forces.
        <bullet> Have authority to conduct field experiments and 
        studies in human performance using operational forces.
        <bullet> Provide recommendations regarding selection, 
        promotion, and schooling to Secretary of Defense.
        <bullet> Hold an annual summer study similar to the Defense 
        Science Board in which members from corporations, the Services, 
        and academia would meet to offer advice to the Secretary of 
        Defense on issues related to the human sciences.
        <bullet> Have distinct budgeting authorities directly from 
        Congress and would submit an annual assessment to Congress on 
        the human, cultural and cognitive performance of the services, 
        particularly the ground services.
        <bullet> Be given a broad charter that would include: cultural 
        awareness training and education; perception and opinion 
        shaping; in extremis decisionmaking in war; small unit and 
        individual performance; intelligence analyst training and 
        education; intuitive battle command; individual combat 
        performance assessment and measurement; psychological tuning 
        and hardening; language science, among many other subjects and 
        initiatives.
        <bullet> Establish criteria for, fund and manage a program of 
        advanced civil schooling in cultural awareness and the art of 
        war for officers in the ground services. Officers selected for 
        cultural and cognitive degrees would come principally from the 
        operational forces and upon completion of study would be 
        utilized principally in command and staff billets in Marine and 
        Army fighting units. Officers completing these degrees would 
        gain full joint credentialing through the grade of colonel.
        <bullet> Affiliate and locate with a major university with a 
        solid reputation in human and social science.

    We cannot expect the scientific and bureaucratic institutions that 
won two world wars and the Cold War by exploiting the physical sciences 
to easily embrace a social and human sciences approach to the same 
challenges. But the wars in Iraq and Afghanistan clearly prove that a 
human approach to future wars is now our most glaring shortcoming and 
greatest challenge. Transformation in the human dimension will take 
resources and time. The shortest commodity is time. We must begin 
immediately to put in place the structures that will optimize what 
little time we have available.

    Senator Reed. Thank you, General, for your always 
thoughtful and important remarks. Thank you very much, sir.
    Secretary McGinn?

 STATEMENT OF HON. GAIL H. McGINN, DEPUTY UNDER SECRETARY FOR 
                  PLANS, DEPARTMENT OF DEFENSE

    Mrs. McGinn. Mr. Chairman, thank you for allowing me to 
appear today to discuss the DOD's efforts to improve our 
capability in foreign language and regional expertise. The 
subcommittee's interest in this topic is very much appreciated. 
My colleague, Dr. Van Tilborg, will cover matters relating to 
technology, so I will discuss the human aspect of the defense 
language program.
    We welcome the advances that technology brings us, but we 
do not think that technology will overcome the need for people 
with knowledge of languages, regions, and cultures. For the 
past 5 years we have been actively engaged in coming to 
understand our foreign language needs and have been working to 
address those needs.
    The DOD has always required people to be interactive in 
foreign languages, but today's needs are very different from 
those of the Cold War. At that time language needs were 
predictable and we focused on languages like Russian and 
German. Today's emphasis on irregular warfare, building 
partnerships with foreign countries, development of capability 
and stability operations, not to mention the effort of the long 
war, bring the need for foreign language proficiency to the 
fore, and not just foreign language proficiency, but regional 
and cultural expertise as well.
    We must be able to react quickly and globally and provide 
our forces with the capabilities they need. Indeed, these 
things must become core competencies of the force.
    As noted in my written statement, we are actively pursuing 
three courses of action to meet our competency needs in foreign 
language and regional expertise. First, we are moving to find, 
build, and manage a foundational corps of servicemembers with 
language ability. We are assessing every servicemember to 
ascertain language skills. In so doing, we have discovered a 
wealth of languages that we did not know we had in the force, 
including indigenous languages of Africa and significant 
numbers of Chinese speakers.
    We have reoriented and upgraded the training we offer at 
Defense Language Institute (DLI)-Foreign Language Center to 
ensure that we are teaching the right languages to the right 
proficiency levels. Indeed, we have dramatically increased 
their funding so they can increase the proficiency levels of 
the students they graduate there to meet today's needs.
    We have increased the language focus of our military 
academies and are beginning to move it into Reserve Officer 
Training Center (ROTC). We are providing language and cultural 
training to deploying forces. The goal is to have on hand a 
robust foundation that can deploy quickly, with the right 
clearances, the right proficiency, and the right languages.
    Second, since we cannot have a standby force of sufficient 
size to handle all the language needs that might occur, we are 
improving our ability to surge to support operational 
requirements. The Army as our executive agent manages a 
contract to supply linguists to deployed forces.
    We also use reach-back capabilities for translation and we 
are exploring these capabilities for interpretation as well. In 
the future, we will also be relying on our language corps, a 
corps of Americans who have agreed to come and help with their 
language skills when called. We have just awarded a contract to 
begin building this corps, which is also included in the 
President's NSLI.
    Third, we need to build a cadre of individuals with high 
levels of language proficiency, who are better able to function 
in today's environment and interact with our foreign partners.
    We are especially proud of the work the military 
departments have done to expand our foreign area officer 
program. The foreign area officers are our uniformed experts 
who possess a combination of strategic focus, regional 
expertise, cultural awareness, and high level foreign language 
proficiency. We currently have 1,600 foreign area officers 
active or in training, principally from the Army and the Marine 
Corps. The Air Force and the Navy are building this capability 
and will add significant numbers to our overall count in the 
years to come. Together the Services will bring on 995 new 
foreign area service officers by 2012.
    In addition, I would like to highlight our DLI-Foreign 
Language Center. That is the centerpiece of our foreign 
language program. The DLI teaches basic language instruction to 
4,000 servicemembers a year. It used to be focused on providing 
training for cryptolinguists for the Intelligence Community, 
but has evolved in recent years to provide strong support for 
our warfighters by deploying mobile training teams to conduct 
pre-deployment training and providing training materials for 
use by deploying forces.
    Mr. Chairman, I would be remiss if I did not mention that 
increasing foreign language capability is not just a DOD issue, 
it is a national issue as well. As a Nation we have not 
enthusiastically accepted the value of foreign language as an 
important competency for Americans to possess. At the DLI, we 
bring in high school graduates who may never have spoken a 
foreign language and teach them to be fairly proficient in 
Arabic in 63 weeks. We could do much better if they came to us 
already having studied any language.
    As Senator Akaka stated, we have joined with the Department 
of Education, the Department of State, and the Director of 
National Intelligence in the implementation of the NSLI for 
strategic languages in America. We view this as a high priority 
initiative in support of our overall program and intend to 
continue our efforts to highlight the importance of knowing 
other languages and cultures, not just because it matters to 
us, but frankly because it matters to our country in the global 
economy.
    We have done a lot, but much remains to be done. We need to 
sustain momentum and build on past progress. We are very much 
appreciative of your interest and support.
    That concludes my statement.
    [The prepared statement of Mrs. McGinn follows:]

               Prepared Statement by Hon. Gail H. McGinn

                              INTRODUCTION

    Mr. Chairman and members of this distinguished subcommittee, thank 
you for the opportunity to speak on this very important topic.
    Today, the Department of Defense (DOD) is engaged in two very 
important efforts. We are transforming how the DOD values, employs, and 
deploys foreign language capability and regional expertise. During the 
planning phase, we identified the need for a deeper national language 
talent pool from which we can recruit and exploit during times of 
surge. In an effort to respond to the growing need for language and 
regional expertise, we are supporting the National Security Language 
Initiative (NSLI), launched by President Bush in January 2006.
    Foreign language and regional expertise, which includes cultural 
awareness, are emerging as key competencies for our 21st century Total 
Force. The Active-Duty, National Guard, Reserve, and civilian 
personnel, along with our supporting contract personnel, understand 
that these essential skills are needed for mission accomplishment. We 
have overcome many obstacles and made good progress, and the 
transformation that has occurred is apparent across the entire DOD, but 
there is still work to be done.
    Language skills are not easily acquired and, once acquired, are not 
universally applicable to all regions within a country or situation. 
Regional expertise requires continuous learning to stay current in an 
ever-changing world environment. As judicious planners and good 
stewards, we constantly assess the relevance of what we are doing today 
with what we might be called to do in the future.

                          THE NEED FOR CHANGE

    Current military operations demand different skills than those that 
were mastered to win the Cold War. Today's operations increasingly 
require our forces to operate with coalition and alliance partners and 
interact with foreign populations, in a variety of regions, with 
diverse languages and cultures. Our enemies blend in with the local 
population, making identification and achieving victory more difficult. 
To be effective in stability, security, transition, and reconstruction 
operations, as well as other counterinsurgency measures and to prevail 
in the long war, we must be able to understand different cultures and 
communicate effectively in order to gain the support of the local 
people.
    We have responded to this shifting paradigm with a shift in 
strategy. Operational lessons learned and studies stressed the need for 
the DOD to create and maintain language capabilities within the force 
and have the ability to surge on demand to meet unexpected challenges. 
The Strategic Planning Guidance for fiscal years 2006 through 2011 
directed development of a comprehensive roadmap to achieve the full 
range of language capabilities necessary to carry out national 
strategy. The result was the 2005 DOD Language Transformation Roadmap 
(DLTR) that continues to be the pivotal document for our 
accomplishments today.
    Leadership has continued to reinforce the importance of foreign 
language and regional expertise within the 21st century Total Force. 
The 2006 Quadrennial Defense Review (QDR) provides approximately $430 
million through the Future Years Defense Program, with $66.7 million in 
the fiscal year 2008 President's budget request for initiatives to 
strengthen and expand our Defense Language Program. These initiatives 
span across technology, training, education, and recruitment and 
include the Army Heritage Speaker (09L) Program, Service Academy 
Language Training Programs, Foreign Language Proficiency Pay, Reserve 
Officer Training Center (ROTC) Language Training Grants, Accession 
Screening Program, the Language Corps, National Security Education 
Program (NSEP), and the Defense Language Institute Foreign Language 
Center (DLIFLC).
    The Strategic Planning Guidance for fiscal years 2008 through 2013 
outlines the national commitment to developing the best mix of 
capabilities within the Total Force and sets forth a series of roadmaps 
that support the goals of the DLTR.

                            MANAGING CHANGE

    The DLTR, signed by the Deputy Secretary of Defense on February 14, 
2005, is our management guide for building language skills and regional 
proficiency into today's force. The roadmap provides broad goals that 
will ensure a strong foundation in language, regional and cultural 
expertise, a capacity to surge to meet unanticipated demands, and a 
cadre of language professionals.
    To ensure oversight, execution, and direction for this 
transformation, the Deputy Secretary assigned the Under Secretary of 
Defense for Personnel and Readiness responsibility for the Defense 
Language Program. The Deputy Secretary then directed the appointment of 
Senior Language Authorities in the military departments, the defense 
and joint staffs, defense agencies, and defense field activities at the 
Senior Executive Service, and general and flag officer ranks to ensure 
senior-level involvement and oversight. We established the Defense 
Language Steering Committee, consisting of the Senior Language 
Authorities, to act as an advisory board and guide the implementation 
of the roadmap. The Under Secretary of Defense for Personnel and 
Readiness appointed me as the DOD Senior Language Authority and Chair 
of the Defense Language Steering Committee. We revised the DOD 
Directive for the Defense Language Program and established the Defense 
Language Office to ensure oversight and execution of the DLTR and to 
institutionalize the DOD's commitment to these critical competencies.

   CREATE FOUNDATIONAL EXPERTISE: BUILDING COMPETENCIES FOR THE 21ST 
                          CENTURY TOTAL FORCE

    A critical initiative of the DLTR involved determining what 
capabilities and resources were needed. The combatant commands, 
military Services, defense agencies, and defense field activities began 
identifying the language and regional expertise requirements necessary 
to support their operational and contingency planning and day-to-day 
requirements.
    The military Services and Joint Staff initiated reviews of all 
relevant doctrine, policies, and planning guidance to ensure that they 
incorporated language and regional expertise to include cultural 
awareness. These documents help us outline the approach for developing 
and, more importantly, employing these warfighting and peacekeeping 
competencies.
    There had been no accurate assessment of what languages and 
proficiency levels existed within the total force. The DOD is now 
conducting a self-assessment of in-house language capability and we 
have learned that we have a significant capability not apparent to our 
management systems. Even though our assessment is not yet complete, as 
of the beginning of the current fiscal year, the DOD had 141,887 
Active-Duty component; 77,319 Reserve component; and 38,246 civilian 
members of the Total Force who reported having foreign language skills. 
We now have policies in place so that individuals are routinely 
screened as part of the military accession and civilian hiring process.
    In order to encourage servicemembers to identify, improve, and 
sustain language capability, we implemented a revised Foreign Language 
Proficiency Pay (FLPP) policy, and, with the support of Congress, 
increased the proficiency bonus from $300 maximum per month, up to 
$1,000 maximum per month for uniformed members. We are currently 
finalizing the DOD Foreign Language Proficiency Bonus (FLPB) policy to 
align payment for Reserve and Active-Duty components by increasing 
Reserve proficiency pay ceiling from $6,000 to $12,000, consistent with 
section 639 of Public Law 108-163, the National Defense Authorization 
Act for Fiscal Year 2006. DOD policy for civilians assigned to non-
intelligence positions allows FLPP of up to 5 percent of an employee's 
salary when duties require proficiency in a foreign language identified 
as necessary to meet national security concerns and the employee is 
certified as proficient in that language. The use of FLPP for civilians 
is also available within the Intelligence community and the National 
Security Personnel System (NSPS). Intelligence career field personnel 
and civilian personnel covered by NSPS may receive up to $500 per pay 
period provided the language proficiency facilitates performance of 
intelligence duties or is deemed necessary for national security 
interest.
Building A ``Learning'' Organization To Strengthen The Foundation
    Of the many occupational skills taught to our personnel, language 
and regional expertise are among the more difficult to address in a 
systematic manner. Learning a foreign language is not easy and 
proficiency deteriorates, if not maintained. The strategic languages we 
seek, such as Arabic, are some of the most difficult and take a long 
time to develop.
    Regional expertise involves understanding complex issues in areas 
such as political, military/security, economic, sociological to include 
history and religion, scientific/technical, the geographic terrain, 
and, most importantly the cultural norms of a region. It takes time and 
continuous study to ensure current and relevant knowledge as countries 
and regions change over time. We must fully understand how to identify 
and catalog our regional expertise capability as we have with language. 
Regardless, of the challenge, we do know that every warfighter needs 
fundamental language skills and cultural awareness with a cadre of 
experts needing higher levels of proficiency, depending on the jobs and 
missions being performed.
    In addition, there are risks associated with selecting the 
languages and regions that should be taught or emphasized. Unlike other 
primary job skills, language and regional expertise do not necessarily 
transfer from one theater of operation to another. It is impossible to 
foresee with certainty where we will operate in deployment or 
contingency operations in the future and we must cultivate the 
capability of responding quickly to the unexpected, such as we did when 
Operation Enduring Freedom required a rapid development of curriculum 
in Dari and Pashto.
    To acquire and sustain these capabilities, the DOD must commit to 
building and sustaining a ``learning organization'' that offers 
mission-focused instruction to all personnel at the appropriate times, 
with the appropriate delivery method such as deploying training 
technology, to support our people in maintaining and enhancing these 
hard won skills. This learning begins even before potential recruits 
join the Total Force.
Pre-Accession Language Training
    Pre-accession language training focuses the DOD's effort on 
building language skills in future officers prior to commissioning. The 
three Service Academies enhanced their foreign language study programs 
to develop pre-accession language and cultural knowledge. They expanded 
study abroad, summer immersion and foreign academy exchange 
opportunities; and added instructor staff for strategic languages. The 
United States Military Academy and the United States Air Force Academy 
now require all cadets to complete two semesters of language study; and 
the United States Naval Academy requires its non-technical degree-
seeking midshipmen to take four semesters of language study. Language 
study programs have regional information such as socio and geo-
political considerations and key aspects of culture embedded in the 
course of study. The United States Military Academy and the United 
States Air Force Academy also established two new language majors of 
strategic interest, specifically in Arabic and Chinese. The United 
States Naval Academy, for the first time in history, will offer 
midshipmen the opportunity to major in a foreign language, including 
Arabic and Chinese beginning with the class of 2010. In fiscal year 
2007, $25.57 million was directed to the Service Academies to develop 
and implement their language programs, including curricular development 
and hiring of staff and faculty to teach more strategic languages. 
President's budget request for fiscal year 2008 is for $16.95 million.
    The Academies are aggressively pursuing increased opportunities for 
their cadets and midshipmen to study abroad to reinforce both their 
acquired language and culture knowledge, and currently have programs 
available in 40 countries. Four-week summer language immersion programs 
are offered as well as semester exchanges with foreign military 
academies. The National Defense Authorization Act for Fiscal Year 2007 
allows the Academies to expand these exchanges from 24 exchanges to 100 
exchanges per academy per year, and this congressional support is 
greatly appreciated.
    ROTC cadets and midshipmen also have expanded opportunities to 
learn a foreign language. The Air Force and Navy have ROTC students 
accompany their academy counterparts during familiarization and 
orientation travel opportunities. Of the 1,321 colleges and 
universities with ROTC programs, 1,148 offer languages as noted on this 
chart. Significantly, many of the languages we need for current 
operations are not widely offered at this time.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The DOD has just awarded four grants to colleges and universities 
with ROTC programs. This is a pilot program started this year to 
provide grants to select colleges and universities with established 
ROTC programs to expand opportunities for ROTC cadets and midshipmen to 
study languages and cultures critical to national security. Increasing 
the number of less commonly taught languages in college curricula 
remains a challenge in which we are actively engaged.
Primary Skills Language Training
    There are dramatic changes in how the DOD is training members who 
require language skills to perform their primary jobs. The DLIFLC's 
budget climbed from $77 million in fiscal year 2001 to $203 million in 
fiscal year 2007 to better respond to these changes. The Institute has 
an enrollment of 4000 students a year. Since the September 11, 2001, 
terrorist attacks, we have redirected training toward the strategic 
languages, such as Arabic, Chinese and Persian Farsi. One of the major 
programs implemented in fiscal year 2006 by DLIFLC is the Proficiency 
Enhancement Program (PEP). PEP is designed to graduate students at 
increased proficiency levels. Changes include reducing the student-to-
instructor ratio, increasing the number of classrooms, creating 
improved expanded curricula, and expanding overseas training. Cultural 
awareness has also been added to every language course.
    A critical component of our effort to improve the language 
capability is to validate and deliver tools for measuring language 
proficiency. We have taken steps to strengthen our Defense Language 
Testing System by updating test content and delivery. The Services and 
Defense Agencies are taking the same test, thus we are able to use the 
test scores to calculate a Language Readiness Index and determine the 
gaps. We can then target our recruiting, training, and other 
interventions to reduce these gaps. Delivering these tests over the Web 
is greatly increasing the availability and accessibility of these tests 
to Defense military and civilian language professionals worldwide, and 
the use of advanced technology to store and track proficiency test 
scores is providing us with the capability to use this information for 
national security planning. Currently we have delivered over 11,000 
web-delivered tests to date.
Supporting Deploying Forces
    The DOD recognizes that not all personnel will be able or required 
to demonstrate intermediate or advanced level language skills and 
regional expertise; as technology can help meet some of these demands. 
As directed in the DLTR, and in my role as the DOD Senior Language 
Authority, I am working with the Office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics to establish a 
coherent, prioritized, and coordinated DOD multi-language technology 
research, development, and acquisition policy and program. This 
technology, such as machine translation tools, will aid in bridging the 
gaps when the desired capability is not available. However, regardless 
of how advanced the technology, it cannot replace the need for 
servicemembers to personally acquire the language skills and cultural 
knowledge to effectively interact with the local people and leaders. 
Department policy, therefore, requires that military units deploying 
into, or in transit through foreign territories shall be equipped, to 
the greatest extent practicable, with an appropriate capability to 
communicate in the languages of the territories of deployment or 
transit and to operate with an appropriate knowledge of the cultural 
norms.
    The Services have taken great efforts to prepare members to achieve 
optimum outcomes by understanding the regions in which they deploy and 
being culturally aware. All the Services have incorporated regional and 
cultural information within Professional Military Education (PME) 
curricula. The Services established Centers of Excellence to oversee 
and standardize training and impart essential and mission-targeted 
cultural training to their members. The Army Training and Doctrine 
Command Culture Center, the Navy Center for Language Regional Expertise 
and Culture, the Air University Cultural Studies Center, and the Marine 
Corps Center for Advance Operational Culture and Language all focus on 
offering the training that best supports their deployment model and is 
compliant with Joint Professional Military Education guidelines. Since 
Service missions differ, this approach is logical and effective.
    We will host a DOD-wide Culture Summit this summer. This forum will 
serve as the foundation to develop operationally relevant cultural 
policies and synchronize efforts across all the Services.
    Getting the right information to deploying personnel in time to be 
useful, but not so early that it is forgotten before they arrive, is 
``just-in-time'' training. We have significantly improved our means of 
providing language and regional familiarization training to units 
during their deployment cycles. The DLIFLC's foreign language and 
cultural instruction extends beyond the classroom to servicemembers and 
civilians preparing for deployment by offering mobile training teams, 
video teletraining, language survival kits, and online instructional 
materials. Since 2001, the DLIFLC dispatched 300 mobile training teams 
to provide targeted training to more than 32,000 personnel. Deploying 
units received over 200,000 Language Survival Kits (mostly Iraqi, Dari, 
and Pashto). Field support modules outlining the geo-political 
situation, cultural facts, and fundamental language skills, key phrases 
and commands are available for 19 countries in 17 languages on the 
DLIFLC website. There are 31 on-line language survival courses. 
Computer-based sustainment training is available as well via the Global 
Language On-line Support System, which supports 12 languages and 6 more 
language sustainment courses are available on the DLIFLC LingNet Web 
site.
Heritage Recruiting
    Ensuring that we have a strong foundation in language and regional 
expertise involves reaching out to personnel who already possess these 
skills into our Total Force. All of our military Services have 
developed heritage-recruiting plans to bring personnel into the force 
with key language skills and regional expertise. These plans focus on 
reaching out to our heritage communities and their children who possess 
near-native language skills and knowledge of the culture.
    One particularly successful program is the Army's 09L Interpreter/
Translator Program. The Army launched this pilot program in 2003 to 
recruit and train individuals from heritage Arabic, Dari, and Pashto 
communities to serve in the Individual Ready Reserve and support 
operations in Iraq and Afghanistan. The program was so successful that 
in 2006, the Army formally established the 09L Translator Aide as a 
permanent military occupational specialty with a career path from 
recruit through sergeant major. More than 317 heritage speakers have 
successfully graduated and deployed; an additional 175 personnel are 
currently in the training pipeline. The Army continues to expand and 
develop the program in response to the positive feedback from the 
commanders and warfighters in the field. The QDR provides $50 million 
over a 5-year period, from fiscal year 2007 to fiscal year 2011, to 
further expand this program.
    Additionally, we have embedded recruitment of key language skilled 
individuals into our civilian recruiting efforts, thereby recruiting 
individuals with DOD critical sets to include languages to serve in 
mission critical occupations. We have developed a comprehensive 
outreach program with colleges, universities and professional and 
heritage associations; reenergized our branding and marketing 
materials; and revamped our ``Go Defense'' recruitment Web site to 
attract individuals to DOD as the ``Employer of Choice.'' Our recently 
updated website include vignettes of current DOD employees in mission 
critical occupations, including language, who discuss their work and 
the satisfaction they realize from it as well as the benefits of 
working for the DOD.
    Attracting and hiring individuals with high proficiency language 
skills from heritage communities and graduates of the DOD-sanctioned 
education programs presents security clearance challenges. We have 
partnered with the Office of the Director of National Intelligence 
(DNI) to develop and are implementing a number of important initiatives 
to help reduce these barriers. Within the DOD, we are also conducting a 
scrub of all civilian positions coded for language to validate 
clearance level requirements; establishing a pilot to expedite hiring; 
and, promulgating best practices from the hiring pilot.
    Security clearances are particularly challenging for our 09L 
members. Current security requirements mandate that only U.S. citizen 
can obtain a security clearance and many of our 09Ls are legal resident 
aliens. The Army issued a ``limited access authorization'' allowing 
non-citizens in the 09L program to take a polygraph. Upon passing the 
polygraph, the member can then handle classified material while in 
theater. This accommodation enables 09L to handle classified material 
while in theatre awaiting citizenship or granting of security 
clearance.
    Ensuring Surge Capability--Generating Competencies to Meet the 
        Unexpected
    As we evaluated our operations in Afghanistan and Iraq, it was 
obvious that we did not have sufficient language capability within the 
force to meet demands. The Army, as the executive agent is coordinating 
contract linguist support. As a result, highly proficient contract 
linguists have been made available to commanders in theater. This is 
one example of how we can generate a surge capability harvesting 
language resources from the talent pool within and outside our country. 
We are also developing appropriate processes to maintain contact with 
our military and civilian retirees and separatees. The goal is to build 
a personnel database with language and regional experience information 
that would allow us reachback capability for voluntary recall. While 
current surge capability is obviously focused on ongoing operations, we 
are also looking beyond for potential or emerging areas in which the 
total force might be called upon to operate.
    Building Professionals
    Post-September 11 military operations reinforce the reality that 
the DOD needs an improved capability in languages and dialects of 
strategic interest. A higher level of language skill and regional 
expertise, to include cultural awareness, across all the Services are 
necessary to build the internal relationships required for coalition/
multi-national operations, peacekeeping, and civil/military affairs. In 
2005, the DOD began building a cadre of language specialists possessing 
high-level language proficiency (an Interagency Language Roundtable 
(ILR) Proficiency Level 3 in reading, listening, and speaking ability 
or 3/3/3) and regional expertise. We are working with the DOD 
components to identify the tasks and missions that will require 3/3/3 
proficiency and determine the minimum number of personnel needed to 
provide this language capability. Managing the Professionals
    The Department has spent a great deal of effort in managing its 
cadre of uniformed regional experts--the Foreign Area Officers. DOD 
Directive 1315.17, ``Foreign Area Officer (FAO) Programs,'' updated in 
April 2005, established a common set of standards for FAOs. Most 
importantly, the new policies require the Services to establish FAO 
programs that ``deliberately develop a corps of FAOs who shall be 
commissioned officers with a broad range of military skills and 
experiences; have knowledge of political-military affairs; have 
familiarity with the political, cultural, sociological, economic, and 
geographical factors of the countries and regions in which they are 
stationed; and, have professional proficiency in one or more of the 
dominant languages in their regions of expertise.'' The purpose of this 
approach to the FAO Program is to build an FAO Corps capable of 
operating in a joint environment with similar training, developmental 
experiences, and expertise.
    All FAOs must be qualified in a principal military specialty. 
Studies undertaken by the DOD have confirmed that qualification in a 
principal military specialty must be an absolute prerequisite for FAOs 
to be successful, regardless of service. In fiscal year 2007, there are 
approximately 1,600 FAOs designated, qualified or are in training.
Sustaining and Supporting Special Forces
    The U.S. Special Operations Command has recognized the need and 
value of language and regional expertise. They require each member to 
possess not only strong military skills but also regional and language 
skills. Special Operations Forces' policies ensure that their personnel 
are regionally trained and that their expertise and contributions are 
increased through consistent assignment in their region. Special Forces 
requirements are for speakers at a level one on the Interagency Level 
Roundtable. Level one is described as a functional, but limited 
language proficiency level. Special Forces members can take the Defense 
Language Proficiency Test 5, but prefer the Oral Proficiency Interview, 
since the majority of their requirements focus on the speaking 
modality. We are working to increase the availability of Oral 
Proficiency Interviews to meet U.S. Special Operations Command needs.

                       OUR EFFORTS ARE NOT ENOUGH

    We recognized that in order to increase language capability in the 
Department and achieve higher levels of language proficiency among our 
language professionals, we had to assume a more proactive role in 
promoting and encouraging language education in the American 
population. We need to be able to identify and recruit individuals who 
have the language skills and regional expertise we need. In June 2004, 
we convened a National Language Conference to begin dialog and 
stimulate thinking to this end. The conference led to the development 
of a white paper published by the Department outlining a number of key 
recommendations.
    In January 2006, the President announced the NSLI. The NSLI was 
launched to dramatically increase the number of Americans learning 
critical need foreign languages such as Arabic, Chinese, Russian, 
Hindi, and Farsi. The Secretary of Defense joined the Secretaries of 
State and Education, and the DNI to develop a comprehensive national 
plan to expand opportunities for U.S. students to develop proficiencies 
in critical languages from early education through college. The White 
House provides ongoing coordination as partner agencies work to 
implement this plan.
    The focal point for the Department's role in the NSLI is the NSEP. 
NSEP represents one of the national security community's most important 
investments in creating a pipeline of linguistically and culturally 
competent professionals into our workforce. NSEP provides scholarships 
and fellowships to enable U.S. students to study critical languages and 
cultures in return for Federal national security service. NSEP has 
partners with universities, providing grants for the development and 
implementation of National Flagship Language programs, specifically 
designed to graduate students at an ILR level three (3/3/3) language 
proficiency (in reading, listening and speaking modalities) in today's 
critical languages. These programs provide a major source of vitally 
needed language expertise in the national security community. As part 
of the DOD contribution to the NSLI, the NSEP has expanded the National 
Language Flagship Program to establish new Flagship programs in Arabic, 
Hindi, and Urdu and to expand the Russian Flagship to a Eurasian 
program focusing on critical Central Asian languages.
    The Flagship effort serves as an example of how NSLI links Federal 
programs and resources across agencies to enhance the scope of the 
Federal Government's efforts in foreign language education. For 
example, the Flagship program is leading the way in developing model 
pipelines of K-12 students with higher levels of language proficiency 
into our universities. I am very proud to tell this committee that we 
launched the Nation's first fully articulated K-16 program -- a Chinese 
pipeline with the University of Oregon/Portland Public Schools. While 
focusing on early language learning, this effort has already succeeded 
in enrolling ten students, as freshmen, from the Portland high schools 
in an experimental advanced 4-year Chinese program at the University of 
Oregon. We have also awarded a grant to the Chinese Flagship Program at 
Ohio State University to implement a statewide system of Chinese K-16 
programs. Finally, we awarded a grant to Michigan State University to 
develop an Arabic K-16 pipeline project with the Dearborn, Michigan 
school district, announced in conjunction with a Department of 
Education Foreign Language Assistance Program grant. We hope Congress 
will approve the Department of Education's request for the NSLI, which 
will significantly expand on the K-12 model that NSEP has established.
    Our second commitment to the President's NSLI is the launching of 
the Civilian Linguist Reserve Corps pilot program, now renamed The 
Language Corps. Authorized by Congress, this effort will identify 
Americans with skills in critical languages and develop the capacity to 
mobilize them during times of national need or emergency. The Language 
Corps represents the first organized national attempt to capitalize on 
our rich national diversity in language and culture. We just awarded a 
contract to assist us as we begin a 3-year pilot to meet our goal of 
1,000 Language Corps members.
    In spring 2006, the Under Secretary of Defense for Personnel and 
Readiness invited the Federal Chief Human Capital Officers to join the 
DOD in building the Language Corps. We will continue to engage the 
Federal community as we proceed with the 3-year pilot.
     The Department's contributions to the NSLI reflect the significant 
amount of coordination among DOD staff, our NSLI partners, other 
Federal agencies, and State government and local education systems. The 
NSLI was built so that programs proposed by the Departments of State, 
Education, Defense, and National Intelligence, when funded and 
executed, would improve the national language capacity.
    Finally, the Department is coordinating a series of regional 
summits to engage state and local governments, educational 
institutions, school boards, parents, and businesses at the local level 
in addressing foreign language needs. The NSEP reached out to the 
expertise of its three Flagship Universities--in Ohio, Oregon, and 
Texas to convene these summits and to develop action plans that reflect 
an organized and reasonable approach to building the infrastructure for 
language education at the State and local level. These summits will 
take place later this spring and action plans will be produced by the 
fall 2007.

                               CONCLUSION

    Thank you for the opportunity to share our current and future 
language and regional expertise transformation efforts. I hope to leave 
you with the understanding that building foreign language capability 
and regional expertise within the DOD is serious business. We have 
taken actions to ensure that our efforts are institutionalized in our 
recruitment efforts, compensation rules, plans, policies, training, and 
doctrine. We have made great progress and the Defense leadership 
commitment to the development of this important competency has been 
unwavering. However, we have not yet reached the finish line. Your 
continuing support of our efforts through legislation and 
appropriations is appreciated. The journey has just begun, but we must 
do it right as our Nation, and our national security depends on 
successful strategy and sustained execution.

    Senator Reed. Thank you very much, Secretary McGinn, for 
your testimony.
    Dr. Van Tilborg?

   STATEMENT OF HON. ANDRE VAN TILBORG, Ph.D., DEPUTY UNDER 
  SECRETARY FOR SCIENCE AND TECHNOLOGY, DEPARTMENT OF DEFENSE

    Dr. Van Tilborg. Mr. Chairman, thank you for this 
opportunity to appear before you to discuss the DOD's S&T 
investments in the areas of language translation devices and 
cultural awareness training. I will use this opportunity to 
summarize a few of the DOD's current capabilities in language 
translation research, some of which I know you have had an 
opportunity to see here in the exhibits this afternoon. I will 
also briefly describe some of the planned future work on human, 
social, cultural, and behavioral understanding that supports 
our warfighters' need for interaction with unfamiliar cultures.
    Mr. Chairman, I would like to begin, though, by 
acknowledging the strength and resolve of one of this Nation's 
great educational institutions, Virginia Polytechnic Institute 
and State University. As we speak about S&T here today, I ask 
that we all reflect on the students and faculty at one of 
America's foremost institutions of S&T who perished in a 
senseless rampage only a week ago, and I ask that we recognize 
the thousands of Hokies who through their commitment to 
learning and knowledge will surely honor the sacrifice of their 
friends and colleagues by reaching for a deeper understanding 
of nature, the arts, and the world in which we live.
    Mr. Chairman, there are four main take-aways from my 
testimony, as follows: Number one, the DOD's S&T enterprise 
recognizes that the abilities to understand and even converse 
in the languages of indigenous populations and to appreciate 
local cultures and social mores are important in military and 
stability operations.
    Number two, the DOD's S&T program has been at the forefront 
of research in language technology for many decades, enabled by 
providing a stable base for long-term research.
    Number three, promising language translation and cultural 
understanding technologies have emerged from these DOD-
sponsored efforts.
    Number four, cultural awareness S&T is still in its 
infancy, but the DOD has conducted a concerted effort to 
develop a coordinated research and investment strategy that 
ranges from basic research to prototyping.
    Language is a deceptively simple, yet a maddeningly 
intricate subject. It is known surprisingly well by toddlers, 
who sometimes can learn even more than one language. Yet, 
paradoxically, generations of brilliant researchers with the 
world's most powerful supercomputers have struggled to produce 
even rough automated translations in everyday environments. The 
value of knowing languages and being able to translate among 
them is self-evident in this globalized economy for the 
business person, the tourist, and the diplomat. As has been 
mentioned, for the U.S. military one of the great challenges is 
to operate unpredictably in regions of the world where we 
cannot converse with the local population nor read local 
written materials, such as newspapers, road signs, and 
handbills, nor understand radio, television, and Internet 
communications.
    Not surprisingly, our commanders in the field have called 
for help in dealing with the diverse and unfamiliar language 
and cultural terrain in their areas of responsibility. Not only 
counterinsurgency environments, but also humanitarian crisis 
relief operations have forced the military to confront a 
situation in which all personnel need some ability to operate 
effectively in settings where they must have skills to work in 
novel language and cultural dimensions.
    Not only is it desirable to communicate in their language 
with the indigenous population, but also with non-English-
speaking allied forces in our coalition operations.
    There are approximately 7,000 spoken languages in the 
world. Sixty percent of the world's population speaks one of 
the top 30 languages as their native tongue. I can personally 
vouch for having a modest grasp of three of those top 30 
languages, including English. About 200 languages claim at 
least one million native speakers each. The ability to converse 
and translate seamlessly between English and at least a 
substantial fraction of these languages could potentially add 
greatly to the capabilities of a combatant commander.
    The microelectronics and software revolutions have brought 
us to the brink of compact machines that can plausibly 
translate among natural languages. You have seen some of the 
impressive results this morning in the exhibition here today.
    I would also like to impress upon you how difficult the 
problem of automated language translation is, as the S&T guy 
here today. Let me read you a portion of a statement from 
International Business Machines (IBM), and this will surprise 
them here, regarding their efforts in language translation 
technology, which illustrates how difficult the problem is. On 
January 8, IBM issued a press release describing the successful 
results of an experiment in automatic translation of Russian to 
English. In that press release, a researcher is quoted as 
saying: ``Those in charge of this experiment now consider it to 
be definitely established that meaning conversion through 
electronic language translation is feasible and that perhaps 3 
years hence interlingual meaning conversion by electronic 
processes of several languages may be an accomplished fact''--
that is, language translation.
    I would say that a problem that requires 3 years for the 
legendary technical minds at IBM to solve is certainly a 
difficult one. However, when I mentioned that this press 
release was issued on January 8th, I neglected to tell you that 
that was January 8, 1954, and the electronic computer involved 
was the first IBM Model 701, IBM's first commercially available 
computer with an electronic memory. Fifty three years later, 
the natural language research community, including IBM, 
continues to make steady progress.
    Fundamentally, automated language translation is extremely 
difficult because it cannot be achieved solely by mapping back 
and forth between words and dictionaries. Many decades of 
research sponsored by DOD's various research agencies and, I 
might say, the National Science Foundation have reinforced the 
critical idea that successful language translation depends on 
the concept of meaning. That is, it is not good enough to know 
that certain words and phrases have counterparts in other 
languages into which they should be translated. The translator, 
whether he be human or machine, must understand the meaning in 
the material to be translated.
    Many different techniques have been discovered for 
extracting meaning from language, representing that meaning in 
a form that can be digitally stored and manipulated, and 
generating translated text and speech from those intermediate 
representations. You have seen a variety of examples here 
today.
    A simple example illustrates the point about meaning. If I 
say the two-word sentence ``Time flies'' in English and ask 
that it be translated into another language, you probably must 
ask me, what do I mean? Do I mean that time moves swiftly 
forward, or do I mean that time has wings, or do you want me to 
use a stopwatch to measure flying insect maneuvers or for 
determining the hang time of a baseball hit by a batter? All 
those meanings are plausible when I say ``Time flies.'' The 
translation depends on an understanding of meaning, which is 
still very hard for computers and software to do.
    Nevertheless, the DOD's research investments have yielded 
some impressive results, some of which have entered utility 
assessments and operational military assessments. I would like 
to mention just a few of the ones that are on exhibit here 
today. As you have seen, the largest speech-to-speech 
translation research program in DOD is DARPA's Spoken Language 
Communication and Translation System for Tactical Use 
(TRANSTAC). TRANSTAC has developed PC-based translation systems 
that allow speech-to-speech translation between English and 
variants of Arabic.
    The program has contributed to the development and fielding 
of a number of products such as you have seen here today, the 
Phraselator and IBM's MASTOR system. The Phraselator is a 
relatively simple device that enables one-way translation of 
speech inputs into translated phrases that have been pre-
recorded and stored in the device. For example, when the user 
speaks an English phrase the Phraselator searches its memory 
for the closest matching pre-recorded phrase in the target 
language and speaks that phrase. Translation success is 
improved by grouping related phrases into pluggable modules 
oriented toward specific functional domains, such as for 
example first aid or hospital operations or security 
checkpoints.
    There are currently over 2,000 of these devices in the 
field in Iraq. A similar device is called the Voice Response 
Translator, which is also on display here today.
    Another promising system, developed jointly by DARPA and 
IBM, is the Multi-Lingual Automatic Speech-to-Speech 
Translator, called MASTOR. MASTOR combines cutting edge 
technologies in automatic speech recognition, understanding, 
and synthesis. In contrast to Phraselator, it is intended for 
use with bidirectional, unconstrained, free form natural speech 
in multiple domains.
    MASTOR incorporates many extremely sophisticated algorithms 
and processing techniques, yet is capable of operating on 
laptop computers. Several dozen of these units are in 
experimental use in Iraq.
    Other impressive DOD-sponsored systems that tackle various 
aspects of language understanding and translation have been 
developed by companies, such as SRI International, BDM 
Technologies, Speech Gear Incorporated, Integrated Wave 
Technologies, and CACI, among others. Varying quantities of 
experimental devices have been fielded to units, such as the 
18th Airborne Corps, 1 Marine Expeditionary Force (MEF), 1 MEF, 
the Army's III Corps, and the 25th I.D., for example.
    The DOD's largest investment in text-to-text translation, 
as opposed to speech, is DARPA's Global Autonomous Language 
Exploitation (GALE) program. The program's goal is to translate 
and distill foreign language material, such as television shows 
and web sites and streaming video, in near-real time and 
highlight salient information to produce targeted query 
responses. The program is intended to deliver a capability to 
translate both structured and unstructured text and speech. 
Several system are currently fielded in Iraq.
    Mr. Chairman, to summarize this aspect of my testimony, the 
DOD's S&T investment in language translation automation, I 
would tell you that much progress has been achieved through 
steady research investments, but that the goal of robust 
translation capability, able to handle spontaneous, 
unstructured, unconstrained input in a noisy background, 
comparable to what a human being would be able to do, has not 
yet been reached.
    Shifting gears quickly now to the area of cultural 
awareness training, the need for improved cultural awareness 
training is broadly recognized in DOD and in an emerging sense 
in our DOD S&T program. The Joint Force needs some of the same 
cultural awareness competencies that our Special Operations 
Forces have traditionally maintained. Military operations in 
complex multicultural environments require an awareness and 
knowledge that can be applied to improved operator interactions 
and shape the outcome of the interactions. The ultimate goal is 
to achieve an acceptable baseline for cultural competency 
across our forces.
    From a technology perspective, the first generation 
capabilities in this area are being derived from the best 
academic and professional subject matter experts, providing 
schoolhouse content. The next generation will likely be 
computer-mediated training and mission rehearsal in relevant 
venues. The third generation will be embedded within a more 
immersive dynamic environment.
    There are several S&T efforts currently being pursued in 
the DOD's S&T program related to this area. There is a program 
called Synthetic Environment for Analysis and Simulation that 
is available for viewing I believe here in the exhibit hall, in 
the hearing room.
    Senator Reed. Doctor, are you near the conclusion?
    Dr. Van Tilborg. Yes, I am very close.
    Senator Reed. Thank you.
    Dr. Van Tilborg. Another system is DARPA's Tactical 
Language and Cultural Training System, which was designed to 
provide our warfighters with basic cultural proficiency with 
only limited computer laptop training. This system is currently 
available in Iraqi, Arabic, and Pashtun, and provides basic 
language and cultural awareness skills.
    However, I would tell you, though, Mr. Chairman, that the 
S&T in this area of cultural awareness is at an earlier stage 
of maturity than is language technology, and in recognition of 
that fact the DOD conducted, working with the military 
components, conducted an extensive survey of the research areas 
related to human, social, cultural, and behavioral 
understanding in 2006 and identified 75 areas of research, in 
which approximately a very large fraction are currently not 
being invested in.
    To address these gaps, the DOD has formulated a human, 
social, cultural, and behavioral modeling initiative that we 
call HSCB, in which we plan to invest approximately $210 
million over the Future Years Defense Program starting in 
fiscal year 2008 to develop the required scientific base to 
field mature technologies.
    Mr. Chairman, in conclusion, I would like to reiterate the 
main points: one, the DOD S&T enterprise recognizes that the 
ability to understand and converse in languages of indigenous 
populations is important in military and stability operations. 
The DOD's S&T program has been at the forefront of research in 
that language technology, which is a very difficult problem.
    Promising language translation technologies have begun to 
emerge from these efforts and, although cultural awareness S&T 
is still in its infancy, the DOD has stood up a plan for 
investments in S&T in this arena.
    That concludes my statement. Thank you.
    [The prepared statement of Dr. Van Tilborg follows:]

              Prepared Statement by Dr. Andre Van Tilborg

                              INTRODUCTION

    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to appear before you to discuss the Department of 
Defense's (DOD) science and technology (S&T) investments in the areas 
of language translation devices and cultural awareness training. I will 
use this opportunity to describe the DOD's current capabilities in 
translation devices and cultural awareness training, the challenges in 
these areas, and some of the planned future work that supports our 
warfighters' needs for interaction with non-western cultures. I am also 
pleased to have the chance to highlight in this hearing some of the new 
and expanded initiatives we are hoping to undertake in these areas to 
address the 2006 Quadrennial Defense Review (QDR).
    I have organized this testimony into two sections, one dealing with 
language technology devices and the other with cultural awareness 
training. There is obviously some linkage between these two areas, but 
many of the research challenges in translation devices or socio-
cultural awareness training are unique to each. For these areas, there 
is a clear need for increased skills and capabilities for all of the 
Combatant Commands (COCOM), and there are specific needs statements 
from at least two COCOMs, Central Command (CENTCOM), and Special 
Operations Command (SOCOM). The language and cultural terrain of each 
COCOM's Areas of Responsibility (AOR) define the technical challenges. 
However, we do recognize that the solutions are not solely technical in 
nature, and the Department must also address Manpower, Personnel, and 
Training as part of the solution sets.
    I will address language translation devices research and 
engineering first. The global war on terror, and, more generically, 
Irregular Warfare (IW)/counterinsurgency environments have forced the 
military to confront a situation in which all personnel need some 
abilities to operate effectively in settings where they must have 
skills to work in novel language and cultural dimensions. The 
requirement for a deeper understanding of the human environment in an 
AOR is now relevant, not just for Special Operations Units, but for all 
soldiers and marines who are deploying. At the strategic level, the 
global war on terror has created the need not only to have the ability 
to communicate with indigenous peoples from diverse cultures, but also 
to be able to understand their written and media communications. The 
sheer volume of written text and other media (i.e., television 
broadcasts, internet postings) makes using individual human translators 
untenable. Given the realities on the ground in the CENTCOM AOR and the 
scale of the global war on terror, it is evident that for our current 
and future forces we need to discover, develop and field technologies 
to augment our existing translation capabilities at the strategic, 
operational and tactical level, for multiple languages and dialects, 
and for users that span a broad language skill level (novice to 
linguist). Some of the capability needs and technical challenges and 
the efforts to meet these challenges and field viable products to our 
forces are described below. The work listed below does have application 
to the general purpose force, to planners and operators, and to the 
Intelligence Community (IC). However, the IC has their own specific, 
unique use scenarios that require linguistic capabilities to support 
intelligence analysis. In this testimony I will intentionally focus on 
DOD specific investments. However, please recognize that we are 
cognizant of the development being done in the IC, have numerous links 
to the IC linguists, and our investments complement their work.

                      LANGUAGE TRANSLATION DEVICES

    From a technical perspective, there are some common underlying 
capabilities that serve both text and speech translation. However, each 
has unique features that make fielding operational devices difficult. 
The commercial sector has developed translation capabilities and 
technologies that meet some of the needs of the operational forces, and 
the pedigree of this technology (i.e., IBM's MASTOR) includes a history 
of DOD funding. However, many of these available products are not 
robust enough to meet the scale, breadth, and tempo required for the 
mission areas/needs of deployed forces. The threshold for effective use 
of speech to speech translation in the business world is lower than in 
the military, there is a need for `street' level communication that 
accounts for unstructured/colloquial speech, varied sub-dialects, noisy 
environments, the need for hand's free communication, and the need for 
increased accuracy in real-time, tactical translation. Text and media 
translation has additional challenges that include bandwidth 
limitations in operational environments, and degraded signals such as 
smudged and handwritten text translation. Lastly, the military needs 
access to a large volume of spoken and/or written language to create 
the databases, scalable models, and training materials for some of the 
more obscure languages and dialects that occur across the globe. There 
are approximately 7,000 distinct languages/dialects in the world. Many 
of the places we may operate have hundreds of subcultures and 
languages. The commercial technology investments are not focused on 
providing translation in these types of niche markets. DOD investments 
in this area are concentrated on improving existing technology to reach 
the translation accuracy necessary for our forces, and on expanding the 
reach of these tools to the socially and linguistically diverse regions 
in which the DOD operates. What follows is a description of the most 
significant technology developments in the area of language. It should 
be evident from the descriptions below that the ongoing and planned 
programs within the services and other organizations, such as the 
Defense Advanced Research Projects Agency (DARPA), are truly 
complementary.
Speech-to-Speech Translation
    The major speech-to-speech translation systems have taken advantage 
of previous commercial successes in translation. The largest program 
today is DARPA's Spoken Language Communication and Translation System 
for Tactical Use (TRANSTAC). TRANSTAC has developed PC-based 
translation systems that allow speech-to-speech translation between 
English and Baghdadi Arabic. Its current accuracy, in controlled noise 
environments, is between 70-80 percent. The TRANSTAC system is being 
field tested in Iraq for specified use domains (i.e., medical care, 
vehicle checkpoint, and joint Iraqi coalition force missions). The 
program has had early successes and has contributed to the development 
and fielding of a number of products such as the Phraselator system and 
IBM's Mastor system. The Mastor system recently made headlines when IBM 
offered to donate over 10,000 software licenses and 1,000 devices to 
the DOD. The TRANSTAC program is attempting to develop and field hands-
free two-way speech to speech translation systems that can provide 
accurate translation in urban military environments. A secondary goal 
is to expand the domains and accuracy of the existing system. Other 
programs, such as the Instant Language Translation project under the 
Office of Naval Research, are expanding the capability of portable 
translation systems by including multi-mode inputs (spoken, written, 
images) and additional languages and dialects from other regions of the 
world such as Korea and Somalia.
Text-to-Text and Media-to-Text
    The largest DOD S&T investment in text-to-text translation is 
DARPA's Global Autonomous Language Exploitation (GALE) program. The 
program's goal is to translate and distill foreign language material 
(e.g. television shows and websites) in near real-time, highlight 
salient information, and produce targeted query responses. The program 
will deliver the capability to translate both structured and 
unstructured text and speech, with a goal of delivering an accuracy of 
95 percent for text and 90 percent for speech. Other investments 
include improvements in tactical document translation system accuracy 
and capabilities. It should be noted that the media-speech to text is 
working in a domain where the speech is controlled with rather 
predictable vocabulary. The GALE program has already accomplished much 
in the way of improved accuracy in translating text (55 to 75 percent 
accuracy) and media (35 to 65 percent accuracy), but they are 
continuing to improve the technology to a maturity level to deliver the 
capability to translate both text and speech at 90-95 percent accuracy.
Language Databases
    The current method to support developing new language modules for 
existing translation devices is costly and time consuming, requiring 
the collection, transcription and translation of large amounts of 
training data (written and spoken language). The Air Force Research 
Laboratory has an ongoing project that will provide a rapid turnaround 
on developing linguistic data sources for new languages and domains of 
interest. The goal is to use innovative techniques to take languages 
and dialects in which we have limited data, with less than 10 hours of 
speech data or 20,000 words or less of text, and produce useful spoken 
or written translations.
Fielded Technology
    Three of the technologies described above are in use by military 
units. The Phraselator, handheld one way speech to speech device, 
provides tactical level communication for soldiers within specific 
domains, such as checkpoint and medical operations. The device was 
originally developed as part of a DARPA Small Business Innovation 
Research (SBIR) effort. There are currently over 2,000 Phraselators in 
the field in Iraq. The DOCEX system provides the capability to process 
and exploit captured documents for actionable intelligence within 
tactical time scales. The DOCEX was developed as part of a Director of 
Defense Research and Engineering (DDR&E) Advanced Concept Technology 
Demonstration project, transitioned to the National Ground Intelligence 
Center and fielded. There are systems currently deployed in Iraq. 
Finally, the GALE program transitioned structured text/media 
translation technologies to 12 U.S. Government organizations, and 2 
systems are currently fielded in Iraq.

                      CULTURAL AWARENESS TRAINING

    The need for improved cultural awareness training was identified in 
the early phases of Operation Iraqi Freedom. It was realized that the 
general Joint Force needed some of the same cultural awareness 
competency that our Special Operations Forces have traditionally 
maintained. Military operations in complex, multicultural environments 
require more than just being culturally sensitive to the do's and 
don'ts of a society. Such operations also require an awareness and 
knowledge that can be applied to improve operator interactions and 
shape the outcome of the interactions. Each of the Services have 
established cultural awareness training centers that are developing 
content, sharing this content, and have begun training their personnel 
on the specific knowledge necessary to support their military missions. 
Fortunately, these centers have access to the extensive on the ground 
experiences of the soldiers and marines returning from Iraq, combined 
with the relatively well-known academic knowledge of Iraq's religious 
and sectarian history. Providing the same level of `understanding' and 
training for data-poor, less studied socio-cultural environments, such 
as the mountainous tribal regions of Afghanistan or the multicultural 
regions of Indonesia is much more difficult.
    The ultimate goal is to achieve an acceptable baseline for cultural 
competency across our forces. As mentioned above, the first generation 
capabilities in this area are being derived from the best academic and 
professional subject matter experts providing schoolhouse content. The 
next generation will likely be computer-mediated training and mission 
rehearsal in relevant venues. The third generation will be embedded 
within more immersive, dynamic environments. Methodologies to collect, 
package, and understand knowledge of cultural landscapes will be needed 
to support the generation of content that will fill these curricula and 
training systems. What follows is a description of the current 
technology developments in the area of culture awareness training for 
second and third generation capabilities and planned future investment 
in the area of socio-cultural understanding.
Ongoing Efforts
    The Combating Terrorism Technology Support Office's Technical 
Support Working Group is developing training support packages that 
focus on the operational and tactical applications of cultural 
awareness, with a specific focus on Indonesia. The training material is 
being developed in coordination with SOCOM and the U.S. Army Training 
and Doctrine Command.
    A number of SBIR and Small Business Technology Transfer Projects 
have begun in the area of cultural awareness. They include projects to 
train at the tactical and strategic level and all are focused on 
developing computer-based awareness training. Again, at the tactical 
level, an SBIR project will develop a system that will train how to 
read Middle Eastern non-verbal cues and develop an understanding of 
what those cues say about a person's intentions. Another will create 
more accurate and realistic non-U.S. entities that can be used in 
convoy commander and ground troop training simulations. At the 
strategic level, there are two new projects. One will support the 
training of planners and senior leaders in developing and assessing 
metrics for effects based operations in complex conflict environments. 
The second project will develop a computer-based tool to support leader 
training on interagency goals and progress in non-western conflict 
environments. All of these have been initiated under the new Human 
Social, Culture, and Behavior (HSCB) Modeling Initiative led by DDR&E.
    The HSCB initiative has sprung from the lesson learned in the 
ongoing global war on terror. That lesson learned is that the DOD has 
capability gaps in software tools and decision aids that will allow 
U.S. commanders to better understand different cultures. The QDR 
highlighted these lessons in stating that current and future military 
operations will require enhanced capability to understand social and 
cultural ``terrains'' as well as various dimensions of human behavior. 
The HSCB initiative will develop the required scientific base and will 
field matured technologies that support human terrain understanding and 
forecasting across a span of missions and geographic regions. The DDR&E 
staff worked with the military components and intelligence community in 
2006 to identify capability needs in 75 areas; there were gaps in 
roughly 70 of these areas. The HSCB initiative will address these gaps 
and integrate complex human factors into the pre-planning, planning and 
execution cycle of military operations. HSCB modeling is focused on 
filling capability gaps within data collection/infrastructure and 
knowledge management, and then developing the models to forecast 
societal and cultural behaviors. In addition to delivering software 
modules that are fully integrated into DOD command and control systems, 
the HSCB effort will help to create the infrastructure (simulations and 
content (data, models and theories)) to support tactical through 
strategic training, mission rehearsal, and experimentation using valid 
cultural entities and models.
    Fielded Technology
    DARPA's Tactical Language and Culture Training system was designed 
to provide our warfighters with some basic spoken language and cultural 
proficiency with only limited (2 weeks) laptop computer training. The 
system is currently available in Iraqi Arabic and Pashto and provides 
basic language and cultural awareness skills training for troops. There 
are currently 800 copies of the software installed in bases here in the 
U.S. as well as in theater. Over 6,000 troops have used the system for 
initial skills training.
    In conclusion, the need for a robust DOD S&T program in language 
and cultural awareness and associated capabilities is a central element 
to fighting the global war on terror. The ongoing and future efforts of 
Defense S&T will support the training and equipping of today's force, 
tomorrow's force, and the future's force. We believe these efforts are 
meeting this challenge, and we truly appreciate the continued support 
of this committee in providing us the tools and resources to carry out 
this vital mission.

    Senator Reed. Thank you very much, Doctor. Thank you also, 
very much, for recognizing Virginia Tech. We all share your 
very important sentiment about their sacrifice, but also their 
extraordinary contribution to education and technology. So, 
thank you. That was very thoughtful.
    Let me follow up with some questions to you initially, Dr. 
Van Tilborg. You mentioned several devices that are being used 
today in Iraq and Afghanistan. With respect both to translation 
devices and cultural awareness devices, what are the 
limitations that you see?
    Dr. Van Tilborg. I think some of the primary limitations 
are in their, what I will call, robustness, meaning their 
ability to be useful in contexts for which they were not 
explicitly developed. That is, if sentences or words or 
concepts are presented to these devices that the designers and 
developers did not program, if you will, into these devices, 
then these devices can fail miserably. So that is a very 
difficult problem and needs to be dealt with.
    Senator Reed. How do you engage in feedback? Is there an 
ongoing process where you or your colleagues are interviewing 
people coming out of the field, lining up reports? Is there 
some formal mechanism or a combination. . .
    Dr. Van Tilborg. Yes, Mr. Chairman, there is quite a bit of 
feedback. There are these experimental versions of many of 
these products that are in theater that are being used by 
various units, and individuals from those units do communicate 
back with research managers here at our agencies.
    In fact, I saw today just here in the hearing room today a 
young Army soldier who has used these units in theater and is 
actually here with us today, speaking to people about his 
experience with them. So there is quite a bit of interaction 
and feedback.
    Senator Reed. Are there formal mechanisms and informal 
mechanisms? People send an e-mail message to you and there is a 
requirement to evaluate these, and you look at them?
    Dr. Van Tilborg. Yes. I would say I am not well enough 
informed to know how formal the process is, but I know there is 
extensive informal communication.
    Senator Reed. How do you use that information to shape your 
research plans and your budgets going forward?
    Dr. Van Tilborg. I think that the experience of the users 
is critically important. So for example, issues related to form 
factor, the user interface of a device, how it displays its 
information--you can theorize as much as you would like, but 
the most important input is to hear from an actual user who has 
been out on point, as they say, from that individual, what 
works and what does not work.
    Through our research agencies, such as DARPA and the Office 
of Naval Research and various other agencies that do this work, 
they can adjust or tailor their continued work in this area.
    Senator Reed. Thank you.
    Let me just move right along and talk to Secretary McGinn 
about a couple of things. First, you mentioned the language 
corps and that is an intriguing idea. I wonder how much 
structure there is at this juncture in the language corps. Is 
the concept where folks are putting the names down that we can 
call and they might come? Or is this something where you 
anticipate some day being able to take people, skilled 
linguists, call them up, to use the term of art, and put them 
someplace that they might not necessarily want to go?
    Mrs. McGinn. We are looking at both of those options. One 
is to have a corps of people that we can actively nurture and 
attach to an organization that can be used and can be called 
for. The other is to, indeed, create a roster of people that we 
might call and find out if they were interested, if the need 
for them arose.
    I must say that on this score we are really at the very 
beginning. It is a pilot and we just awarded the contract. We 
are very hopeful. We did do some marketing and found that--in 
fact, we changed the name from the ``Civilian Linguist Reserve 
Corps'' to ``the Language Corps'' because of our marketing 
studies. We found a great deal of interest actually among the 
heritage communities for helping us out with their language 
skills.
    Senator Reed. One of the things that I mentioned in my 
opening remarks, Madam Secretary: Everyone is working very 
hard, making a lot of effort, but it has been 5-plus years and 
we recognized the need upfront, but we are still in some cases 
in the initial stages. We have such a wealth of Americans with 
language skills from the native speaker communities. We have 
academics that teach these languages that are experts. We have 
not been able to mobilize them. It is a source, I think, of 
frustration probably to you also.
    But as you go forward, I think we probably have to be more 
aggressive in this regard. I presume that at some point you 
might consider legislation, particularly if this is going to be 
something more than a voluntary corps list. Is that correct?
    Mrs. McGinn. We do not know yet because we are in the pilot 
stages. I would like to address your concern about how things 
are 5 years later, because we really did not wait after 
September 11.
    Senator Reed. No.
    Mrs. McGinn. There were a series of steps--budgetary 
increases, curriculum changes at DLI, and a bunch of things 
that we did prior to the publication of the roadmap. So we were 
actively moving out in many of these areas. One of them was the 
establishment of our own language corps, Heritage Americans 
recruited for their skill in Kurdish, Dari, and Pashtun, that 
we have now. The pilot program was very successful. There are 
now about 500 who are deployed or in training, getting rave 
reviews from commanders in the field as to their capabilities. 
So there is a very, very rich community to reach out to, and we 
very much appreciate their patriotism, because that is what we 
need.
    Senator Reed. Fine. Let us talk for a moment about DLI. The 
budget in fiscal year 2001 was $77 million and in 2007 it will 
go up to $230 million. So there has been a huge investment, I 
think, appropriately so. If you can just talk about the role of 
DLI, particularly, since there are many other universities and 
organizations that do essentially the same thing. There is 
always the question, do you have a government entity that you 
invest in and develop or do you go out and partner? Can you 
talk about your concept of the DLI mission?
    Mrs. McGinn. The unique thing about the DLI mission is 
that--and I do not think you find this anywhere--they take high 
school graduates basically and put them through intensive 
language training in some of the very difficult languages, and 
also with an eye toward the wider community, toward the skills 
that they need to carry forward in their career.
    But DLI has evolved into this really critical mass of 
language expertise for us, that has created pre-deployment 
training, has created curriculums for difficult languages that 
we can pull off and teach at a moment's notice, and has created 
DVDs and portable things that servicemembers can take with 
them, language survival kits. So they have really become a 
critical mass of language expertise for the DOD. They have 
evolved into that. It is really quite an impressive operation 
and they have asked me to invite you to come and visit.
    Senator Reed. Oh, very good. They are in Monterey, 
California?
    Mrs. McGinn. Yes.
    Senator Reed. That will not influence my decision, but 
point acknowledged.
    I understand that the intelligence analysts that go with 
DLI, they are tested in their writing and their reading, since 
verbal proficiency is not necessary, and DLI does the testing 
and they set the standards. The question that arises is, what 
is the reality check or quality check on that process? Are you 
aware?
    Mrs. McGinn. Yes. We actually have, they actually get 
tested in listening and reading.
    Senator Reed. Yes.
    Mrs. McGinn. We do have a Defense Language Testing Advisory 
Board comprised of testing experts from around the country that 
looks at tests, it looks at our testing process, and gets back 
to us.
    Senator Reed. Thank you.
    Let me just turn to General Scales for a couple of 
questions. First, I would be interested, General, since you 
have been a practitioner and you have used graduates of DLI, 
what is your impression right now of DLI, its role, your 
general impression?
    General Scales. Generally, their knowledge is very basic. I 
have had a lot of experience with DLI graduates in Korea when I 
was assistant division commander and you can rely on them to do 
a lot of the decryption and interpretation. I have found there 
are great linear translators, in other words, but, to use 
Andre's point about the meaning and the subtleties of the 
language, they did not have it. So generally we had to rely on 
native-born Korean speakers to be able to provide us those 
subtleties that you need when you are trying to determine 
second and third order meaning.
    So I guess the way to put it is DLI is basic training, and 
you do not take an infantryman out of 6 weeks of basic training 
and make him to company commander. So that would be the analogy 
I give you.
    Senator Reed. Thank you, General.
    Let me follow up on your testimony, which I thought was 
very thought-provoking, and which is that have to move from a 
technocentric to a culture-centric approach, that most of the 
problems we have seen in the last several years have not been 
technical failures, but this lack of cultural awareness, the 
lack of linguistic ability. Can you point to the key problems 
in Iraq and Afghanistan to underscore your point that, perhaps, 
if we had a better cultural sensitivity or linguistic ability 
we could have found a better road out?
    General Scales. Sure. That is a great question, Senator. 
Let us go back to the early days, 2003 and 2004 in Mosul. In 
the early days the ability of young soldiers to communicate on 
the street with Iraqis was pretty good, simply because of the 
innate, I do not know, ``goodness'' I guess is the word I would 
use, of the American soldier, the ability of soldiers of 
goodwill to communicate with Iraqis of goodwill.
    But it was flat. What should have followed, I believe, is a 
very intensive human-centered approach to continuing this type 
of dialogue, this type of interaction with the Iraqi citizens. 
But that did not happen in many ways, because of our penchant 
to find technological solutions, as I said, to problems.
    I think just looking at the back of the room is 
illustrative of that. Here you are and we are in Iraq, trying 
to solve a human problem, trying to communicate, to break 
through cultural barriers and solve a political, military 
problem through human interaction and the application of social 
sciences, and everything behind me is a computer.
    So I guess my question is, great that we apply computer 
sciences to solving human problems, but I suggest that the 
lesson from Iraq is we should have started earlier and we 
should have applied human sciences to solve the human problem. 
This is just part of our culture. We Americans view wars as 
science projects and we tend to find technological solutions.
    I will give you another couple examples: improvised 
explosive device (IED) detection. One of the things that I 
learned early in my trips to Iraq is that there were some 
soldiers who could really do it. It is interesting. Some squads 
never got ambushed, some squads always managed to avoid IEDs. 
They had this sixth sense, this intuition about it.
    So you ask the question, why did second squad never get 
ambushed and third squad did? There was something about those 
leaders, some human quality that they had that gave them that 
sixth sense. The same thing with small unit tactics. Some 
squads do better than others in places like Fallujah and 
elsewhere.
    So my question is, it is great that we are spending a lot 
of computer money to solve different problems, but why do we 
not do a better job of mining the psychology, the sociology, 
the human intuitive, and cognitive aspects of these sorts of 
things to get to human solutions to human problems. My sense 
and my frustration, I think the reason you invited me here 
today, is that there is a real break within the DOD in getting 
what in essence is an institution that has won wars with 
chemistry, physics, information technology, and computers and 
ask them suddenly to turn around tomorrow and apply the laws of 
human sciences to solve this.
    It would be like asking Joe Gibbs to coach hockey. A great 
guy, a terrific coach, and a wonderful human being, but I do 
not think he would know much about working on the ice.
    So what I am suggesting to you, Sir, is that as you look 
into the future and try to solve this problem, let us take the 
human sciences to solve the human problems and leverage the 
physical sciences as appropriate. There are some wonderful 
opportunities there, but I would suggest that we find 
historians, political scientists, sociologists, psychiatrists, 
and psychologists and all these other human sciences and find a 
mechanism to bring them together to solve problems.
    Senator Reed. Thank you very much, General Scales.
    We are joined by Senator Warner. Senator, I believe we are 
going to begin votes at 3 p.m., but we have some time and the 
floor is yours.
    Senator Warner. Thank you very much, Mr. Chairman, and I am 
sorry I was not here a little earlier. I really enjoy the work 
of this subcommittee.
    But I want to pick up on the general's comments. We had our 
friend, General McCaffrey, up before the committee the other 
day. I am going to read a little something that he had to say 
here that impressed me greatly. In testimony before the Armed 
Services Committee last week, General McCaffrey stated that 
military personnel should be sent to a 90-day course at the DLI 
in Monterey, California, or similar institution to get some 
fluency in the language.
    I am all in favor of advancements in the sciences here and 
the ability of these computers, these very wonderful people who 
have risen to the necessity to help us through the technology. 
But I remember my father was in World War I. He was a doctor 
and in his tunic he carried with him everywhere a French 
dictionary. He was quite fluent in French, but he was highly 
dependent as a medical doctor because often he had to treat the 
Frenchmen.
    I have some recollection in my own modest career when we 
went to Korea, we had to strap around and figure out some sign 
language because very often on patrol duty and so forth, we 
were out and we were literally on our own, and trying to get 
from the local population some information and so forth.
    Where are we in the concept that we have now recognized 
that a certain knowledge of the language is as important as 
some of our military skills, and we may not always have the 
benefit of the technology with us. We may have just what is in 
the rucksack and that is about it. So I realize now, on the 
turn-around particularly, which my colleague and I are 
concerned about, rotating these people back into the area of 
responsibility for combat, there is not any time to send them 
to Monterey for 90 days. But we should be looking ahead and 
maybe integrating more of this into the syllabus, in hopefully 
a less stressful time in terms of our overseas commitments.
    Anybody want to tackle that?
    Mrs. McGinn. Senator Warner, one of the things that we have 
done in that regard is we started with the officer corps, 
believing that as you lead the officer corps so you lead the 
DOD. We are beefing up pre-accession language training and 
regional culture training. The Air Force Academy and the 
Military Academy now require foreign language training. The 
Navy Academy requires it for nontechnical leaders. We are 
advancing into ROTC. We have the QDR gives grants to colleges 
and universities with ROTC programs, to develop ROTC programs. 
We are about to announce four of those that we have just 
awarded.
    As a follow-on to that, all of the Services have embedded 
into their professional military education regional and 
cultural expertise, not only for their officers but also for 
their enlisted personnel. In many cases that also includes 
language sustainment.
    So we have really started to move forward towards saying 
this is a competency that the DOD needs to have. It is a major 
change, and so it is not easy, but we are moving in that 
direction.
    Senator Warner. When we integrate our young people into the 
military today, we assess their skills in many ways. I am quite 
certain that some of these young people have some language 
skills that were taught in school. Is that put into their 
record so that we can access them in times that we need them?
    I remember in my generation of school I had to take 5 years 
of Latin. That did not do me a lot of good, but it did help me 
because it was the root language of others, and I learned what 
modest language skills I had, which were very modest, I might 
add.
    Mrs. McGinn. We are screening everyone now upon accession 
for their language ability. We are also screening those members 
who are currently in the force, since we found a lot of 
language capability in the force we did not know we had.
    Senator Warner. So that is in a database somewhere?
    Mrs. McGinn. Yes, sir, we have a database. We are also 
moving out to administer the Defense Language Aptitude Battery, 
which measures how well you may learn a language, so that when 
we need to teach people languages we can reach out to those who 
have a propensity for it.
    Senator Warner. Mr. Chairman, I do believe those votes are 
about to start. I may have one or two questions for the record, 
but thank you very much, and I thank the panel of witnesses. 
Nice to see you again, General Scales.
    Senator Reed. General Scales, I think you had a comment 
with regard to one of Senator Warner's questions?
    General Scales. Just very briefly, Senator. All these 
things are terrific, and I spent my last 3 years in the 
military superintending this. But at the end of the day 
officers will pay attention to and do best at those things 
which will achieve success, which will get them promoted.
    I am sorry, that is just the way our culture is, and until 
we change our military culture to reward those who are good at 
this, who learn the language, are good at training and doing 
the advisory functions in Iraq and Afghanistan, until we 
reserve a place, until we reward them with advanced civil 
schooling where they can go back to a name university and learn 
more about the culture and be better at the language, and until 
the institutions, the Army, the Marine Corps, and the other 
Services, reserve special places and offer special rewards for 
these special skills, it is going to be a long, hard uphill 
climb.
    Senator Warner. It is interesting. When I was in the 
building many years ago, I noticed--and I had to do a lot of 
work at that time internationally in my capacity as the Navy 
Secretary, so I traveled a lot. I got to know the attaches, a 
very interesting lot, and I learned, to my chagrin, that that 
was the end; O-6 was it and you were out.
    But at that point in time I had the authority to work the 
system and I finally got some stars and other things put on 
those people to give them recognition. Today I think it is a 
little better. There is a promotion chain through there to some 
extent; is that correct?
    General Scales. Not to my knowledge. I think the gentleman 
who we all look up to as our model is Karl Eikenberry, who is a 
Foreign Affairs Officer (FAO). Senator, he is a China FAO. His 
wife is Chinese and he is terrifically effective in 
Afghanistan. So language ability, but also the ability to 
really get along with people, to sublimate your ego and bond 
with people in a special way is as much an important talent as 
is the ability to speak the language.
    As far as I am concerned, I look for the day when promotion 
to three stars, two and three stars, one of the serious 
considerations is not just how good a corps commander he was, 
but how good an attache was he and how good a FAO was he, and 
how well he ran a military advisory group.
    Senator Warner. I think we may recommend you be recalled.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Warner.
    This is an important panel. I want to take some time and 
ask questions, so I will ask a question or two. Senator Warner, 
if you would like to join me afterwards that would be helpful.
    But let me go back. Madam Secretary, you talked about the 
Heritage Corps. One issue we have heard was the difficulty 
sometimes in getting security clearances for some of these 
individuals--particularly if they have relatives overseas. 
Second, that if the individual is a second generation American 
they may have to take a lie detector test, whereas if they are 
some 15th generation American from small-town USA they do not 
take the same test.
    Can you comment on this as an impediment?
    Mrs. McGinn. I can. I am not an expert at security issues 
here, but I will tell you my observations, Mr. Chairman. It is 
difficult for them to get security clearances. We have been 
working with the Director of the Office of National 
Intelligence and with our own Under Secretary for Intelligence 
on some initiatives to do some changes to the adjudicators desk 
reference. In some cases, those who adjudicate these clearances 
in my opinion do not understand the cultures that people are 
coming from, and we have approached graduate schools to see if 
they would have people on call to talk to adjudicators so they 
can say: If this individual is from Lebanon, is this what I 
should expect or is this an aberration?
    The lie detector tests are given to the linguists that we 
want to have handling classified information since many of them 
are not citizens and it takes a long time to process a Secret 
clearance. That is our way of getting them limited access 
authorization and getting them to work.
    Senator Reed. Thank you very much, Madam Secretary.
    Dr. Van Tilborg, let me ask the question and then I will 
also ask the question of the Secretary. If more resources were 
available to you, where would you put these resources with 
respect to the language technology and cultural awareness?
    Dr. Van Tilborg. I think there is quite a bit of work that 
needs to be done in the development of what we call databases 
for both of those areas, the language technologies and the 
cultural awareness technologies, databases on, roughly 
speaking, understanding of those languages and those cultural 
facts and behaviors. I would put substantial resources to 
prototyping and experimentation. I think a lot of this work 
needs to be grounded in actual prototypes and trying things 
out, testing these devices, playing around, retrying them, and 
experimentation. Those would be the main areas, Senator, I 
would invest in.
    Senator Reed. Thank you very much.
    Madam Secretary, a similar question.
    Mrs. McGinn. I would just like to say first of all that we 
were very successful in getting just about everything we wanted 
in the 2008 budget request. The DOD has been very supportive of 
funding these initiatives. I think the ways, the places that we 
need to go in the future, we need to do more work with the 
cultural and regional aspects of this, understanding who has 
those skills, cataloguing those skills. We need to better equip 
ourselves to be able to respond quickly to areas of the world 
that have languages that we are not ready for right now in 
terms of having curriculums or capability, and we need to 
continue work on our new testing system.
    Senator Reed. General Scales talked in terms of incentive 
structures that were going to produce these leaders at every 
level, senior noncommissioned officers to senior officers who 
are culturally aware, linguistically sophisticated. One basic 
incentive structure is pay. I understand that there is no 
language proficiency pay until you reach category 3-3. Is that 
correct, or can you explain that?
    Mrs. McGinn. No, no, it is at level 2, the foreign language 
proficiency pay. The Special Forces and the United States 
Marine Corps are very interested in starting to do proficiency 
pay at level 1, Special Forces because they put that in as a 
requirement. The Marine Corps is hoping that if they start 
paying people at level 1 they will want to get to level 2. So 
our policies did allow for that, for the Services to do that.
    Senator Reed. Are you considering a broader, much more 
deliberate approach with proficiency pay to induce people not 
only to learn a language, but to progress, and for retention 
purposes, too? Because I suspect one of the problems you face 
is we have some 20-year veterans, majors, great language 
skills, et cetera, but they are going out to do other things. 
Is that being considered?
    Mrs. McGinn. Oh, absolutely. Legislative changes in the 
last couple of years have allowed us to increase our language 
proficiency pay from $300 a month to $1,000 a month. Now, not 
everybody gets $1,000 a month, but as you progress in 
proficiency and as you are learning the more difficult 
languages, yes, you can get that.
    It is very important for the purposes you mentioned, but 
also for people to self-identify, because there is a reward 
there for them if they self-identify and they test at those 
levels.
    Senator Reed. Thank you, Madam Secretary.
    General Scales, you have talked about some of the 
incentives you would like to see, which is recognition in 
evaluations and promotions, et cetera, and I think you have 
also made the point that this technology is very, very 
important, in fact, I would say essential, but it cannot be the 
be-all and end-all. That raises the question--we grew up in an 
age where we see these devices and it is rudimentary, and 2 
years later this is fantastic--can you give me any kind of 
idea, from the scientific standpoint, Dr. Van Tilborg, when 
these laptop computers have been reduced to devices that you 
can wear on your belt? Are we talking about a system that 
within 20 years will get to the point where you can have two-
way translation constantly in a deployable mode?
    Dr. Van Tilborg. Senator, my personal view is that, 20 
years that is a safe bet that we will be able to do that, 
despite the fact that it has taken more than 50 years to get to 
where we are now. I believe that the rate of acceleration is 
increasing. As you can see, there is really some spectacular 
results that are already being demonstrated.
    I think it is also very important to recognize that 
technology is important because there are lots of languages, 
and if we are going to have our forces be trained with 
language, it is very hard to train a language and one does not 
know whether we are going to be operating in area A, B, C, D, 
or E. Technology can be that multiplier, if you will, that 
allows large numbers of our forces to quickly gain adequate 
ability in a given language without having to go through the 6-
month long or longer type of training.
    So it is very critical, I believe, to do the technology. 
Thank you.
    Senator Reed. General?
    General Scales. You talked about simulators and training 
devices. It is important to be able, sir, to do that for 
language. But I also believe we need to measure behavior. David 
Petraeus told me a great story when he was in Mosul. He said 
that he had a certain number of his battalion and brigade 
commanders, he said, ``They just would not sit down and drink 
tea with sheiks. There is nothing I could do to make them do 
that.''
    My suggestion to you is we not only improve our proficiency 
with the physical sciences, but with the human sciences. We are 
in a point now where we can predict behavior, we can anticipate 
the human reactions to different sets of external stimuli. I 
would argue that we do not do a good job of that right now. 
Perhaps as part of this simulation experiment there be some 
sort of immersive environment from which we could anticipate, 
from the grade of private through colonel, who has these 
particular skills.
    Senator Reed. Thank you, General, Madam Secretary, and Dr. 
Van Tilborg. It has been a very useful hearing and it has been 
an interesting demonstration. We might have additional 
questions, so we will make them available to you, not just 
myself but my colleagues, and we would ask you to respond 
promptly to the questions. Thank you all, and I think I would 
conclude basically that we all recognize that this technology 
is necessary. We hope it gets better faster. We hope it gets 
more all purpose and robust. It is necessary, but I think, as 
General Scales points out, it is not sufficient to the task. 
There is the human element which I think will always be with 
us. In fact, without that I would be out of a job.
    So thank you very much. This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

                     INTERAGENCY LANGUAGE STRATEGY

    1. Senator Reed. Mrs. McGinn, is this language roadmap tied to an 
interagency strategy for improving language and cultural awareness 
capabilities? If not, why? If so, what is that strategy and who is 
charged with enforcing its implementation?
    Mrs. McGinn. The Defense Language Transformation Roadmap (DLTR) is 
not tied to an interagency strategy, but it establishes a foundation 
that supports interagency collaboration. The purpose of the DLTR was to 
ensure foreign language capability and regional expertise development 
and employment.
    The Under Secretary of Defense for Personnel and Readiness 
(USD(P&R)) is the Department of Defense (DOD) lead for language and 
cultural awareness. Examples of interagency initiatives by DOD include:

         In conjunction with the development of the Roadmap in June 
        2004, the Department began an interagency dialog by hosting the 
        National Language Conference, in partnership with the Center 
        for Advanced Study of Language at the University of Maryland. 
        Attendees at this conference included representatives from 
        other Federal agencies as well as academia, language 
        organizations, State and local governments, industry, and 
        foreign countries that routinely teach their citizens more than 
        one language.
         The USD(P&R) hosts sessions with the Chief Human Capital 
        Officers to provide a forum for interagency discussions and 
        coordination on language and other issues.
         The DLTR supports the National Security Language Initiative 
        (NSLI), announced in January 2006. This initiative is an 
        interagency partnership with the Department of State, 
        Department of Education, and the Office of the Director of 
        National Intelligence to develop a comprehensive national plan 
        to expand U.S. foreign language education. As a result, we have 
        expanded our Flagship language programs, providing grants to 
        universities to graduate students at higher levels of 
        proficiency. We also started working on a pilot to establish 
        the Language Corps and initiated three K-16 programs in Chinese 
        and Arabic.

                          LANGUAGE INCENTIVES

    2. Senator Reed. Mrs. McGinn, are you working with the Services to 
ensure that all Services offer proficiency incentives for personnel 
from the very beginning, when they reach Level 1 proficiency? If not, 
why? If so, when will all Services provide incentives at Level 1?
    Mrs. McGinn. We are working with the Services and have published 
policy that provides the flexibility and option to provide a Foreign 
Language Proficiency Bonus (FLPB) at Level 1 to meet mission 
requirements. However, we do not believe that all personnel should be 
provided a bonus at that level, as it represents very limited 
proficiency. Rather, it should be applied in a targeted manner as 
determined by the Service involved, in conjunction with components they 
support.

            DEFENSE LANGUAGE INSTITUTE AND LANGUAGE TESTING

    3. Senator Reed. Mrs. McGinn, is Defense Language Institute (DLI) 
the only language training institute available to the DOD? If not, what 
other institutions can train DOD personnel in languages?
    Mrs. McGinn. No, the Defense Language Institute Foreign Language 
Center (DLIFLC) is not the only language training institute available 
to the DOD. However, DLIFLC is the primary training source that 
provides standards which meet the Interagency Language Roundtable (ILR) 
guidelines. DLIFLC's Washington office provides additional training to 
meet DOD needs.
    Special Operations Command (SOCOM), United States, John F. Kennedy 
Special Warfare Center and School develops Special Operations Language 
Training instructional/training materials for classroom, Web-based, and 
self-paced courseware to proficiency Levels 1 and 2. The Center is 
transforming language training for Special Forces operators by weaving 
language training throughout the Special Forces Qualification Course 
with a graduation requirement of 1/1/1.
    Additionally, the Joint Language Training Center (JLTC), Ogden, 
Utah, serves the language refresher and maintenance training needs of 
primarily Navy Reserve Cryptologic Technicians Interpretive (CTIs), 
with Active Duty CTIs and other Services/agencies on a space available 
basis. The classes are designed to provide a high-quality, intense 
language learning experience in a relatively short period of time. All 
JLTC classes are designed to fit Reserve annual training schedules, and 
the training needs of the current Reserve CTI population.
    DOD can and does contract with other universities and organizations 
which provide ILR standards for language training. Through the National 
Security Education Program, we have partnerships with the University of 
Maryland, Georgetown University, University of Texas, Michigan State 
University, Brigham Young University, Ohio State University, University 
of Oregon, American Councils for International Education, University of 
California at Los Angeles, and the University of Hawaii at Manoa.

    4. Senator Reed. Mrs. McGinn, can DOD contract with universities 
and other organizations for language training?
    Mrs. McGinn. The DOD can and does contract with other universities 
and organizations, which provide ILR standards, for language training. 
Through the National Security Education Program we have partnerships 
with the University of Maryland, Georgetown University, University of 
Texas, Michigan State University, Brigham Young University, Ohio State 
University, University of Oregon, American Councils for International 
Education, University of California at Los Angeles, and the University 
of Hawaii at Manoa.
    Additionally, the DOD contracts with universities, commercial 
language schools, and other organizations to develop course materials, 
teach, develop tests, conduct research, and oversee language immersion 
programs, in support of its language training mission for military and 
civilian personnel. For example, the National Security Agency (NSA) 
contracts with Middlebury College to teach Slavic and Arabic languages, 
Washington State University for Central Asian languages, and Ohio State 
University for Asian languages. NSA also uses Diplomatic Language 
Services to provide training in African, South Asian, and Central Asian 
languages.
    The Department purchases online commercial language training 
products and services for individuals who are deployed, wish to learn a 
language, or would like to maintain their language skills outside the 
traditional classroom setting. Defense organizations frequently look to 
universities for advanced language training in less commonly taught 
languages. Defense contracts with commercial language schools to 
provide tailored language training in specific languages or dialects, 
modalities, and levels for specific defense mission requirements that 
may be difficult to find in a traditional university, semester-bound 
program.

    5. Senator Reed. Mrs. McGinn, before and after language training is 
provided by the DLI to intelligence analysts and others, the trainees 
are tested to check their reading and writing proficiency. These tests, 
I understand, are written and administered by DLI instructors. Is that 
correct, and if so, can one say that DLI has essentially developed the 
test of its own effectiveness? If so, what can be done to have other 
individuals or groups responsible for evaluating DLI students?
    Mrs. McGinn. The DLIFLC tests students for reading, listening, and 
speaking. These tests are developed by a testing staff separate from 
the DLI. Moreover, DLIFLC is sensitive to the issue of independent 
testing and evaluation. This is the reason that proficiency tests at 
DLIFLC are designed, developed, validated, administered, and monitored 
by the Directorate of Evaluation and Standardization (E&S). In addition 
to the grade point average (GPA) as a graduation criterion, students 
must achieve a specified level of proficiency on a Defense Language 
Proficiency Test (listening and reading) and on an Oral Proficiency 
Interview (OPI) in order to graduate. In essence, DLIFLC has two 
independent testing systems, one conducted by the faculty and one 
conducted by E&S, which is separate from and independent of the 
faculty. At DLIFLC, as in all institutions of higher learning, the 
faculty grades students on the basis of classroom performance, homework 
assignments, and test performance. The student's GPA is derived from 
this assessment. As noted, to graduate, the student must then achieve a 
specified score on the proficiency tests. These proficiency tests serve 
as a check on the performance-based GPA.

    6. Senator Reed. Mrs. McGinn, does the Department currently test 
oral language proficiency? If so, who is responsible for this testing? 
If not, why, and what steps, if any, will you take to test language 
proficiency, and how soon?
    Mrs. McGinn. The Department has an oral proficiency testing program 
conducted by the Evaluations and Standardization Directorate at the 
DLIFLC. Through in-house resources and contractual relationships with 
the American Council of Teachers of Foreign Languages and the State 
Department's Foreign Service Institute, the Directorate offers OPIs in 
a total of 121 languages and dialects. DLIFLC is investigating the 
possibility of conducting such interviews via the internet and 
computer-based testing in order to increase the magnitude of its test 
capacity.

    7. Senator Reed. Mrs. McGinn, what is the role of the DLI?
    Mrs. McGinn. The DLIFLC is the Department's premier language 
training institution. DLIFLC provides foreign language education, 
training, evaluation, and sustainment at ILR standards for DOD 
personnel in order to meet the Department's language needs.
    DLIFLC performs the critical role of providing basic, intermediate, 
and advanced language training to more than 7,600 military students 
(resident and non-resident personnel). Many of the students are crypto-
linguists, interrogators, and Foreign Area Officers.

    8. Senator Reed. Mrs. McGinn, does DLI support the Services, as 
well as the SOCOM?
    Mrs. McGinn. The DLIFLC supports and responds to all identified and 
emerging needs of SOCOM. Evidence of this support includes the dramatic 
shift in the types of education and training materials provided by 
DLIFLC to deploying members in response to identified needs. Examples 
of these innovations are DLIFLC-provided Mobile Training Teams (MTTs), 
Video Tele-training, Language Survival Kits, and online instructional 
materials. Since 2001, DLIFLC dispatched 300 MTTs to provide targeted 
training to more than 32,000 personnel. Deploying units received over 
200,000 Language Survival Kits (mostly Iraqi, Dari, and Pashto). Field 
support modules outlining the geo-political situation, cultural facts, 
fundamental language skills, key phrases, and commands are available 
for 19 countries in 17 languages on the DLIFLC's Web site. There are 
currently 31 online language survival courses. In addition, computer-
based sustainment training is available via their Global Language 
Online Support System. All online support is available to all 
servicemembers.
    DLIFLC offers a variety of training programs to support SOCOM basic 
and advanced language training demands. DLI has a permanent liaison in 
the United States Army John F. Kennedy Special Warfare Center and 
School at Fort Bragg, NC, to coordinate curriculum and testing 
development, and has established permanent Language Training 
Detachments at Little Creek, VA, and Coronado, CA, supporting the 
Navy's Special Warfare Groups.

    9. Senator Reed. Mrs. McGinn, what are you doing to help meet 
SOCOM's needs?
    Mrs. McGinn. As the DOD Senior Language Authority and Chair of the 
Defense Language Steering Committee (DLSC), I am personally involved in 
providing senior level oversight of language needs throughout the 
Department.
    At our monthly DLSC meetings, which include general/flag officers 
and Senior Executive Service representatives from the Services, Office 
of the Secretary of Defense and Joint Staff, combatant commands, and 
SOCOM, we discuss DOD language issues and needs.
    One example of a SOCOM requirement addressed was the need for 
increased numbers of OPIs. We are looking at technology as a possible 
solution to respond to SOCOM's need to deliver large numbers of OPIs in 
a short time period. We anticipate that ongoing OPI automation research 
initiatives will offer the ability to provide the tests on demand, as 
well as offer student diagnostics and screening for potential language 
candidates. The systems we are exploring include the Versant computer-
based testing with either speech recognition software or human scorers 
grading the tests, and OPI computerized tests.
    Additionally, I have ensured that appropriate funding is provided, 
and as a result, the DLIFLC has increased their faculty of certified 
OPI testers from 288 to 398. We will continue to monitor these 
initiatives to ensure SOCOM's and the Services' requirements are met.

                     CRITICAL LANGUAGE CAPABILITIES

    10. Senator Reed. Mrs. McGinn, in your opening statement you noted 
that, at the beginning of fiscal year 2007, DOD had ``141,887 Active 
component; 77,319 Reserve component; and 38,246 civilian members'' who 
reported having foreign language skills. Of those reporting language 
skills, how many have skills in critical languages such as Arabic, 
Chinese, Russian, Hindi, or Farsi?
    Mrs. McGinn. Our current self-reported capability is outlined 
below. Please note that these are self-reports and not tested 
proficiency.

------------------------------------------------------------------------
                         Language                           Capabilities
------------------------------------------------------------------------
Arabic....................................................        8,674
Chinese...................................................        5,530
Russian...................................................        8,118
Farsi.....................................................        1,863
Hindi.....................................................          933
------------------------------------------------------------------------


    11. Senator Reed. Mrs. McGinn, what percentage of those critical 
language speakers has more than basic language skills--that is, they 
can engage confidently in complex conversations on a broad range of 
topics or conduct translations with a high degree of accuracy?
    Mrs. McGinn. Personnel who tested or professed to have skills at 
ILR skill Level 2 or above possess more than basic language skills. 
Those who tested or professed at ILR skill Level 3 or above are 
considered professionally qualified, i.e., they can engage confidently 
in complex linguistic transactions. Of the total 25,118 people claiming 
a capability in Arabic, Chinese, Russian, Farsi, and Hindi, 13,815 (55 
percent) have tested and/or self-professed at Level 2 or above. Our 
current capability at Level 3 or higher is 4,672 (18.6 percent) of the 
total population that reported a capability in such critical languages.

                        SPENDING ON CONTRACTORS

    12. Senator Reed. Mrs. McGinn, what is the total number of 
linguists that DOD currently has under its various contracts and what 
is the total sum of money spent on these contracts?
    Mrs. McGinn. As Executive Agent, the Army is authorized to contract 
up to 10,000 linguists, and will spend less than $900 million during 
fiscal year 2007.

   LANGUAGE AND CULTURAL SKILL RETENTION--SPECIAL OPERATIONS COMMAND

    13. Senator Reed. Mrs. McGinn, I understand that when Army 
personnel get assigned to the SOCOM most of them (aside from the 
Rangers) become ``Special Operations Forces (SOF) for life'' and for 
the Army Special Forces, they are focused on one region, so that any 
investment in language or other training by SOCOM is retained with 
these individuals by the command. However, Naval Special Warfare 
Command personnel do not necessarily focus exclusively on one region 
for their careers. The Marine Corps and Air Force do not have permanent 
Special Operations Forces personnel. What is the impact of this 
difference among the Services, and what would be the advantage of 
having Marine Corps and Air Force personnel who are ``SOF for life'' 
from the perspective of language and cultural awareness training and 
retention?
    Mrs. McGinn. Language expertise and cultural familiarity are 
enhanced by multiple assignments in units focused on a specific region. 
Although ``SOF for Life'' is not an official program or a term that 
directly applies to regionalization, it is true that Army and Navy 
forces spend a higher percentage of their careers in SOF units. Army 
SOF is particularly well-organized to ensure that its enlisted force 
gains regional expertise through repetitive assignments. The Marine 
Special Operations Advisory Group requires regionalization and is 
maturing on the Army model. Regionalization is less important to Air 
Force units, except for a squadron that specializes in training foreign 
forces. ``SOF for Life,'' as a concept for ensuring repetitive 
assignments in Special Operations units, irrespective of regional 
orientation, is inherently desirable. The advantage is recoupment on 
the investment in SOF training and SOF operational experience.

  HERITAGE RECRUITING--SECURITY CLEARANCE OBSTACLES AND DISCRIMINATION

    14. Senator Reed. Mrs. McGinn, as you mentioned, the DOD is now 
planning to make a concerted effort to recruit the ``heritage'' first- 
and second-generation American citizens with foreign language expertise 
to serve in positions requiring language proficiency. However, 
committee staff are informed that there will be special requirements 
placed on these recruits--specifically, that they will have to take 
polygraph examinations that non-``heritage'' speakers will not have to 
take. Is this true? If so, what is the rationale for this requirement?
    Mrs. McGinn. There are no requirements for United States citizens 
who are recruited as ``heritage'' speakers to take a Counter 
Intelligence (CI) Scope Polygraph, unless they are serving in positions 
requiring special security clearances.
    Non-United States citizens who enlist are usually not placed in 
military occupational specialties requiring security clearances. An 
exception to this policy is for non-United States citizen accessions 
under the 09L Interpreter/Translator program. 09L personnel may be 
granted limited access to classified information in order to bridge the 
gap between restrictive security clearance guidelines for non-United 
States citizens and the necessary utilization of these personnel. To do 
this, they are administered a CI Scope Polygraph as part of satisfying 
the conditions for the exception to policy (DOD 5200.2-R, Personnel 
Security Program), approved by the Under Secretary of Defense for 
Intelligence, dated June 5, 2006.

    15. Senator Reed. Mrs. McGinn, if these citizens joined the 
military like any other citizen, and served in positions that do not 
require language expertise, would they be subjected to polygraph 
examinations? If not, why this special treatment for linguists?
    Mrs. McGinn. There are no requirements for United States citizens 
who are recruited as ``heritage'' speakers to take a CI Scope 
Polygraph, unless they are serving in positions requiring special 
security clearances.
    Non-United States citizens who enlist are usually not placed in 
military occupational specialties requiring security clearances. An 
exception to this policy is for non-United States citizen accessions 
under the 09L Interpreter/Translator program. 09L personnel may be 
granted limited access to classified information in order to bridge the 
gap between restrictive security clearance guidelines for non-United 
States citizens and the necessary utilization of these personnel. To do 
this, they are administered a CI Scope Polygraph as part of satisfying 
the conditions for the exception to policy (DOD 5200.2-R, Personnel 
Security Program), approved by the Under Secretary of Defense for 
Intelligence, dated June 5, 2006.

    16. Senator Reed. Mrs. McGinn, what is the Department doing to 
address the backlog of applicants with language ability who are 
awaiting security clearances, including--amazingly--individuals for 
whom the intelligence community has provided the funding through the 
National Security Education Program to live in foreign countries and 
study foreign languages?
    Mrs. McGinn. The Department recognizes the compelling need to 
address the obstacles involved in gaining security clearances for 
applicants who have studied extensively overseas. We recognize, working 
in close concert with our colleagues in the Office of the Director of 
National Intelligence (ODNI) that too often the current system screens 
out or delays the successful processing of highly-qualified candidates, 
with considerable backgrounds in regional areas and languages, who have 
studied extensively overseas. This also includes highly qualified 
candidates who represent ``heritage learner'' populations in the United 
States. The Office of the Under Secretary of Defense for Personnel and 
Readiness, together with the Office of the Under Secretary for 
Intelligence, has teamed with ODNI to develop and implement a number of 
important initiatives:

         Expand the Adjudicator's Desk Reference (ADR). We are 
        providing additions to the ADR guide with explanations about 
        NSEP. These changes were reviewed by a working group meeting in 
        January 2007 and retraining has started.
         Establish subject matter expertise consultation availability 
        to adjudicators for cultural background information during the 
        adjudication phase.
         Expand the current DOD Adjudicator Training Course to capture 
        changes made to the ADR.
         Issue a memorandum to components and DOD agencies apprising 
        them of these initiatives.
         Establish a code to identify NSEP individuals as a priority 
        at the Office of Personnel Management (OPM). We will be seeking 
        to negotiate with Central Adjudication Facilities to adjudicate 
        these investigations on a priority basis.
         Propose additional questions for OPM investigators to ask 
        NSEP candidates.

    In addition to these specific security-related efforts, we are 
investigating, in close coordination with the Assistant Director, DNI/
Chief Human Capital Officer, opportunities to begin processing NSEP 
Scholars and Fellows for security clearances earlier in the process so 
that the gap between degree completion and hiring can be substantially 
shortened. Executive Order #12968 (Access to Classified Information, 
Section 1.1e) defines employees eligible for security clearances to 
include ``grantees of an agency.'' We believe that, given the federally 
mandated service requirement associated with NSEP awards, NSEP Scholars 
and Fellows are eligible for security clearances as ``grantees of the 
DOD.'' We are working with our Office of General Counsel to seek ways 
in which this definition can allow us to begin the security clearance 
process immediately after the individual receives an award.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                NATIONAL LANGUAGE CONFERENCE WHITE PAPER

    17. Senator Akaka. Mrs. McGinn, the White Paper issued by the DOD 
summarized the recommendations of the 2004 National Language 
Conference. According to testimony from DOD Principal Deputy Under 
Secretary of Defense for Personnel Readiness Michael Dominguez at a 
hearing before the Senate Oversight of Government Management 
Subcommittee in January, DOD worked with other Federal agencies to 
develop the White Paper to spark public consideration. What Federal 
agencies worked with DOD on the White Paper?
    Mrs. McGinn. The White Paper is a result of the 2004 National 
Language Conference, which brought together over 300 leaders and 
practitioners from Federal, State, and local government agencies, 
academic institutions, business and industry, foreign language interest 
groups, and foreign nations. Among the agencies participating were the 
Departments of Commerce, Labor, Justice, State, Education, Homeland 
Security, and Health and Human Services, as well as the Central 
Intelligence Agency.

    18. Senator Akaka. Mrs. McGinn, DOD's White Paper was extremely 
effective in laying out the critical steps needed to address the 
Nation's shortfall in language skills. The first recommendation calls 
for strong and comprehensive leadership, specifically, a national 
language strategy to be developed and implemented by a National 
Language Director and for a Coordination Council to coordinate 
implementation of the strategy. Have the NSLI partners laid out a 5- to 
10-year strategy to address the Nation's foreign language needs? If so, 
please provide.
    Mrs. McGinn. When the NSLI was launched by the President in January 
2006, it was understood that the actions of the four partners were only 
the beginning of a decades-long thrust to build language capacity 
within our Nation. The NSLI is designed to develop foreign language 
capability in critical need languages for the long-term, and 
fundamentally change the way foreign language competence is taught and 
valued in the United States. In some cases, the NSLI specifically 
targeted goals to be achieved by the end of the decade. For example, 
the Department of Education's proposed Language Teacher Corps was 
designed to have 1,000 new foreign language teachers in our schools by 
the end of the decade. Increasing the number of foreign language 
teachers is critical to the success of the NSLI.

    19. Senator Akaka. Mrs. McGinn, is there a leadership structure in 
place today that mirrors that recommended by the White Paper? If so, 
what steps are being taken to sustain and institutionalize continued 
leadership in language education in future administrations?
    Mrs. McGinn. At the present time, leadership for NSLI is provided 
by the White House through the Domestic Policy Council (DPC), with 
leaders from the agencies involved. As NSLI becomes fully-funded and 
gains momentum, the programs should become institutionalized to 
continue into the future.

    20. Senator Akaka. Mrs. McGinn, I understand that DOD is working 
with the Departments of Labor and Commerce to coordinate regional 
language summits this summer. What Federal agencies have been involved 
in NSLI? Please describe how each of those agencies have participated 
in NSLI.
    Mrs. McGinn. When the NSLI was first launched, the DPC lead invited 
numerous Federal agencies to meetings with the four major partners: 
Department of State, Department of Education, the Office of the 
Director of National Intelligence, and the DOD. Additionally, several 
of those agencies joined the frequent conference calls among the major 
partners.
    The USD(P&R) invited the Chief Human Capital Officers (CHCOs) of 12 
Federal agencies to review the proposed model for the Language Corps 
and to begin the process of identifying their language needs. The 
Language Corps is one element of the NSLI. It was a productive meeting, 
with the CHCOs agreeing to a mutually beneficial way ahead. The 
Language Corps should prove to be a strong contribution of the NSLI, 
and will continue to have interagency involvement as we execute the 
pilot program.

           NATIONAL SECURITY LANGUAGE INITIATIVE STAKEHOLDERS

    21. Senator Akaka. Mrs. McGinn, according to testimony received by 
the Senate Oversight of Government Management Subcommittee in January, 
there is a lack of coordination among the NSLI partners and 
stakeholders outside of the government. One witness said that if there 
is a Federal Government strategy for addressing the shortfall in 
foreign language skills, it isn't very well known. How are DOD and the 
NSLI partners working with language associations and other stakeholders 
to develop a strategy and coordinate activities?
    Mrs. McGinn. The DOD is delighted that the Departments of Commerce 
and Labor have joined us in sponsoring the Language Summits this 
summer. The Flagship Universities in Oregon, Ohio, and Texas are 
hosting the State-level summits with multiple stakeholders, including 
the local business and corporate sectors. The end result should be an 
action plan to address the demand for language skills in each State's 
future workforce. We hope to promulgate these action plans as best 
practices for other States.

    22. Senator Akaka. Mrs. McGinn, how often have the NSLI partners 
meet with each other since the beginning of the year?
    Mrs. McGinn. The DPC lead and the previous Department of Education 
coordinator conducted frequent telephone conferences this year, to keep 
the partners updated on status of the NSLI and to develop outreach 
strategies.

    23. Senator Akaka. Mrs. McGinn, how often have the NSLI partners 
met with stakeholder groups this year?
    Mrs. McGinn. While I can only speak for the DOD, I'm sure you will 
find a similar level of activity at Departments of State and Education, 
and at the Office of the Director of National Intelligence.
    The complex efforts behind the Defense Language Transformation, the 
conduct of the National Security Education Program, and launchings of 
the three language pipelines and Language Corps keeps DOD in regular 
dialogue with university and college presidents; Oregon, Michigan, and 
Ohio K-12 school systems; language associations; heritage communities; 
and other Federal agencies.
    An obvious gap is outreach to the business community. We will begin 
to rectify this gap this summer. With our Department of Labor and 
Commerce partners, we will sponsor three State-level language summits 
in Oregon, Ohio, and Texas. Invited stakeholders include local business 
and State corporate employers. The outcome of the summits should be an 
action plan that the States can implement to build the language 
capacity they need in their future workforce.

    24. Senator Akaka. Mrs. McGinn, who is the NSLI point of contact 
for foreign language stakeholder groups?
    Mrs. McGinn. The DPC took the lead for the NSLI in 2006. The 
current DPC point of contact is Ms. Kelly Scott.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez

        DEFENSE LANGUAGE INSTITUTE AND THE GLOBAL WAR ON TERROR

    25. Senator Martinez. Mrs. McGinn, the DOD is taking several steps 
to expand language training, including initiatives at the Service 
Academies and within ROTC programs. The DLI is still the DOD's premier 
for teaching foreign languages to U.S. service men and women. The DLI 
mission is more critical now than ever. While I note the increase in 
funding for DLI from $77 million in fiscal year 2001 to $203 million in 
fiscal year 2007, its capabilities remain limited. In light of the 
current demand placed on language qualified personnel, is DLI the right 
size?
    Mrs. McGinn. The DLIFLC currently trains all student load 
requirements at the capacity required by the DOD. DLIFLC has proven its 
capability to surge and increase student throughput since 2001. As the 
DOD Senior Language Authority, I recognize that DLIFLC is a critical 
training source, and as the Chair of the DLSC, we conduct an Annual 
Program Review to provide oversight and ensure capacity and capability 
to respond to DOD requirements.

    26. Senator Martinez. Mrs. McGinn, what changes are being 
contemplated (if any) to expand the size and capacity of DLI?
    Mrs. McGinn. As the Chair of the DLSC and the DOD Senior Language 
Authority, I provide oversight of the DLIFLC to ensure that it has the 
resources, capability, and capacity to respond to current and emerging 
needs.
    DLIFLC currently trains all student load requirements at the 
capacity required. The DLSC contemplates DLIFLC size and capacity 
issues through a comprehensive annual performance review meeting.
    DLIFLC military construction is currently programmed to add three 
general instruction buildings and renovate two existing structures 
beginning in fiscal year 2008 (available for occupancy beginning in 
fiscal year 2011). These new facilities, along with several ongoing 
renovation projects and leasing actions, will add 202 classrooms (with 
accompanying faculty offices and other administrative spaces).

    27. Senator Martinez. Mrs. McGinn, is the current enrollment 
(approximately 4,400) at its peak?
    Mrs. McGinn. Due to the increased need for language, we expect to 
see continued expansion of the DLIFLC's mission in the area of language 
familiarization, post-basic enhancement, and basic acquisition. The 
DLIFLC student population for fiscal year 2007 is approximately 4,100, 
which represents a 65 percent increase over fiscal year 2001, 
approximately 3,700 of whom are resident at the Presidio of Monterey. 
The other 400 represent an average daily attendance in a nonresident 
program. Over the next 4 years, increased projections will bring the 
student population to approximately 4,800 per year.

    28. Senator Martinez. Mrs. McGinn, should we look more to the other 
sources of language training you outlined to meet language training 
requirements?
    Mrs. McGinn. As part of my oversight role for the Defense Language 
Program, we are constantly evaluating whether we are meeting Service 
language training requirements. The Services have included other 
sources of training to meet their needs, such as online learning and 
other ``just-in-time'' training sources.
    Language training requirements are complex. For basic language 
instruction designed to achieve mission capable levels of proficiency, 
the programs through the DLIFLC and the language programs of SOCOM are 
the best sources, and both meet basic training load requirements. Other 
language training, such as pre-deployment training, is conducted by the 
military departments.
    In addition, we continue to seek and build basic language 
competence in our Officer Corps. The Services stress the importance of 
foreign language skill acquisition in Service Academies and in their 
Reserve Officer Training Corps (ROTC) programs. The military 
departments built recruiting plans that include recruiting students 
with foreign language skills and heritage backgrounds into their ROTC 
programs. They implemented various incentive programs to encourage ROTC 
cadets and midshipmen to study foreign languages in order to increase 
the number of ROTC cadets and midshipmen graduating with at least two 
semesters of foreign language studies prior to commissioning.
    The three Service academies have enhanced their foreign language 
study programs to develop pre-accession language and cultural 
knowledge. They have expanded study abroad, summer immersion, and 
foreign academy exchange opportunities, and added instructor staff for 
strategic languages. The United States Military Academy and the United 
States Air Force Academy now require all cadets to complete two 
semesters of language study. The United States Naval Academy requires 
its nontechnical degree-seeking midshipmen to take four semesters of 
language study.

    29. Senator Martinez. Mrs. McGinn, in your testimony you outline 
several courses of action/options available to react to an unexpected 
surge in the requirement for a set of languages (based on an emerging 
contingency), including calling on personnel within the ranks and 
accessing contract linguists. Does DLI also have the capacity to shift 
gears and place emphasis on new language capability requirements?
    Mrs. McGinn. The DLIFLC has the capacity to respond to unexpected 
surge requirements and shift gears to meet new language requirements. 
DLIFLC is establishing an emerging language plan to meet unexpected 
surge requirements. This plan includes four phases:

         (1) Developing tests to measure current capabilities;
         (2) Providing distance learning through web-delivered 
        materials for maintaining and enhancing skills;
         (3) Offering resident short courses for sustaining and 
        increasing the existing proficiency of members; and
         (4) Creating on-the-shelf, initial skills, resident training 
        programs for students with no previous exposure to the needed 
        language.

    These four phases will be used in combination or individually to 
meet rising and emerging low density language requirements.

    30. Senator Martinez. Mrs. McGinn, you also note that prioritizing 
specific language/regional skills carry some risk that we will not 
project the right area for where the next contingency develops. Is 
there a linkage between our Quadrennial Defense Review (QDR) assessment 
of threats and risk and the priorities we place on selected regions and 
languages?
    Mrs. McGinn. There is a strong link between the QDR assessment of 
threats and risks and the language capabilities the Defense Language 
Program develops. One of the principal tools for this is the Strategic 
Language List (SLL). The SLL identifies the languages for which the DOD 
requires substantial in-house capability to support current and future 
plans, programs, and operations, as well as those languages for which 
the Department requires on-call capability in-house for crisis and 
emergency response. The SLL assists the Department in its assessment of 
the threats and determination of the risks we are willing to accept.

    31. Senator Martinez. Mrs. McGinn, how do we integrate the 
potential regional/language requirements of emerging threats into our 
language training plans?
    Mrs. McGinn. The Department is approaching this challenge with a 
four-phased plan:

         (1) Developing tests to measure our capabilities;
         (2) Providing distance learning through web-delivered 
        materials for maintaining and enhancing these skills;
         (3) Offering resident short courses for sustaining and 
        increasing the existing proficiency of members; and
         (4) Creating on-the-shelf initial skills resident training 
        programs for students with no previous exposure to the needed 
        language.

    These four phases will be used in combination or individually to 
meet rising and emerging low density language requirements at the 
DLIFLC.
    The Department relies on policy guidance and threat assessments to 
determine which languages become part of the four-phased plan. These 
inputs help generate the Department's SLL, which identifies the 
languages for which the DOD requires substantial in-house capability to 
support current and future plans, programs, and operations, as well as 
those languages for which the DOD requires on-call capability in-house 
for crisis and emergency response.

       REWARDING OFFICERS FOR LANGUAGE AND CULTURAL CAPABILITIES

    32. Senator Martinez. Mrs. McGinn, in your testimony, you and 
retired Major General Scales both make the point that today's 
operations require new skills, and our military leaders must be 
comfortable working with coalition partners in foreign environments. 
General Scales recommended that military departments find ways to 
reward mid- to senior-grade officers for excellent performance in 
advisory, intelligence, and attache-type duties. In your testimony, you 
outline efforts to strengthen military department foreign area office 
(FAO) programs. Without de-emphasizing vital combat skills, it seems 
like there is still more room to provide incentives to encourage 
officers to seek out and excel in those positions. Besides the increase 
on foreign language proficiency pay, what else does the DOD do to 
encourage excellent performance as a foreign advisor or an attache?
    Mrs. McGinn. DOD members are driven to provide excellent 
performance in all jobs, whether serving as a foreign advisor or 
attache. Additionally, since attaches and advisors are specially 
selected for these positions, they are provided targeted training 
before assuming these duties. For example before becoming an attache, 
the selectee must attend specialized and focused training specific to 
the attache, at the Joint Military Attache School, as well as 
additional language training as necessary.
    There are many incentives available to FAOs, which make the program 
desirable initially, and assists in retaining FAOs once in the program. 
The initial training provided to all FAOs is cited as a major incentive 
to attract the highest quality candidates. A fully-funded Graduate 
degree, learning a language at the DLIFLC, and in-country immersion 
training are the premier incentives for FAOs to join the program. The 
recent improvements in career and promotion opportunities also 
encourage potential FAOs to select this career field.
    Additionally, FAOs are entitled to receive a FLPB and can qualify 
for up to $1,000 per month based on the number of languages spoken and 
proficiency levels.
    The Office of the Secretary of Defense will continue to review the 
Service FAO programs, and related efforts, to ensure we are providing 
the right incentives.

    33. Senator Martinez. Mrs. McGinn, has the Department considered 
incentives, like adding general/flag officer FAO positions in selected 
foreign service functions to provide room to advance beyond the rank of 
colonel (e.g., defense attaches, military advisors or selected senior 
staff positions within Pentagon and regional combatant commanders' 
staffs)?
    Mrs. McGinn. DOD Directive 1315.17 directs the Secretaries of the 
Military Departments to design ``FAO programs to provide opportunity 
for promotion into the general/flag officer ranks.'' To that end, the 
Department is in the process of identifying specific Service and Joint 
General and Flag Officer billets that would be logical career 
progressions for FAOs. The candidate positions include those Defense 
Attache and Office of Defense Cooperation positions coded for a 
general/flag officer (e.g., Russia, China, and the United Kingdom), as 
well as positions in the Services, combatant commands, and the Joint 
Staff that require considerable political-military acumen (e.g., in the 
intelligence and strategic plans and policy areas). The goal is to 
identify billets that would benefit from a general officer FAO serving 
in that position and have the assignments rotate among the Services to 
allow equal opportunity and the time needed to identify, train, and 
promote an FAO to the rank of general/flag officer.

    34. Senator Martinez. Mrs. McGinn, how do we approach the 
requirement to develop language and cultural awareness training within 
the Reserve components?
    Mrs. McGinn. Members of the Reserve components have language and 
cultural training programs available that include, but are not limited 
to, classroom instruction, individual and group tutoring, online 
language courses, and immersion programs--both continental United 
States and outside the continental United States. Additionally, Reserve 
component members can enroll in the DLIFLC resident intermediate and 
advanced language courses, continuing education courses, and DLIFLC 
online services. The Reserve components continue to research new means 
for administering language and culture training that is conducive to 
their unique situation. Language and cultural awareness training within 
the Reserve components mirrors the training that is accomplished in the 
Active components vis-a-vis pre-deployment training.
    In addition, the National Defense Authorization Act for Fiscal Year 
2006 allowed the Department to align foreign language proficiency 
payment for Reserve and Active components by increasing the Reserve 
proficiency pay ceiling up to $12,000 per year. By providing members a 
foreign language proficiency incentive, we expect an increase in 
Reserve component members acquiring and/or improving their foreign 
language proficiency.

    35. Senator Martinez. Mrs. McGinn, their unique training conditions 
make finding time more difficult. Do members of the National Guard and 
Reserves also have access to language and cultural training and are 
they also rewarded/compensated like the Active component?
    Mrs. McGinn. Yes, the Reserve components have access to the DLIFLC 
resident intermediate, advanced, continuing education courses, and 
online services. In regard to Reserve compensation for language, we are 
currently finalizing the DOD FLPB policy. This policy will align FLPB 
payments for Reserve and Active components. As a result, Reserve pay 
will increase from $6,000 annually to a possible $12,000 annually, 
consistent with Section 639 of Public Law 108-163, the National Defense 
Authorization Act for Fiscal Year 2006.

        DEFENSE LANGUAGE STEERING COMMITTEE AND THE WAY FORWARD

    36. Senator Martinez. Mrs. McGinn, the President's NSLI launched 
this year is designed to dramatically increase the number of Americans 
learning critical foreign languages. I also note the DOD's effort to 
take a comprehensive, deliberate look at what we need in this 
increasingly important area, with the naming of the DLSC. It is 
important that this effort to raise the priority of language and 
regional expertise within our Nation and the DOD be sustained. While I 
understand that that DLSC's assessment is not yet complete, what are 
the preliminary findings?
    Mrs. McGinn. The DLSC advises on DOD language issues. In this 
regard, preliminary results of the self-assessment of foreign languages 
within the Department indicate that there may be significant capability 
not apparent in DOD management systems. The findings revealed that, as 
of the current fiscal year, the Department had 141,887 Active 
component; 77,319 Reserve component; and 38,246 civilian members of the 
Total Force who reported having foreign language skills. We are 
committed to ensure that policies mandate the screening of individuals 
as part of the military accession and civilian hiring process. It must 
be underscored that these are reported, not tested proficiencies at 
this time.
    While conducting this self assessment, we have initiated a broad 
look at language requirements across the Department. Going forward, 
these two initiatives should provide a basis for understanding the 
Department's needs.

    37. Senator Martinez. Mrs. McGinn, when will the results of their 
work be released?
    Mrs. McGinn. The DOD's comprehensive and deliberate approach to 
increase language expertise is outlined in the DLTR, which is slated to 
run through fiscal year 2008. The role of the DLSC is as an advisory 
body that oversees progress on the DLTR and the Defense Language 
Program. In this regard, the work of the committee is ongoing. The DLSC 
will not assess NSLI progress, but will be kept informed of DOD's role 
in support of NSLI.

    38. Senator Martinez. Mrs. McGinn, what are the expectations of the 
initiative to develop a Civilian Linguist Reserve Corps (``Language 
Corps'')?
    Mrs. McGinn. The effort to establish a Language Corps responds to 
the reality that the Federal Government can never possess the organic 
capability to address immediate and emergency surge requirements across 
all possible languages. The Corps is a highly innovative concept that 
is designed to take advantage of the extensive and diverse array of 
languages available in the American population. The organization will 
identify, warehouse, and make these skills available when needed.
    The 3-year pilot effort will enable the Department to build and 
test prototype models to determine how a permanent Language Corps 
should be established and function. The goal of the pilot is to recruit 
a minimum of 1,000 members across a number of languages and 
professions. As part of the pilot effort, we will conduct three 
activation exercises in coordination with Federal partners, not only 
from within the DOD, but the Office of the Director of National 
Intelligence, and a domestic partner such as Federal Emergency 
Management Agency or the Centers for Disease Control.
    We are confident that, if successful, the Language Corps can emerge 
as a major component of a long-term solution to national needs for 
language competent professionals.

    39. Senator Martinez. Mrs. McGinn, do you envision eventually 
having the capability to ``call up'' these linguists from across the 
Nation as we might do with a reservist?
    Mrs. McGinn. The Language Corps will be composed of two pools of 
members somewhat akin to the military model of Standby and Ready 
Reserves. There will be a ``National Pool'' of members who volunteer to 
serve and may be available during times of need. There will also be a 
``Dedicated Sponsor Pool'' composed of individuals who agree to perform 
duties in a defined position with a sponsoring Federal organization/
agency. This Dedicated Pool will be smaller in size than the National 
Pool. The members of the Dedicated Pool will be committed to serve if 
called upon, while members of the National Pool will be identified on 
an ``as available'' basis. We are in the process of developing the 
pilot, so exact procedures are not known at this time.

    [Whereupon, at 3:18 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
